           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2001
       FINANCIAL STATEMENTS

     01-AUD-07-28       April 30, 2002




        Office of Inspector General

                 *******

    Federal Communications Commission
                                         OFFICE OF INSPECTOR GENERAL
                                                                        MEMORANDUM




DATE:          April 30, 2002

TO:            Chairman
               Managing Director
               Chief Financial Officer

FROM:          Inspector General

SUBJECT:       Audit of the Federal Communications Commission’s
               Fiscal Year (FY) 2001 Financial Statements


This letter transmits Clifton Gunderson LLP’s (hereafter referred to as “CG-LLP”) report
on its FY 2001 financial statement audit of the Federal Communications Commission
(FCC) and the results of the Office of Inspector General’s (OIG) review thereon.

At the direction of the Department of the Treasury, FCC prepared consolidated financial
statements in accordance with Office of Management and Budget (OMB) Bulletin No.
97-01, Form and Content of Agency Financial Statements, as amended, and subjected
them to audit. The Chief Financial Officers Act of 1990 (Public Law 101-576 referred to
as the “CFO Act”), amended, requires the FCC OIG, or an independent external auditor
as determined by the Inspector General, to audit agency financial statements in
accordance with Government Auditing Standards issued by the Comptroller General of
the United States. Under a contract monitored by the OIG, CG-LLP, an independent
public accounting firm, performed the audit of FCC’s FY 2001 financial statements.


OIG Evaluation of CG-LLP’s Audit Performance

To fulfill our audit responsibilities under the CFO Act for ensuring the quality of the
audit work performed, we conducted a review of CG-LLP’s audit of FCC’s FY 2001
financial statements in accordance with Government Auditing Standards and OMB
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

Specifically, we:

       •       reviewed CG-LLP’s approach and planning of the audit,
       •       evaluated the qualifications and independence of its auditors,
       •       monitored progress of the audit at key points,
       •       examined working papers and audit documents to evaluate compliance
               with Government Auditing Standards,
       •       reviewed CG-LLP’s audit reports to ensure compliance with Government
               Auditing Standards and OMB Bulletin No. 01-02, and
       •       performed other procedures we deemed necessary.

Based on the results of our review, we determined CG-LLP planned, executed, and
reported the results of its audit of FCC’s FY 2001 financial statements in accordance with
applicable auditing standards. Therefore, in our opinion, CG-LLP’s work provides a
reliable basis for the firm’s opinion on FCC’s FY 2001 financial statements. Based on
our review of the audit, we concur with CG-LLP’s finding of reportable conditions
related to internal control and instances of noncompliance with applicable laws and
regulations. Accordingly, we concur with its reports thereon.



Opinion on the Financial Statements

CG-LLP issued a qualified opinion on FCC’s FY 2001 Consolidated Balance Sheet,
Statement of Net Cost, Statement of Changes in Net Position, Statement of Financing,
and Combined Statement of Budgetary Resources and an unqualified opinion on the
Statement of Custodial Activity. CG-LLP opined, except for the effects of such
adjustments to the FY 2001 Consolidated Balance Sheet, and the related Consolidated
Statements of Net Cost, Changes in Net Position, and Financing, and the Combined
Statement of Budgetary Resources, if any, as might have been necessary had we been
able to perform adequate audit procedures on the reporting entities, amounts and
programs costs allocation referred to in the explanatory paragraph, the Principal
Statements and related notes referred to above present fairly, in all material respects, the
financial position of the FCC as of September 30, 2001 and 2000, and its net cost;
changes in net position; budgetary resources; reconciliation of net cost to budgetary
obligations; and custodial activity for the years then ended in conformity with accounting
principles generally accepted in the United States of America.



Matters Pertaining to Effectiveness of Internal Control Identified During the Audit

In performing its internal control testing of controls necessary to achieve the objectives in
OMB Bulletin No. 01-02, CG-LLP identified matters relating to significant deficiencies
in the design or operation of FCC’s internal control that, in its judgment, could aversely
affect FCC’s ability to record, process, summarize, and report financial data consistent
with the assertions by management in the financial statements. Specifically, these
matters where categorized as material weaknesses and reportable conditions per
definitions of the American Institute of Certified Public Accountants.



                                             2
Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relating to the financial
statements may occur and not be detected within timely period by the employees in the
normal course of performing their assigned functions. CG-LLP identified material
weaknesses in the areas of:

       •       Financial Reporting
       •       Cost Accounting System
       •       Universal Service Fund Financial Reporting
       •       Loans Receivable and Related Accounts
       •       Information Technology

CG-LLP identified additional reportable conditions not considered to be material
weaknesses. Other reportable conditions include:

       •       Controls Surrounding Data Used in the Preparation of the Management
               Discussion and Analysis
       •       Internal Controls Over Certain Accounts Receivable
       •       Supporting Documentation and Controls on Property and Equipment
       •       Controls Over Accounts Receivable and Accounts Payable Subsidiary
               Records
       •       Compliance with Certain Aspects of the Clinger-Cohen Act of 1996
       •       OMB Circulars No. A-127 and A-130 Reviews


Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FCC’s financial statements
are free of material misstatements, CG-LLP performed tests of compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 01-02, including the requirements referred
to in the Federal Financial Management Improvement Act of 1996. As appropriate, CG-
LLP limited its tests of compliance to these provisions and it did not test compliance with
all laws and regulations applicable to FCC.

CG-LLP’s tests disclosed instances of noncompliance with specific laws and regulations
required to be reported under Government Auditing Standards and OMB Bulletin No. 01-
02 as follows:

       •       Chief Financial Officer s Act of 1990
       •       Debt Collection Improvement Act of 1996



                                            3
       •      Government Performance and Results Act of 1993
       •      Federal Financial Management Improvement Act of 1996

In accordance with generally accepted government auditing standards, the Reports of the
Independent Auditor prepared by CG-LLP are dual dated, February 22, 2002 and March
5, 2002, the last days of audit fieldwork.

Should you or your staff have any questions, please contact me or Thomas Bennett,
Assistant Inspector General for Audit, on (202) 418-0470. We appreciate the courtesies
and cooperation extended to Clifton Gunderson LLP and to the OIG staff during the
conduct of the audit and review.




                                            H. Walker Feaster, III
                                            Inspector General


Attachment




                                           4
TABLE OF CONTENTS




TRANSMITTAL MEMORANDUM


SECTION I              INDEPENDENT AUDITOR’S REPORT

      Opinion on the Financial Statement                                         2


SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL

      Material Weaknesses:

      I.       Financial Reporting                                               2

               A. Internal Controls on the Preparation of Financial Statements   3

               B. Supervisory Review of the Universal Service Fund and
`                 Telecommunications Relay Service Fund Financial
                  Reporting Process                                              4

               C. Changes in Accounting for Program Costs                        5

               D. Auditable Financial Data for the Local Number Portability
                  Administration                                                 6

               E. Integrated Financial Management Systems                        6

               F. Federal Financial System Setup and Posting Model Definitions   8

               G. Record Activities Timely and Prepare and Analyze Financial
                  Activity                                                       8

               H. Federal Agencies’ Centralized Trial-Balance System
                  (FACTS) I Reporting Process                                    10

               I.   Combination of Reportable Conditions
                    May Materially Impact Financial Statements                   11

       II.     Cost Accounting System                                            15

       III.    Universal Service Fund Financial Reporting                        18




01-AUD-07-28           REPORT ON THE FEDERAL COMMUNICATIONS                           Page i
                       COMMISSION’S FISCAL YEAR 2001 FINANCIAL STATEMENTS
TABLE OF CONTENTS


      IV.      Loans Receivable and Related Accounts                       23

               A. FCC Current Loan Subsidiary Ledger System                23

               B. General Ledger to the Subsidiary Ledger Balance
                  Reconciliations                                          25

      V.       Information Technology                                      27

               A. Compliance with OMB Circular No. A-130 Requirement
                  for a Comprehensive Security Plan                        27

               B. Inadequacies and Inconsistencies in the Mainframe
                  and Network Access Request Process                       29

               C. Accelerate Efforts to Develop and Test FCC’s
                  Contingency Plans                                        29

      Reportable Conditions:

      VI.      Controls Surrounding Data Used in the Preparation of the
               Management Discussion and Analysis                          33

      VII.     Internal Controls over Certain Accounts Receivable          34

               A. Regulatory Fees                                          34

               B. Application Processing Fees                              35

      VIII.    Supporting Documentation and Controls
               on Property and Equipment                                   37

               A. Capitalized Costs Not Distinguished
                  from Non-Capitalized Costs                               37

               B. Accounting for In-Process and Completed Software         38

      IX.      Controls over Accounts Receivable and Accounts Payable
               Subsidiary Records                                          40

      X.       Compliance with Certain Aspects of the
               Clinger-Cohen Act of 1996                                   42

      XI.      OMB Circulars No. A-127 and A-130 Reviews                   45




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                      Page ii
                      COMMISSION’S FISCAL YEAR 2001 FINANCIAL STATEMENTS
TABLE OF CONTENTS




SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS

       Chief Financial Officers Act of 1990                                 2

       Debt Collection Improvement Act of 1996                              3

       Government Performance and Results Act of 1993                       3

       Federal Financial Management Improvement Act of 1996                 5


SECTION IV            FEDERAL COMMUNICATIONS COMMISSION
                      FISCAL YEAR 2000 ANNUAL FINANCIAL REPORT

       Management’s Discussion and Analysis                                 1

       Consolidated Balance Sheets                                         43

       Consolidated Statements of Net Cost                                 44

       Consolidated Statements of Changes in Net Position                  45

       Combined Statements of Budgetary Resources                          46

       Consolidated Statements of Financing                                47

       Consolidated Statements of Custodial Activity                       48

       Notes to Consolidated Financial Statements                          49

       Required Supplementary Information                                  89

       Other Accompanying Information                                  100


SECTION V             STATUS OF RECOMMENDATIONS
                      FROM PRIOR YEAR FINANCIAL STATEMENT AUDIT


SECTION VI            ACRONYMS




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                      Page iii
                      COMMISSION’S FISCAL YEAR 2001 FINANCIAL STATEMENTS
         SECTION I

INDEPENDENT AUDITOR’S REPORT
SECTION I                     INDEPENDENT AUDITOR’S REPORT




CG TEXT



A1
                                   Independent Auditor’s Report


To the Inspector General of the
Federal Communications Commission


We have audited the accompanying consolidated balance sheets of the Federal
Communications Commission (FCC) as of September 30, 2001 (FY 2001) and 2000 (FY
2000), and the related consolidated statements of net cost and changes in net position,
combined statements of budgetary resources, and consolidated statements of financing
and custodial activity for the years then ended (collectively the Principal Statements).
These Principal Statements are the responsibility of the FCC’s management. Our
responsibility is to express an opinion on these principal statements based on our audits.

Except as discussed in the following paragraph, we conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. Those
standards and OMB Bulletin require that we plan and perform the audits to obtain
reasonable assurance about whether the Principal Statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Principal Statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall Principal Statements’ presentation. We believe our audits provide
a reasonable basis for our opinion.



Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050


                                                                                 h
fax: 301-931-1710
www.cliftoncpa.com                    Offices in 13 states and Washington, DC




01-AUD-07-28                  REPORT ON THE FEDERAL COMMUNICATIONS                  Page 1
                              COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION I             INDEPENDENT AUDITOR’S REPORT



The FCC did not include the Local Number Portability Administration (LNPA), a FCC
reporting entity, in its Principal Statements. The FCC was not able to provide adequate
financial information to enable us to determine the materiality of this reporting entity to
the FCC Principal Statements, nor were we able to satisfy ourselves as to the significance
of the LNPA reporting entity to the FCC Principal Statements by performing other
auditing procedures.

The FCC changed its method of accounting and financial statement presentation of the
Universal Service Fund’s, a FCC reporting entity, collections and disbursements for FY
2001 late in the audit process, and were unable to obtain adequate documentation to
support certain amounts including earned revenues of $5,353 million and program costs
of $4,981 million. We were unable to satisfy ourselves as to these amounts by
performing other auditing procedures.

The FCC changed its financial statement presentation of FCC costs for FY 2001 on the
statement of net cost as described in Note 17, late in the audit process. FY 2001 Budget
Estimates Submitted to Congress established five programs from which costs are
accounted. The change from four FCC reporting entity programs in FY 2000 to five
programs in FY 2001 did not, however, result in a corresponding change in the FCC cost
accounting processes. The FCC did not collect cost information using the new programs,
and continued to track costs using the same cost activity codes for the four programs in
FY 2001. As a result, the FCC had to re-allocate costs after year-end from the four
programs to the five programs for its statement of net cost using budget and other
sources. We were unable to adequately verify these allocations, nor were we able to
satisfy ourselves as to the allocation of the costs to the five programs by performing other
auditing procedures.

In our opinion, except for the effects of such adjustments to the FY 2001 consolidated
balance sheet, and the related consolidated statements of net cost, changes in net position,
and financing and the combined statement of budgetary resources, if any, as might have
been necessary had we been able to perform adequate audit procedures on the reporting
entities, amounts and program costs allocation referred to in the preceding paragraph, the
Principal Statements and related notes referred to above present fairly, in all material
respects, the financial position of the FCC as of September 30, 2001 and 2000, and its net
cost; changes in net position; budgetary resources; reconciliation of net cost to budgetary
obligations; and custodial activity for the years then ended in conformity with accounting
principles generally accepted in the United States of America.

As discussed in Note 29, Subsequent Events, on March 4, 2002 the Supreme Court of the
United States agreed to hear a case involving the FCC auction in FY 2001 (Auction 35)
of certain licenses of spectrum associated with previously auctioned spectrum licenses.
The winning bids from Auction 35 represent recoveries on a significant portion of the
FCC’s credit reform delinquent loans. The recovery is a significant factor in the FCC’s




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                            Page 2
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION I             INDEPENDENT AUDITOR’S REPORT



calculation of its annual credit reform subsidy. The accompanying Principal Statements
have not been adjusted for any potential effects of this subsequent event.

As discussed in Note 28, Change in Accounting Principle, the FCC changed its
accounting treatment for the Universal Service Fund from “custodial” method in FY 2000
to “programmatic” method in FY 2001.

Also, as discussed in Note 1, Summary of Significant Accounting Policies: Revenues and
Other Financing Sources: Radio Spectrum Auction Proceeds (Exchange), the FCC
changed its policy of recognizing auction revenue in FY 2001 from recognizing revenue
at the time the second down payment is received to the time a “prepared to grant” public
notice is issued.

In accordance with Government Auditing Standards, we have also issued our reports
dated February 22, 2002 on our consideration of the FCC’s internal control over financial
reporting, and on our tests of the FCC’s compliance with certain provisions of laws and
regulations. These reports are an integral part of our audits performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audits.

Our audits were made for the purpose of forming an opinion on the Principal Statements
taken as a whole. The Management Discussion and Analysis and Required Supplemental
Information are not a required part of the Principal Statements but are supplementary
information required by OMB Bulletins entitled Form and Content of Agency Financial
Statements (No. 97-01, as amended, and the portions of No. 01-09 that are required to be
implemented in fiscal year 2001). The Other Accompanying Information is presented for
the purposes of additional analysis and is not a required part of the Principal Statements.
Such information contains a wide range of data, some of which are not directly related to
the Principal Statements. We have applied certain limited procedures, which consisted
principally of comparing this information for consistency with the Principal Statements
and discussing the methods of measurement and presentation with the FCC management.
However, we did not audit the information and express no opinion on it.

a1
Calverton, Maryland
February 22, 2002, except for Note 29, as to which the date is March 5, 2002




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
         SECTION II

INDEPENDENT AUDITOR’S REPORT
    ON INTERNAL CONTROL
SECTION II                    INDEPENDENT AUDITOR’S
                              REPORT ON INTERNAL CONTROL




A1
                        Independent Auditor’s Report on Internal Control


To the Inspector General of the
Federal Communications Commission


We have audited the Principal Statements (hereinafter referred to as “financial
statements”) of the Federal Communications Commission (FCC) as of and for the year
ended September 30, 2001, and have issued our report thereon dual dated February 22,
2002 and March 5, 2002. We conducted our audit in accordance with generally accepted
auditing standards in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered FCC’s internal control over
financial reporting by obtaining an understanding of FCC’s internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act (31 U.S.C. 3512), such
as those controls relevant to ensuring efficient operations. The objective of our audit was
not to provide assurance on internal control. Consequently, we do not provide an opinion
on internal control.



Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050


                                                                                  h
fax: 301-931-1710
www.cliftoncpa.com                    Offices in 13 states and Washington, DC




01-AUD-07-28                  REPORT ON THE FEDERAL COMMUNICATIONS                   Page 1
                              COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. However, we noted certain
matters discussed in the following paragraphs involving the internal control and its
operation that we consider to be reportable conditions and material weaknesses.

In addition, with respect to internal control related to performance measures reported in
FCC’s Management Discussion and Analysis (MD&A), we obtained an understanding of
the design of significant internal controls relating to the existence and completeness
assertions, as required by OMB Bulletin No. 01-02. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls. However, we noted certain
significant deficiencies in internal control over reported performance measures discussed
in the following paragraphs that, in our judgment, could adversely affect the agency’s
ability to collect, process, record, and summarize performance information and report
performance measures in accordance with management’s criteria.

                 ********************************************

MATERIAL WEAKNESSES

I.     Financial Reporting (Modified Repeat Condition)

       The Chief Financial Officers (CFO) Act of 1990 assigned responsibility for
       developing and maintaining integrated accounting and financial management
       systems including financial reporting and internal control to each Federal agency.
       OMB Bulletins No. 97-01 and 01-09, Form and Content of Agency Financial
       Statements, define the form and content of financial statements to be prepared by
       each agency. To accomplish the objective of complying with the CFO Act, the
       agency is required to develop a system to prepare a complete set of financial
       statements on a timely basis in accordance with generally accepted accounting




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 2
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       principles. The statements are to result from an accounting system that is an
       integral part of a total financial management system containing sufficient
       structure, effective internal control, and reliable data. Financial reporting also
       consists of policies and procedures related to the processing and summarizing of
       accounting entries and the preparation of financial statements.

       FCC’s financial reporting process has significantly improved over the last couple
       years. FCC has established and maintained adequate audit trails used in preparing
       its financial statements, and prepared United States Standard General Ledger
       (USSGL) crosswalks. Still, many of the planned policies and procedures
       designed to enhance the reliability, efficiency and the effectiveness of the
       financial reporting process have not been fully implemented or need further
       improvement. Full implementation of these policies and procedures would allow
       FCC to prepare reliable financial statements in a more timely and efficient manner
       at interim periods and at year-end.

       FCC’s financial reporting weaknesses are detailed as follows:

       A. Internal Controls on the Preparation of Financial Statements

          OMB Bulletin 01-02 (2.g.) defines “internal control” as it relates to the
          Principal Statements, as a process effected by the agency’s management and
          other personnel, designed to provide reasonable assurance on the reliability of
          financial reporting.

          Our review of the draft financial statements disclosed numerous errors that we
          believe, would have been detected had adequate and effective quality control
          review procedures been in place and applied to the statements. Although these
          errors were eventually corrected, it resulted in delays in the audit process.
          Some significant errors are as follows:

               •   Overstatement of $1.2 billion in the Revenue section and the
                   Transferred to Others section of the Statement of Custodial Activity
                   (SCA) resulting from an erroneous journal entry.
               •   Understatement of $4.6 billion in the credit reform costs and the credit
                   reform revenue of the Statement of Net Cost (SNC) due to an
                   erroneous eliminating entry.
               •   Understatement of $11.9 million in the Obligated Balance, Net – end
                   of period and of $12.8 million in the Outlays of the Statement of
                   Budgetary Resources (SBR) due to an incorrect formula link on the
                   cross-walk spreadsheet used in preparing the statement.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



               •   Understatement of $25 million in the loan interest revenue (credit
                   reform revenue) of the SNC due to untimely recording of transactions
                   and ineffective or inadequate review process.
               •   Understatement of $12 million in the Universal Service Fund (USF)
                   data costs in the initial SNC due to erroneously transferring of nine
                   months instead of 12 months of data from the USF trial balance to the
                   FCC financial statements consolidating spreadsheets.
               •   Overstatement of $34 million in the USF accounts receivable of the
                   Balance Sheet (BS) due to a duplicate transaction.
               •   Understatement of $36 million in the USF accounts receivable and the
                   accounts payable of the BS because FCC did not adjust credit balances
                   in accounts receivable.

          Management Comments:

          Management concurs. The increasing financial statement demands and the
          implementation of operational controls have drawn resources away from the
          final review process. FCC believes that the controls now implemented at
          earlier points in the process will allow additional time in the review phase to
          perform better quality control and analytical procedures. Additionally, USAC
          has increased its internal controls to prevent the issues noted from recurring.

       B. Supervisory Review of the USF and Telecommunication Relay Service
          Fund (TRS) Financial Reporting Process

          FCC does not have any documented policies and procedures, nor did it apply
          adequate review procedures to ensure that USF and TRS financial data are
          accurate, reasonable, and properly supported prior to inclusion in the
          consolidated financial statements. However, FCC did provide data requests
          and communicated with USF and TRS entity management regarding
          consolidation efforts. Nevertheless, adjustments as noted above and below
          were only identified during the audit process.

               •   Evaluation of the allowance for doubtful accounts was not in
                   accordance with the Statement of Federal Financial Accounting
                   Standards (SFFAS) No. 1, Accounting for Selected Assets and
                   Liabilities, resulting in understatement of $30 million.
               •   Investments were not accounted for in accordance with SFFAS No. 1,
                   resulting in understatement of $9 million in investments (net of $4
                   million in investment discounts) and an overstatement of $12 million
                   in interest receivable.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 4
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          FCC management is responsible for obtaining reasonable assurance on the
          completeness and the reliability of the USF and TRS financial reporting and
          its compliance with laws and regulations before information is consolidated
          into the FCC financial statements.

          Management Comments:

          Management concurs. Similar to the situation above, FCC has been working
          with Universal Service Administrative Company (USAC) to develop more
          standard reporting practices such as standard information requirements and
          reporting timeframes. Additionally, FCC intends to meet with the USF parties
          to discuss what can be improved for the fiscal year (FY) 2002 process. Full
          integration of USF into FCC’s reporting will not occur until the USF is
          deemed Federal funds and subject to full Federal reporting from
          apportionment, allocation, and collection through disbursement.

       C. Changes in Accounting for Program Costs

          FY 2001 Budget Estimates Submitted to Congress established five programs
          from which costs are accounted. The change from four FCC reporting entity
          programs in FY 2000 to five programs in FY 2001 did not, however, result in
          a corresponding change in the FCC cost accounting processes. FCC did not
          collect cost information using the new programs, and continued to track costs
          using the same cost activity codes for the four programs in FY 2001. As a
          result, FCC had to re-allocate costs after year-end from the four programs to
          the five programs for its SNC using budget and other sources which could not
          be adequately verified. In addition, FCC did not have a clear description or
          definition of costs that should be charged to the newly established program,
          Spectrum Management. (See related finding in Section II, Cost Accounting
          System.)

          Management Comments:

          Management concurs. The current FCC cost accounting system is antiquated
          and did not have the flexibility to convert from a four to a five program basis.
          FCC was in the process of and has since completed a requirements analysis
          for a new cost accounting system. Until FCC procures and implements a new
          system, FCC will be forced by resource limitations to continue to perform
          additional cost finding techniques, similar to the ones performed at year-end,
          to allocate costs to five programs.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 5
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



       D. Auditable Financial Data for the Local Number Portability Administration
          (LNPA)

          FCC Office of the General Counsel (OGC) determined that LNPA met the
          indicative criteria of a reporting entity per Statement of Federal Financial
          Accounting Concepts (SFFAC) No. 2, Entity and Display. OGC further stated
          that if LNPA also met the materiality criterion, the SFFAC would require the
          LNPA to be considered a component of FCC. To determine LNPA’s
          materiality to the FCC consolidated financial statements, FCC provided
          financial data that was not supported by adequate information for audit
          purposes.

          Management Comments:

          Management concurs. For FY 2002 reporting, FCC has made contact with the
          entity and will initiate additional efforts to gain the information necessary to
          both validate the inclusion of the LNPA within the FCC entity and obtain the
          necessary information required by the rules governing financial reporting.

       E. Integrated Financial Management Systems ( Modified Repeat Condition)

          OMB Circular No. A-127, Financial Management Systems requires that each
          agency establish and maintain a single integrated financial management
          system. Without a single integrated financial management system to ensure
          timely and accurate financial data, poor policy decisions may occur, due to
          inaccurate or untimely information. Managers are less likely to be able to
          report accurately to the President, Congress, and the public on Government
          operations in a timely manner. And, scarce resources are more likely to be
          directed toward the collection of information rather than to delivery of the
          intended programs.

          Having a single, integrated financial management system does not necessarily
          mean having only one software application covering all financial management
          system needs within an agency. Also, it does not mean that all information is
          physically located in the same database. Rather, a single, integrated financial
          management system is a unified set of financial systems linked together
          electronically in an efficient and effective manner to provide agency-wide
          financial system support. Integration means that the user is able to have one
          view into systems such that, at whatever level the individual is using the
          system, he or she can obtain needed information efficiently and effectively
          through electronic means. Interfaces are acceptable as long as the supporting
          detail is maintained and accessible to managers. Interface linkages must be




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 6
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          electronic unless the number of transactions is so small that it is not cost
          beneficial to automate the interface. Easy reconciliations between systems,
          where interface linkages are appropriate, must be maintained to ensure data
          accuracy.

          FCC utilizes the Federal Financial System (FFS) as its general ledger and core
          financial management system. FFS is not capable of generating most data
          analysis user reports on a real time basis. To compensate for FFS limitations,
          FCC uses a software application to download data from the FFS for its
          analysis. Also, FCC’s fee collection database is not linked to its licensing
          databases, making it difficult for FCC to perform routine automated checks on
          whether all licensees have paid their regulatory fee. Other financial
          management systems used at FCC include the property management system,
          loan database spreadsheets, license databases, collection system, cost system,
          commercial accounting software for fines and forfeitures, and various
          spreadsheet applications. None of these financial management systems are
          integrated.

          FCC has an on-going effort during the last two years to strengthen its financial
          management systems. FCC management expected to achieve some level of
          financial management systems’ integration by implementing the Revenue
          Accounting and Management Information System (RAMIS) by September 30,
          2000. RAMIS is designed to integrate, among others, the direct loan system,
          fee billing and collection systems, fines and forfeitures, licensees’ databases,
          interface with FFS and include a module for cost accounting system. FCC,
          however, did not meet this expectation, as RAMIS was not operational at
          September 30, 2001. As of September 30, 2001, four of the seven modules
          were completed and parallel testing of the four modules remained in progress.

          Management Comments:

          Management concurs. The effort to develop an integrated financial system
          has been ongoing since FY 1999. A major part of that effort is the
          implementation of the RAMIS. During FY 2002, FCC plans to implement
          additional modules; all modules will be fully integrated with FFS.

          During FY 2001 the FCC implemented the Commission Registration System
          (CORES) that assigns a common FCC Registration Number (FRN) number to
          licensees making payments. The implementation of this system is important
          to the integration of the multiple licensing databases maintained by the FCC
          and the fee collection system (ultimately RAMIS) because the FRN will be
          the universal data field that can be used to link these systems.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 7
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          Finally, FCC completed a requirements analysis in FY 2001 for a new cost
          accounting system which it hopes to implement in FY 2003.

       F. Federal Financial System Setup and Posting Model Definitions (Modified
          Repeat Condition)

          As reported in the prior year, FFS system setup and posting model definitions
          do not fully comply with the transaction posting models consistent with
          USSGL guidance and policies, when recording and classifying transactions.
          Although USSGL numbers, definitions, and standard accounting entries were
          regularly updated and revised by the Department of the Treasury’s, Financial
          Management Service (FMS) over the years, the FCC general ledger system
          set-up remained substantially unchanged until recently. Thus, system
          deficiencies may impair the quality and the reliability of the financial
          management information.

          In an effort to address this weakness, FCC contracted with FFS’ developer
          who made detailed recommendations to enhance FFS compliance with the
          USSGL and to facilitate use of external reporting capabilities of FFS. The
          final review and testing of the recommended changes, however, were still in
          progress during FY 2001.

          Management Comments:

          Management concurs. All the recommendations provided by the outside
          contractor FCC hired at the close of FY 2000 were reviewed and the changes
          have now been implemented. FCC continues to evaluate its posting models
          with respect to impact on financial reporting and is aware of additional
          changes that need to be made in FY 2002.

       G. Record Activities Timely and Prepare and Analyze Financial Activity
          (Modified Repeat Condition)

          Although FCC prepared its interim financial statements at June 30, 2001, the
          interim statements did not reflect current accounting activities for certain areas
          and the form and content of the principal financial statements only partially
          met the guidance in OMB Bulletins No. 97-01 and 01-09. Interim financial
          statements are expected to reflect the current financial condition and
          operations to allow management to analyze data and make decisions based on
          reported information. The delays in recording transactions and events resulted
          in substantial number of journal entries made toward the end of the reporting




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                             Page 8
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



          period. Some of the activities that were not being recorded timely were as
          follows:

               •   Software placed in service was not reclassified to the completed
                   software category and was not being depreciated as a result.
               •   Loan collections, interest receivable and revenue were not consistently
                   recorded when earned but recorded when needed for financial
                   statement preparation purposes.
               •   Evaluation of the allowance for doubtful accounts and accounts
                   payable accrual were not being performed until year-end.

          Not recording or delays in recording transactions make data on the interim
          financial statements unreliable and unusable by management for decision
          making purposes. Standards for Internal Control in the Federal Government,
          issued by the General Accounting Office (GAO) in November 1999, page 15
          states that “Transactions should be promptly recorded to maintain their
          relevance and value to management in controlling operations and making
          decisions.” Regular financial statement preparation and analysis on a monthly
          or quarterly basis may eliminate the need for many of these adjustments
          during the year-end closing process and reduce the risk that material errors or
          irregularities in general ledger accounts remain undetected until after the end
          of the fiscal year.

          Management Comments:

          Management concurs. FCC implemented a number of account reconciliations
          during FY 2001 that will be in place for FY 2002 and will help improve the
          timeliness of adjusting entries. Changes have already been made to the in-
          process software schedule, designed to highlight more clearly those items that
          have been added to in-process or moved to fixed assets, for the first quarter of
          FY 2002. The timeliness of fixed asset entries will be a target for
          improvement in FY 2002.

          FCC continues to work towards improving the recordation of its loan
          receivable and interest receivable transactions via our internal system,
          RAMIS, as well as the parallel processing by our loan service provider. Until
          the loan service provider is fully implemented, FCC will continue to rely on
          the loan model prepared by its contractor, recognizing the associated delays
          inherent in that process.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 9
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



       H. Federal Agencies’ Centralized Trial-Balance System (FACTS) I
          Reporting Process

          FCC is required by FMS to submit final FACTS data by March 1, 2002 in
          accordance with the Treasury Financial Manual (TFM) Transmittal Letter No.
          602. In addition to the submission of the FACTS data, FCC CFO is required
          to perform certain procedures and submit the results of these procedures to
          FMS by March 1, 2002. FCC obtained permission from FMS to submit the
          FCC CFO Final Account Grouping Worksheet (AGW) and the USF CFO
          Final AGW procedures separately on different dates. The FCC CFO AGW
          report was submitted on March 1, 2002, and the USF CFO AGW report was
          submitted on March 6, 2002.

          Although the FCC CFO Final AGW report was submitted by the due date, two
          resubmissions were requested by FMS to the Final FCC AGW report. These
          resubmissions were due to FCC errors and failure to incorporate last minute
          adjustments to the Final AGW report.

          In addition to the Final AGW reports, FCC was also required to submit CFO
          Procedures for Intragovernmental Activity and Balances (Intragovernmental
          Report) by March 1, 2002. We reviewed three of these procedures under an
          agreed-upon procedures engagement for the Office of Inspector General
          (OIG). Our review of the CFO procedures disclosed that the response to one
          of the three procedures was not adequate, resulting in our inability to perform
          the agreed-upon procedures. Further inquiry disclosed that the report was
          completed late and in a rush to meet the reporting deadline set by FMS, there
          was no adequate review or a thorough thought process as to how to respond to
          this specific procedure.

          Management Comments:

          Management concurs. The USF CFO Final AGW was submitted late and
          FCC informed FMS as soon as it was aware of problems that would preclude
          meeting the March 1st deadline. FCC will enhance the existing FACTS I
          polices and procedures to include an integrated plan for accomplishing all the
          required work outlined in the TFM and specified deadlines. Proper cutoff
          dates will be established to complete final report drafts to allow an adequate
          review process by management prior to submitting the reports to OIG, OMB,
          GAO, and FMS.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 10
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       I. Combination of Reportable Conditions May Materially Impact Financial
          Statements (Repeat Condition)

            Reportable conditions noted in this report are internal control weakness
            relating to reconciliation procedures which collectively could have a material
            impact on FCC’s ability to produce reliable financial statements in an efficient
            and timely manner and to comply with the intent of the CFO Act.

            Management Comments:

            Management concurs. Management acknowledges that collectively, the
            reportable conditions highlighted in the report could result in errors that would
            be material to the financial statements.

       Recommendations:

       We believe that FCC’s continued efforts to meet its commitment to excellence in
       financial reporting have resulted in many positive changes in this year’s financial
       reporting process. FCC established a separate Financial Statements and Policy
       Group (FSPG) within its Financial Operations Center (FO) to address both
       financial statement preparation and financial policies and procedures. The FSPG,
       however, needs more time to put its financial processes and controls in place and
       to implement them. We recommend the following:

       1.      Implement an effective quality control mechanism to ensure that a senior
               official other than the preparer reviews the financial statements prior to
               issuance.

               Management Comments:

               Management concurs. FCC has only informal controls in place that allow
               for review of its statements by senior management. In FY 2002, FCC will
               complete policies and procedures surrounding financial preparation and will
               formalize controls in those procedures.

       2.      Ensure that USF and TRS financial information provided by the USAC and
               National Exchange Carrier Association (NECA), respectively, are reviewed
               for accuracy, reasonableness, and propriety prior to its incorporation in the
               FCC consolidated financial statements.           Establish two-way open
               communications allowing USAC and NECA to review USF information
               included in the FCC consolidated financial statements.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                          Page 11
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               Management Comments:

               Management concurs. Steps were taken in FY 2001 to define requirements
               and improve communications between FCC and USF entities. Steps
               included the establishment of required schedules to be provided on a
               quarterly basis and the conduct of several meetings with both groups to
               discuss requirements. FCC intends to formalize the process in its policies
               and procedures manual; however, full, effective control in this area is
               unlikely until a final determination is reached concerning the Federal nature
               of the funds.

       3.      Formalize and continue the assignment of one or more FO staff who will be
               responsible for obtaining an in-depth understanding of the USF and the TRS
               financial operations, and who will work with the Common Carrier Bureau
               (CCB) to comprehensively review financial and operational information
               provided by USAC and NECA.

               Management Comments:

               Management concurs. Management has incorporated the assignment of one
               individual within the Office of Managing Director (OMD) as a point of
               contact for USF and other entities.

       4.      Document clearly the legal, financial, and operational boundaries of FCC,
               USF, TRS, USAC, and NECA. With the assistance of OGC, USAC, and
               NECA, FCC management needs to formally define in writing each financial
               management role and responsibility to avoid confusion and
               misunderstanding.

               Management Comments:

               Management concurs.

       5.      Develop a formal financial reporting compilation process that adequately
               addresses the processes and the issues arising from consolidating the USF
               and TRS.

               Management Comments:

               Management concurs. In FY 2001 FCC developed a more formal crosswalk
               for converting USF entities’ trial balances to the USSGL and then linking
               them to the financial statements. However, policies and procedures with




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 12
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               respect to this process were not completed by year-end. These procedures
               will be completed and implemented during FY 2002 assuming a final
               determination concerning the Federal nature of funds is provided timely.

       6.      Revise the Financial Coding Handbook’s activity codes and implement cost
               accumulation techniques to track the costs of FCC reporting entity’s five
               programs (excluding credit reform which is tracked separately.) In addition,
               FCC should track the USF program costs incurred by the FCC reporting
               entity.

               Management Comments:

               Management concurs.         FCC recognizes that additional cost finding
               techniques need to be used in FY 2002 to improve the accuracy of the net
               cost allocation. FCC intends to utilize an independent certified public
               accounting firm to assist in performing these procedures. Current activity
               codes will not be revised; other costing methods will be used for FY 2002.

       7.      Provide a clear, consistent and uniform terminology and definition of each
               program, especially the Spectrum Management program. Clearly document
               and outline direct costs that should be charged to each program.

               Management Comments:

               Management concurs. As part of the performance of additional cost finding
               techniques, FCC intends to develop a better documented understanding of
               how bureaus and offices are involved with each program and the level of
               their involvement.

       8.      Train employees on the proper use of the revised activity codes and
               emphasize the importance of properly coding their time.

               Management Comments:

               Management concurs. FCC does not intend to revise the current activity
               code structure for FY 2002. FCC states that reinforcement of proper coding
               practices is always beneficial.

       9.      Obtain adequate auditable information from LNPA to support its financial
               information.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 13
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               Management Comments:

               Management concurs. FCC established a position within OMD to address
               specific outside entity reporting issues, of which, LNPA is primary.

       10.     Assess the degree of integration that the RAMIS will provide in the overall
               financial management systems. Document the plan outlining the steps taken
               (i.e., processes, data stewardship, management information, systems
               architecture, internal control) to meet a unified set of financial systems
               linked together electronically in efficient and effective manner to provide
               agency-wide financial system support.

               Management Comments:

               Management concurs. RAMIS is being implemented to fully integrate with
               existing core financial systems and will replace several non-integrated
               applications.

       11.     Continue to update and correct FFS to comply with the transaction posting
               models consistent with standard general ledger (SGL) guidance and policies
               when recording and classifying transactions. Ensure that changes made to
               FFS are tested and accepted before they go into live production.

               Management Comments:

               Management concurs. At the close of FY 2000, FCC hired the developer of
               FFS to perform a review of the posting model and provide
               recommendations. All recommendations were received during FY 2001 and
               have now been acted upon. Certain FCC fund specific changes, unrelated to
               the FFS review, are needed to improve the financial reporting process. FCC
               intends to address these changes in FY 2002.

       12.     Continue to review all frequently used transaction types and transaction
               codes to ensure that the accounting entries (budgetary and proprietary) are
               correct.

               Management Comments:

               Management concurs. FCC is aware of certain fund specific changes that
               need to be addressed in FY 2002.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                       Page 14
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       13.     Record transactions on a timely basis.         Proper cut-off should be
               implemented when preparing interim financial statements.

               Management Comments:

               Management concurs. As the quarterly financial preparation becomes
               more familiar, management believes cut-off procedures also will become
               better defined encouraging the timelier recordation of all transactions.

       14.     Provide focused training, such as FACTS I report preparation to staff
               responsible for the preparation and review of these reports.

               Management Comments:

               Management concurs. Staff training on FACTS I is planned.

       15.     Review any official financial reports prior to their issuance to ensure the
               accuracy and propriety of the data.

               Management Comments:

               Management concurs.


II.    Cost Accounting System (Modified Repeat Condition)

       FCC’s cost accounting system has not been a fundamental part of the financial
       management system. Although cost reports are generated and distributed to
       various FCC bureaus and offices, the reliability of these reports is questionable
       due to the lack of review of the cost allocation methodology and formulas, and the
       lack of review of proper application of the cost accounting activity codes. The
       cost accounting system is so inadequate that FCC does not use its reports in
       preparing its financial statements or analyzing program costs. In addition, we do
       not believe that the employees from the bureaus and offices outside of FO, who
       are responsible for financial-related activities, fully understand the importance of
       properly coding the obligations/expenditures.

       As in the prior year, in order to prepare the SNC by program costs, FCC
       downloaded program costs from FFS into a spreadsheet application. Using the
       spreadsheets, the indirect costs were initially allocated to the four programs
       (excluding USF) established in FY 2000 without considering that there were five
       programs (excluding USF) established in FY 2001 (see finding Section I.C). The




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 15
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       indirect costs were allocated proportionately to total direct costs. FCC allocated
       earned revenue on the same basis used to allocate costs, instead of matching
       related revenue to costs. SFFAS No. 7, Statement of Revenue and Other
       Financing Sources and Concepts for Reconciling Budgetary and Financial
       Accounting, however, states that “related revenue should be matched with the
       cost.” Specific earned revenue should be matched against specific program costs
       in accordance with the program costs and revenue description in the budget
       submission to Congress.

       Additionally, FCC identified its responsibility segments for cost allocation
       purposes but it did not determine related outputs and calculate the related output
       costs for its responsibility segments as part of its cost methodology. SFFAS No.
       4, Managerial Cost Accounting Standards, states that management of each
       reporting entity should define and establish responsibility segments and that
       managerial cost accounting should be performed to measure and report the costs
       of each segment’s outputs. Reporting entities should report the full costs of
       outputs in general purpose financial reports. Specifically, for each segment,
       managerial cost accounting should:

          •    Define and accumulate outputs, and if feasible, quantify each type of
               output in units,
          •    Accumulate costs and quantitative units of resources consumed in
               producing the outputs, and
          •    Assign costs to outputs, and calculate the cost per unit of each type of
               output.

       SFFAS No. 4 states that cost accounting information must rely on consistent and
       uniform terminology for concepts, practices and techniques to be useful. Reliable
       information on the cost of the federal programs and activities is crucial for
       effective management of government operations.           In managing Federal
       government programs, cost information is essential in (1) budgeting and cost
       control, (2) performance measurement, (3) determining reimbursement and setting
       fees and prices, (4) program evaluations, and (5) making economic choice
       decisions.

       Although implementation of a cost accounting “system” is not necessarily a
       prerequisite for compliance with SFFAS No. 4, the agency’s cost system or cost
       finding techniques should meet the required minimum level of cost accounting
       necessary to accomplish the many objectives associated with planning, decision-
       making, and reporting. This minimum level, in accordance with SFFAS No. 4
       includes:




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 16
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II                INDEPENDENT AUDITOR’S
                          REPORT ON INTERNAL CONTROL



             •    Collecting cost information by responsibility segments,
             •    Measuring the full cost of outputs,
             •    Developing appropriate costing methodology,
             •    Providing information for performance measurement,
             •    Instituting a reporting frequency that is timely and on a regular basis,
             •    Integrating both managerial cost accounting and general financial
                  accounting utilizing the SGL,
             •    Providing the appropriate precision of information (i.e., reliable and
                  useful),
             •    Accommodating management’s special cost information needs that may
                  arise due to unusual or special situations or circumstances, and
             •    Documenting all managerial cost accounting activity, processes, and
                  procedures (should outline applicable activities, provide instructions for
                  procedures and practices followed, list the cost accounts and subsidiary
                  accounts related to the SGL, and contain examples of forms and other
                  documents used).

       Management Comments:

       Management concurs. The current cost accounting system was designed before
       FCC faced meeting the requirements of SFFAS No. 4 and was designed to meet
       budgetary requirements and accounting requirements of the original regulatory
       fee and auctions program, not cost the accounting requirements of the CFO Act.
       Realizing the need for a more comprehensive and integrated cost accounting
       system, FCC developed the functional requirements document for a new cost
       accounting system. Until a new system is implemented, FCC must rely on cost
       finding techniques and spreadsheet allocations to perform its cost allocation.
       Where possible, FCC will adjust its current methodology and review operations to
       identify associated outputs and move towards compliance with SFFAS No. 4.

       Recommendations:

       16.       Review the propriety of the costing methodology and the matching of
                 earned revenue against costs (costing methodologies).

       17.       Determine outputs for all responsibility segments as required and calculate
                 the cost per unit of each type of output.

       18. Document the costing methodologies and process in a formal policy and
           procedure manual or handbook. Management should determine which cost
           objects to define, the costing methodology to use, the type of costs to




01-AUD-07-28              REPORT ON THE FEDERAL COMMUNICATIONS                       Page 17
                          COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               include for each reporting or decision making purpose (i.e., full cost), and
               other items of a similar nature.

               Management Comments:

               Management concurs with Recommendations 16, 17 and 18. As part of its
               development of Financial Reporting Policies and Procedures, FCC will
               review the current net cost methodology. The review will address
               responsibility segment outputs as well as earned revenue matching. FCC
               anticipates this effort will not be completed until FY 2003.

       19.     Evaluate the adequacy of the cost accounting system or other cost-finding
               techniques (cost systems) in accumulating and allocating costs, matching
               revenue, accounting, and generating financial information. The cost
               systems should meet the minimum requirements outlined in the Joint
               Financial Management Improvement Program (JFMIP) System
               Requirements for Managerial Cost Accounting.

               Management Comments:

               Management concurs. In the short-term, FCC is reviewing its net cost
               methodology to identify improvements. As a long-term solution, FCC
               developed the functional requirements document for a new cost accounting
               system. FCC anticipates this effort will be completed in FY 2003.

       20.     Ensure that appropriate employees of bureaus and offices fully understand
               the importance of properly classifying costs and are trained on the proper
               application of the activity codes.

               Management Comments:

               Management concurs. Additional efforts will be developed to encourage
               accurate cost reporting.


III.   Universal Service Fund Financial Reporting (Modified Repeat Condition)

       The USF is a special receipt fund and a special account expenditure fund
       administered by USAC. USAC provides FCC with specific financial information
       on a monthly basis for external reporting and financial statement consolidation
       purposes. The USF financial operations are maintained independently of the




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 18
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       FCC. FCC relies heavily on USAC’s financial reporting controls and processes
       for the USF (see related finding Section I.B).

       In July 2001, USAC replaced the company performing its accounting services
       (including billings and collections) with a new company (the contractor). The
       transition phase of this major change in accounting operations, however, was not
       planned well. Our review of the transition procedures and its overall audit impact
       revealed significant lapses in control activity and an absence of a risk assessment.
       USAC management did not perform a risk assessment for the transition, by
       comprehensively identifying risk considered significant between USF and all the
       parties involved in the transition as required in the GAO Standards for Internal
       Control in the Federal Government. Risk assessment is the identification and
       analysis of relevant risk associated with achieving an objective. The risk analysis,
       which should generally include estimating the risk’s significance, assessing the
       likelihood of its occurrence, and deciding how to manage the risk and what
       actions should be taken, was not considered during the transition. Consequently,
       as one result, USAC management had difficulty in dealing with problems and the
       timely resolutions of problems relating to the USF audit that arose after the
       transition.

       There was inadequate documentation of the entire transition process and the
       responsibilities of all parties involved in the transition were not clearly stated.
       There was not a clear understanding of the contractor’s accounting services role.
       Based on several discussions and the review of the contractor work during the
       audit, the contractor believed that its responsibilities were narrowly limited to the
       billings and collections aspects of the accounting operations while USAC seemed
       to believe the contract to be a full scope accounting of USF activities, including
       transaction level journal entries and reconciliation. This confusion resulted in
       delays of the audit process.

       Other significant control weaknesses noted include:

          •    Lack of reconciliation of subsidiary records to the control spreadsheet;
          •    Use of ad hoc spreadsheets to account for the USF activities and
               transactions;
          •    Untimely recording of the accounting transactions and events;
          •    Failure to apply dual entry accounting at the transaction level;
          •    Non-recording of the budgetary journal entries;
          •    Lack of supervisory review of the financial information; and
          •    Tests of validity, adequacy, propriety and reasonableness of transition
               related balances were not adequately documented.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 19
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       In addition, USAC is currently reviewing the propriety of certain disbursements
       made to a limited number of service providers participating in the school and
       libraries program. In FY 2001, USF recovered $1.3 million, which represents 100
       percent of the questioned costs, from one provider. USAC needs to strengthen its
       review procedures to identify any questioned costs prior to making a
       disbursement by ensuring that adequate supporting documentation is provided and
       examined prior to approving disbursements.

       Management Comments:

       Management concurs. FCC, USAC, and NECA worked together and established
       consistent quarterly reporting requirements in FY 2001 that have continued into
       FY 2002. For FY 2002, FCC will expand on these requirements and document
       policies and procedures associated, not only with the frequency and content of
       information provided, but also with the review of that information.

       During FY 2001 USAC conducted a competitive procurement process and entered
       into new vendor contracts to perform certain financial support services associated
       with USF administration. USAC’s transition to the new vendor did not go as
       planned due primarily to the timing of the change and the delineation of roles and
       responsibilities.

       Recommendations:

       FCC FO continues to be more involved with and has increased its oversight of the
       USF financial reporting process. Most of the following recommendations, which
       were not implemented or fully implemented in FY 2001, should be fully
       implemented in FY 2002 to improve its internal controls.

       21.     Obtain a clear understanding of the accounting services to be provided by
               the contractor as described in its contract. Accounting functions determined
               not to be included in the accounting services contract should be performed
               by USAC.

               Management Comments:

               Management concurs. USAC has been working closely with its vendor to
               clearly define the scope of accounting services to be provided and to
               establish clear expectations and desired outcomes. USAC intends to finalize
               that process and execute a contract modification. Also, USAC has made
               organizational and personnel changes to assist in this area. USAC added a
               Financial Manager of Support Systems to directly supervise and oversee the




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 20
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               accounting activities; created, and are actively recruiting to fill, a new Vice
               President of Finance position; and have added a Director level position to
               oversee the billing, collection, and disbursement operations.

       22.     Establish a formal accounting system where dual entry method and
               budgetary accounting entries, if appropriate, are recorded at the transaction
               level.

               Management Comments:

               Management concurs. With respect to budgetary accounting entries, for the
               reasons stated immediately below in response to item 23, USAC does not
               plan to implement budgetary accounting at this time, pending a final
               determination by OGC concerning the Federal nature of the USF.

       23.     Ensure that generally accepted accounting principles for Federal entities are
               applied to USF (and TRS) in accordance with OMB Bulletin No. 01-09,
               section 1.4.

               Management Comments:

               The auditors recommend that the Commission ensure that generally
               accepted accounting principles for Federal entities is applied to USF (and
               TRS) in accordance with OMB Bulletin No. 01-09, section 1.4.

               The Commission directed the creation of USAC as a private, not-for-profit
               corporation with the explicit understanding that USAC would prepare its
               financial statements in accordance with Generally Accepted Accounting
               Principles (GAAP). Annually since its creation in 1997, USAC has
               consulted with the Common Carrier (now Wireline Competition) Bureau
               staff as required by regulation and has submitted GAAP financial statements
               to the Commission in compliance with Commission regulations. In
               addition, over the last three years USAC provided FCC’s CFO with the
               information needed to consolidate the USF into FCC’s financial statements.
               Altering this framework will require modifications to the regulations
               currently governing USAC’s operations.

               As a general matter, the recommendation that the USF implement such
               procedures, controls and systems, as described below would require
               significant additional resources above and beyond those currently in place.
               The change in accounting for the USF is not likely to be fully implemented
               until the OGC makes a determination whether the USF is Federal funds.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                           Page 21
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       24.     Perform supervisory review to ensure that reports and financial data are
               accurate, reasonable and properly classified.

               Management Comments:

               Management concurs. USAC management currently performs supervisory
               reviews and has made organizational changes to increase such reviews.

       25.     Reconcile on a monthly basis the subsidiary/supporting records to the
               general ledger/control spreadsheets, whichever is currently used.

               Management Comments:

               Management concurs.

       26.     Strengthen review procedures to identify any questioned costs prior to
               making a disbursement by ensuring that adequate supporting documentation
               is provided and examined prior to approving disbursements.

               Management Comments:

               USAC continuously seeks to make improvements to operations including
               improving and strengthening their review procedures. Over the past 2 years
               there have been a number of reviews and improvements to the original
               procedures established in 1998. There have been changes to the edits and
               review procedures and new edits have been added to the automated reviews.
               Checks of the eligibility of services for which reimbursement is sought have
               been greatly expanded.

               In addition, USAC reports that an integrated invoice review management
               system is under development. This new system will improve the efficiency
               of the invoice review process and enable more current and more accurate
               assessments of the effectiveness of edits and reviews, so that it can continue
               to target resources at the areas of greatest risk.

               USAC is also reviewing the results of beneficiary reviews to identify
               vulnerabilities in the invoice review process and modify the process to
               reduce those vulnerabilities.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                          Page 22
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



IV.    Loans Receivable and Related Accounts (Repeat Condition)

       Since 1999, FCC has been using spreadsheet applications (loan models)
       developed by a public accounting firm (consultants) hired by FCC to maintain and
       update these loan models. These loan models were instituted as the loan
       subsidiary system. FCC’s plan to replace these loan models with RAMIS by
       September 30, 2000 did not materialize according to the schedule. RAMIS was
       supposed to be a modified off-the-shelf software that would handle accounting for
       all collections and loan management within FCC and interface with other FCC
       financial systems. However, as of September 30, 2001, RAMIS was still in testing
       stages. Consequently, FCC continued to use these loan models in FY 2001 as its
       loan subsidiary system, with the assistance of the consultants.

       In addition, FCC contracted with a loan servicing company for full loan servicing
       services in FY 2001. The transfer of loan files was on going in late FY 2001 but
       loan servicing had not commenced at September 30, 2001. FCC intends to use
       the loan servicing systems and RAMIS as parallel systems in FY 2002.

       Although FCC has planned actions to correct the loan servicing related
       weaknesses noted below, these weaknesses will continue to exist until the new
       systems are operational and are verified to produce reliable, accurate and timely
       information.

       A. FCC Current Loan Subsidiary Ledger System (Modified Repeat
          Condition)

          Direct Loan System Requirements issued by JFMIP states that a direct loan
          system must interact with the core financial system to perform fund control
          checks, initiate or record payments, record the results of other direct loan-
          related financial transactions, and acknowledge receipt of financial
          information exchange. It must be able to perform automatic system balancing
          to ensure that direct loan partners are able to agree on transaction number and
          dollar values passed, processed and rejected. This automated balancing
          includes cumulative subsidiary account balancing to the general ledger. It
          should also be able to support managerial accounting. These internal
          management information requirements are those required to establish credit
          management and financial reporting systems that are in compliance with
          standards provided in OMB Circulars No. A-34, Instructions on Budget
          Execution; A-123, Management Accountability and Control; A-127,
          Financial Management Systems; and A-129, Managing Federal Credit
          Programs.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 23
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



          FCC’s loan subsidiary ledger system is comprised of the loan models, which
          are elaborate and complex spreadsheets with configuration settings and
          information for original and adjusted loan principal, daily earned interest,
          suspension interest, payment data, and application of payments, among other
          items. These loan models (1) document the loan terms as determined by
          FCC’s rules and official loan documents; (2) recalculate loan balances for
          financial statement reporting purposes; and, (3) serve as the cash flow model
          data for the loan subsidy model calculator.

          Our review of the loan models showed that improvements such as tracking of
          changes to the database and raw collection data were added to enhance the
          usefulness of the spreadsheets. These improvements, however, will not
          correct the inherent limitations in a spreadsheet-based application.

               •   Configuration settings can be easily changed manually. Alteration of
                   relevant configuration settings used in loan balance calculation could
                   produce significantly different results. Once one user alters a setting,
                   it would be difficult for another user to know what changes were made
                   unless the user is notified.
               •   Separate spreadsheets are generated at year-end to account for the
                   interest receivable earned but not yet billed. Interest receivable earned
                   includes interest receivable on active or defaulted loans after the last
                   billing date but before the next billing date. The loan models were not
                   developed to calculate the interest earned as of a cut-off date if it
                   differed from the billing date.

          We also observed that FCC continues to place heavy reliance on the
          consultants who are substantially responsible for the complete process (i.e.,
          from data entry/download, to adjustments, to review, and to report generation)
          which may impact FCC’s ability to use the loan models when the consultants
          become unavailable.

          Generally, the entire loan review process was manually intensive. Interest
          receivable is recalculated independently each year based on the status of the
          loans at year-end. Interest revenue is determined at year-end based on an
          analysis of the prior and current year receivable, collections and adjustments,
          instead of recognizing interest as it is earned. The risk of error in this
          temporary solution (loan models) is higher as a result of the aforementioned
          conditions.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 24
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



          Management Comments:

               Management concurs. Technical security concerns continued to prevent
               FCC from implementing RAMIS in FY 2001 as planned. The transfer of
               the portfolio to the new loan service provider is being performed in a phased
               approach. To meet the obligation to provide sound, reportable, and
               auditable financial data for FY 2001, FCC extended a contractual
               engagement with the same firm to continue to provide information until
               such time as FCC is able to bring RAMIS fully on-line and finalize the
               outsourcing. Currently, FCC operates both systems and plans to migrate
               fully to the loan service provider in time for FY 2002 close. FCC has
               already transferred a substantial portion of its active loan portfolio to an
               outside loan service provider who is required to provide timely financial
               data to FCC and ensure proper billing, collection, and reporting of loans.

               Management does not believe that current reliance on its consultants is a
               significant issue. FCC has hired specialized individuals with credit reform
               knowledge in the budget area and FCC receives training on the model from
               its consultants on a regular basis. Additionally, there is currently several
               FCC staff highly proficient in the operation and understanding of the
               models.

       B. General Ledger to the Subsidiary Ledger Balance Reconciliations
          (Modified Repeat Condition)

          A major objective of internal control is to ensure the integrity of the
          underlying accounting data supporting the financial statements. An important
          control in this regard is the reconciliation of FCC accounting records. An
          adequate reconciliation provides the assurance that processed transactions are
          properly and timely recorded in the accounting records and financial
          statements, which then allows management the ability to analyze its financial
          condition and results of operations on a routine basis.

          FCC continues to use the loan subsidiary ledger balance to adjust the general
          ledger balance. Journal entries are made to recognize the effects of the
          subsidiary records on the general ledger accounts. FCC made significant
          journal entries such as for those related to loans and auction at interim and
          year-end. Since transaction level activities are not posted to subsidiary
          records on a timely basis, the reconciliation of loans and related account
          balances in the general ledger to the subsidiary records could not be
          effectively reconciled timely on a monthly basis. To record and track credit
          reform collections received throughout the year, FCC would initially record




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 25
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



             the collections to an SGL Account 2402, Unapplied Collections to hold the
             collections prior to its application of payment. Balances in SGL 2402 were
             then applied periodically to principal, interest, late fees, etc. based on the
             application of payments made in the subsidiary records (loan models.)

             Management Comments:

             Management concurs. While monthly updates of the general ledger are not
             performed, FCC does perform interim and year end updates of its loan
             balances as well as cash reconciliations between FFS and the loan subsidiary
             system. To improve controls for FY 2002, FCC has established a monthly
             cash reconciliation process between the FFS system and the cash information
             used for the loan subsidiary system. Ultimately, the conversion to RAMIS
             and the third party loan service provider will provide FCC with monthly
             reconciliation capabilities.

       Recommendations:

       FCC management is ultimately responsible for the accuracy, reliability, propriety,
       and reasonableness of source data, financial management systems and
       transactions instituted by the consultants and the loan servicing company.

       We recommend the following:

       27.     Until RAMIS and the loan servicing become operational, and FCC
               continues to use the loan models, it should:

               a) Develop written policies and procedures for the use and review of the
                  loan models and related output; and

               b) Continue to implement a thorough review and analysis of activities
                  included and excluded in the loan models.

               Management Comments:

               Management concurs.

       28.     Ensure that the loan subsidiary system being tested (RAMIS) is capable of
               interfacing with other financial management systems and meets all
               applicable requirements in the Direct Loan System Requirements issued by
               JFMIP.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 26
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               Management Comments:

               Management concurs noting RAMIS testing is ongoing for all phases of
               implementation to ensure proper integration. In addition, daily transaction
               testing is being performed on the interface of transactions between the loan
               service provider and FFS.

       29.     Record loan activities promptly to maintain their relevance and value to
               management in controlling operations and making decisions.

               Management Comments:

               Management concurs.       This is a capability that will be available via
               RAMIS and the loan service provider. Under the current system, FCC has
               the capability of reviewing loan balances on a monthly basis and
               performing analysis through its contractor, if necessary, on a more frequent
               basis.

       30.     Reconcile general ledger balances to the subsidiary records consistently on a
               monthly basis.

               Management Comments:

               Management concurs. Interim reconciliations were performed during FY
               2001. For FY 2002, FCC has established a monthly cash reconciliation to
               improve control over the application of cash in the loan model. Once
               RAMIS and the loan servicing systems are fully implemented and integrated
               with FFS, FCC will establish monthly loan balance reconciliation.


V.     Information Technology (IT)

       Our review and testing of controls related to IT identified the following conditions
       noted below:

       A. Compliance With OMB Circular No. A-130 Requirement for a
          Comprehensive Security Plan (Modified Repeat Condition)

             Some of the key components of an entity-wide security program are the
             performance of risk assessments and the development of a comprehensive
             security plan. Every organization needs a set of management procedures for




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 27
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



          identifying and assessing risks, and deciding what policies and controls are
          needed to achieve effective security controls.

          OMB Circular No. A-130, Management of Federal Information Resources,
          Appendix III, “Security of Federal Automated Information Resources,” as
          revised in February 1996, established a minimum set of controls for federal
          agencies, including risk assessments, assigning responsibility for security,
          security planning, periodic review of security controls, and management
          authorization of systems to process information.

          Deficiencies in security controls that, in our view, significantly impact FCC’s
          ability to protect its sensitive or critical resources include:

               •   FCC has not completed the development and implementation of its
                   entity-wide security program plan.
               •   FCC has only completed risk assessments for seven major applications;
                   ten additional risk assessments need to be completed on its major
                   application systems and its mission-critical general support system.
               •   FCC has drafted nine security plans for seven of its major application
                   systems and two mission-critical general support systems for
                   certification and accreditation. Eight additional security plans are in
                   development.
               •   There is no periodic review of security controls over FCC’s systems. In
                   addition, FCC has not completed any formal certification and
                   accreditation of its systems. FCC plans to conduct initial security
                   reviews over a two-year period ending in FY 2002. FCC plans to make
                   these reviews part of its internal control review process.
               •   FCC does not have adequate audit trails facility utilization and review.
                   The Computer Security Officer has not developed and distributed a
                   Commission-wide policy to make mandatory the use of audit trails
                   utilization and review.

          Management Comments:

          Management concurs. FCC recognizes additional work is needed in the areas
          of computer security and information assurance. FCC continues to work
          towards meeting the requirements of OMB Circular No. A-130. To date,
          security tests and evaluations have been performed on 11 of FCC’s 15 major
          applications, which have yielded a level of certification and accreditation for
          these applications. Additionally, system security plans have been prepared for
          both FCC general support systems and all major applications residing on the
          FCC network.



01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 28
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



       B. Inadequacies and Inconsistencies in the Mainframe and Network Access
          Request Process (Repeat Condition)

          FCC should consistently apply access request processes stipulated in FCC’s
          Instruction 1479.2 FCC Computer Security Program which provides
          guidelines to grant network access in a consistent fashion. Inadequacies and
          inconsistencies in the network access request process could have a direct
          impact in the overall system-wide security program. FCC has addressed this
          issue but has not established procedures to create a more adequate and
          consistent manner in which users gain access to the FCC network and major
          applications.

          Management Comments:

          Management concurs. FCC is working to ensure a more consistent access
          request process.

       C. Accelerate Efforts to Develop and Test FCC’s Contingency Plans (Repeat
          Condition)

          Losing the capability to process and protect information maintained on FCC’s
          computer systems can significantly impact FCC’s ability to accomplish its
          mission to serve the American public. The purpose of service continuity
          controls is to ensure that, when unexpected events occur, critical operations
          continue without interruption or are promptly resumed. To achieve this
          objective, FCC should have (1) procedures in place to protect information
          resources and minimize the risk of unplanned interruptions, and (2) a plan to
          recover critical operations should interruptions occur. These plans should
          consider activities performed at FCC’s general support facilities, as well as the
          activities performed by users of specific applications. To determine whether
          the disaster recovery plans will work as intended, FCC should establish and
          periodically test the capability to perform its functions in disaster simulation
          exercises.

          Since this weakness was reported in FY 1999, FY 2001 audit follow-up
          indicated that FCC has contracted for the services of a contractor to develop
          and implement during FY 2002 a FCC-wide security plan which includes a
          continuity of operations plan. The Auctions network has a current
          contingency plan.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 29
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



             The deficiencies we identified in prior year reports will continue to exist until
             FCC completes and tests the effectiveness of the security plan being
             developed.     The service continuity controls identified the following
             deficiencies that could affect FCC’s ability to respond to a disruption in
             business operations as a result of a disaster or other long-term emergency.

               •   FCC has not formally identified and prioritized all critical data and
                   operations on its major applications and the resources needed to recover
                   them, if there is a major interruption or disaster.
               •   FCC has not formally identified and prioritized all critical data and
                   operations on its networks and the resources needed to recover them, if
                   there is a major interruption or disaster. In addition, we could not
                   determine whether FCC had established emergency processing priorities
                   that will help manage disaster situations more effectively for the
                   network.
               •   FCC has not integrated the contingency plans of its data centers,
                   networks and telecommunication facilities in a comprehensive disaster
                   recovery plan.

             Management Comments:

             Management concurs. Significant effort has been expended by both FCC’s
             Information Technology Center and the Facilities Services Center to ensure
             development of a comprehensive contingency plan.

       Recommendations:

       31.     Conduct risk assessments for the FCC general support systems and major
               applications.

               Management Comments:

               Management concurs.

       32.     Develop and implement security plans for FCC’s major application systems
               and mission-critical general support systems.

               Management Comments:

               Management concurs. System security plans have been completed for both
               FCC general support systems and all major applications residing on the FCC
               network.



01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                           Page 30
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       33.     Certify and accredit FCC’s major applications and general support systems,
               based on the security plans developed and implemented.

               Management Comments:

               Management concurs. FCC contracted for required services to certify and
               accredit FCC’s major applications and general support systems. These
               reviews are being conducted to ensure compliance with OMB Circulars No.
               A-123, A-127 and A-130, Appendix III. An expected completion time
               frame of the reviews is fourth quarter FY 2002.

       34.     Establish a system to periodically review security controls over FCC’s
               computer systems in accordance with OMB Circular No. A-130, Appendix
               III.

               Management Comments:

               Management concurs. Major application and general support system
               certification and accreditation review processes currently underway will
               allow for periodic review of these systems, as required by OMB Circular
               No. A-130, Appendix III.

       35.     Address inadequacies and inconsistencies in the mainframe and network
               access request process.

               Management Comments:

               Management concurs. FCC’s Computer Security Officer will work directly
               with the administrators of the mainframe system, including network access
               request processing, to ensure adequate controls are implemented and test
               these processes.

       36.     Enhance audit trail facility utilization and review.

               Management Comments:

               Management concurs. FCC’s Applications Integrations Group and the
               Network Development Group have created an audit log server used to
               preserve activity logs for key FCC servers both inside and outside perimeter
               firewalls. This server allows for review of activity logs in the event of a
               situation requiring attention. The logs captured and stored on this server




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 31
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               have proven extremely useful during attempted access attempts by
               unauthorized persons.

       37.     Develop and implement a FCC-wide security plan as prescribed by OMB
               Circular No. A-130.

               Management Comments:

               Management concurs. FCC contracted services to develop and implement
               FCC-wide security plans for major application systems and mission-critical
               general support systems. These plans are being developed to ensure
               compliance with OMB Circular No. A-130, Appendix III.

       38.     Develop and test contingency plans for FCC’s major applications, networks,
               and telecommunications facilities.

               Management Comments:

               Management concurs. A significant effort is being made by FCC to ensure
               the development of a comprehensive contingency plan.

       39.     Obtain written documentation from FCC’s data centers of developed and
               tested contingency plans and participate in the scheduled tests of the plans.

               Management Comments:

               Management concurs. FCC’s Computer Security Officer will obtain written
               documentation from its data centers of developed and tested contingency
               plans and request that FCC be able to participate in the scheduled future
               tests of the plans. An expected time frame for the completion of these plans
               is by second quarter FY 2002.

       40.     Develop a comprehensive contingency plan that integrates the individual
               plans of its data centers, networks, and telecommunications facilities.

               Management Comments:

               Management concurs. The contingency plan development team will factor
               in the integration of the FCC plan with those plans for non-FCC individual
               support data centers, networks, and telecommunications facilities.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 32
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



REPORTABLE CONDITIONS

VI.    Controls Surrounding Data Used in the Preparation of the Management
       Discussion and Analysis (MD&A)

       Quantitative data used in the performance report and the MD&A section of the
       financial statements are based on information from the bureaus and offices.
       Performance Evaluation Records Management (PERM), the office responsible for
       compiling the performance data, relies heavily on the bureaus and offices to
       perform the validation process. PERM does not perform substantive verification
       of data submitted by the bureaus and offices. The bureaus and offices, for their
       data validation procedures, disclosed that heavy reliance is placed on the
       respective systems that generate the data submitted to PERM without some kind
       of substantiation or verification performed. There were no controls in place to
       ensure that the systems that generate the data and the data generated are accurate,
       reliable and correct. For instance, our limited tests identified some data included
       in the September 30, 2001 MD&A were different from the supporting data
       obtained from the bureaus. Further investigation of the differences disclosed that
       the bureaus submitted an incorrect report, submitted different reports for the audit
       and for the MD&A, and could not explain the difference.

       In addition, FCC does not have written policies and procedures for the
       performance measures process. Without formalized policies and procedures,
       confusion and misunderstandings could occur related to the roles and
       responsibilities of offices and bureaus in the preparation, evaluation, verification
       and approval of the strategic plan and related reports submitted to OMB and
       Congress.

       Management Comments:

       Management concurs. FCC took steps to validate the data contained in the
       Quarterly Performance and Results Review (QPRR) that included: requiring that
       each QPRR be submitted by a transmittal memorandum signed by the
       bureau/office chief attesting to the accuracy of the data; discussing any noticeable
       changes in trends or receipts with an individual bureau/office; and verifying
       timelines and other target dates. Going forward, management plans to hire a
       senior program analyst whose duties would include the evaluation of selected
       performance measures.

       In FY 2001 FCC coordinated the development of the Annual Performance Plan
       and the Annual Program Performance Report with all bureaus/offices through
       formal memoranda and annotated reports. In FY 2002, the FCC has started




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 33
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       developing a policies and procedures chapter related to MD&A. The MD&A
       procedures will be less detailed than those developed for financial operations as
       many of the requirements are spelled out in the Government Performance and
       Results Act (GPRA) and OMB Circular No. A-11, Part II.

       Recommendations:

       41.     Formalize the policies and procedures and include, among others, clear
               definitions of the roles and responsibilities of the offices and bureaus and
               PERM, including the responsibility for validating the data, and maintaining
               the records for future verification.

               Management Comments:

               Management concurs. The FCC has begun incorporating information
               prepared for the audit into a formalized policies and procedures manual.

       42.     Test the reliability, accuracy and propriety of the data generated from the
               systems used in accumulating the performance data.

               Management Comments:

               Management concurs. The FCC has incorporated additional staffing needs
               into its FY 2002 staffing plan that will provide the necessary resources to
               perform additional data review.


VII.   Internal Controls over Certain Accounts Receivable (Modified Repeat
       Condition)

       A. Regulatory Fees

             The Omnibus Budget Reconciliation Act of 1993 requires FCC to collect
             regulatory fees to offset certain costs incurred in regulating its industry. The
             legislation also gives FCC the authority to review the regulatory fees and
             adjust the fees to reflect changes in its appropriation from year to year. In
             addition, it authorizes FCC to charge a late payment penalty and to dismiss
             applications or revoke licenses for non-payment of the fees, and waive,
             reduce, or defer payment of a fee for good cause.

             As mentioned in the financial reporting weakness, FCC’s fee collection
             database is not linked to its licensing databases, making it difficult for FCC to




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                           Page 34
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



          perform routine automated checks on whether all licensees paid their
          regulatory fees. Although FCC has initiated corrective actions in the prior
          year by implementing CORES, a commercial off-the-shelf software that will
          assign a specific FRN to a licensee to track all transactions related to that
          license, the FRN needs to be populated in RAMIS, and eventually linked to all
          the databases in each bureau or office within FCC. As noted, RAMIS was not
          operational at September 30, 2001.

          In FY 2001, FCC is in its second year of implementing manual processes to
          identify any potential non-paying licensees. This process, however, was labor
          intensive and could not be performed timely because FCC’s organizational
          structure is decentralized with each bureau (program operation) still
          maintaining its own licensee database. These databases do not interface with
          each other or with the financial management system. The delay in
          implementing RAMIS continued to delay implementation of a system that will
          allow FCC to better assess its potential revenue gap from non-paying
          licensees.

       B. Application Processing Fees

          As authorized under Section 8 of the Communications Act of 1934, as
          amended, FCC collects application processing fees from applicants applying
          for certain licenses. Applicants submit a completed FCC application form
          with a “Remittance Advice” to a specific bank lockbox. The bank stamps the
          documentation with a received date, assigns a fee control number, deposits the
          payment with the Department of the Treasury, enters data from application
          into the fee collection database, and forwards the application documentation,
          and copies of proof of payments to FO.

          Because of FCC’s decentralized organizational structure, each bureau is
          responsible for ensuring that appropriate application fee is collected prior to
          issuance of a license. As noted in previous reports, adequate documentation
          from the bureaus did not exist to show that application fees were paid. FCC
          stated in the prior year that the implementation of RAMIS and CORES would
          correct this weakness in FY 2001. Unfortunately, RAMIS was not operational
          in FY 2001.

          To mitigate existing weakness, FCC stated that it was working with the
          bureaus and offices to update its policies and procedures to ensure verification
          of payment of fees prior to processing an application or granting a right. This
          process, however, is in progress.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 35
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



             In both the regulatory fee and the application processing fee, there is a high
             risk of fees required by legislation not recorded and collected. Therefore, the
             conditions for a potential revenue gap still exist.

             Internal controls, as described in OMB Circular No. A-123, covers all aspects
             of an agency’s operations (programmatic, financial, and compliance).
             Without integrated database systems accessible to all, and with the bureaus
             maintaining the customer database while FO maintains the collections data,
             the need for the bureaus (program) and the FO (financial) to coordinate and
             communicate in establishing and maintaining internal controls is mandatory.

             Management Comments:

             Management concurs. Once RAMIS is fully operational, each phase of
             collections, whether application or regulatory fees, will be processed through
             RAMIS. The FY 2002 regulatory fees will be collected through RAMIS.
             This will be extremely beneficial for yearly regulatory fees because it will
             allow management to generate a record of each collection to be used as a basis
             for bill generation in subsequent years.

       Recommendations:

       We recommend the following:

       43.     Ensure that RAMIS and CORES, when fully operational, address and
               provide solutions to weaknesses noted throughout this report.

               Management Comments:

               Management concurs.        FCC believes the systems will resolve the
               weaknesses.

       44.     Finalize the documentation and implement standard procedures for bureaus
               to review payment of fees prior to processing an application. Verify
               compliance with the internal controls documented in the procedure manual.

               Management Comments:

               Management concurs. OMD is working with the bureaus and offices to
               update its policies and procedures to ensure verification of payment of fees
               prior to processing an application or granting a right.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 36
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



VIII. Supporting Documentation and Controls on Property and Equipment
      (Modified Repeat Finding)

       An agency must establish physical control to secure and safeguard vulnerable
       assets. Such assets should be periodically counted and compared to control
       records. Internal controls and all transactions and other significant events need to
       be clearly documented, and the documentation should be readily available for
       examination. In addition, control activities help ensure that all transactions are
       completely and accurately recorded.

       Our review of property and equipment disclosed several internal control
       deficiencies as follows:

       A. Capitalized Costs Not Distinguished from Non-Capitalized Costs

          As in the prior year, while reviewing accounting entries related to acquisition
          of certain equipment, we noted that the continued use of incorrect budget
          object codes (BOC) resulted in capitalized costs not distinguished from non-
          capitalized costs. For example, ADP equipment acquisition was charged to
          BOC 3120, ADP Equipment, a BOC that is not to be used at the transaction
          level. FCC’s Financial Coding Handbook (Fiscal Year 2001 edition) states
          BOC 3120 is to be used for budget allocation and operational transactions are
          not to be posted to it. Transactions are to be posted in FFS to either
          Capitalized ADP Equipment (BOC 3121) or Non-capitalized ADP Equipment
          (BOC 3122.) As a result, capitalized costs could not be distinguished from
          non-capitalized costs without a detailed account analysis.

          In addition, FCC does not perform a periodic reconciliation of the balances in
          the capitalized BOC to the amounts capitalized in the USSGL account. This
          reconciliation will help identify any irregularity in the account balances.

          Management Comments:

          Management concurs. FCC was aware during FY 2001 that not all capital
          equipment BOC codes were being coded correctly. FCC took steps at that
          time to research the issue and in FY 2002 has changed the systems setting that
          were allowing codes to be posted to summary level BOCs such as 3120. In
          addition, FCC has tasked a contractor with reviewing all fixed asset task
          orders for proper BOC coding.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 37
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       B. Accounting for In-Process and Completed Software

          FCC reports software under development as in-process until it is certified for
          operation and classified as capitalized software subject to depreciation. FCC
          has been developing several software systems and each software’s system
          development life cycle (SDLC) can span several years and involve multiple
          purchase orders.

          Our tests disclosed that FCC’s policy and procedures requiring self-
          certification from the system owner for software in-process moved to
          operation is not strictly implemented. This self-certification is the supporting
          documentation for the software in-service date, which is the basis for
          reclassifying and for depreciating the software. FCC initially could not
          provide the self-certification documents. When the documentation was later
          provided, we noted the following inconsistencies in the eight sample items
          tested:

               •   Four forms did not include the signature of the system owner required
                   for certification of in-service date.
               •   One form did not include the contracting officer’s name and signature.
               •   Seven forms were not certified timely based upon the in-service date.
                   Six of the seven forms were signed on 12/7/01. One was signed on
                   11/7/01. However, the in-service dates were 9/28/01, 5/26/01, 9/30/01,
                   7/19/01 and 8/24/01.
               •   One item was signed by the Contracting Officer Technical
                   Representative and the system owner on 12/7/01, however the in-service
                   date was 9/28/01. This was the only item from our sample that was also
                   included in the Master Property records. The depreciation for this item
                   started 9/30/01.

          In addition, current year completed and in-process software transactions are
          tracked in spreadsheets, not in the property management system. These
          spreadsheets were complicated, hard to follow, and not reviewed for accuracy
          and propriety. The risk of error in these spreadsheets is high. In FY 2001,
          FCC did not record software transactions timely. Software that was moved to
          operations or already in-service during the year were not reclassified and
          depreciated until months later or at year-end.

          Management Comments:

          Management concurs. FY 2001 was the first year in which the in-process
          spreadsheets were used for the entire year. Initially, delays in recording



01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                       Page 38
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



             amounts to FFS occurred because FCC needed to evaluate the best method of
             moving non-capital BOC’s, grouped together as part of an in-process item,
             into capital equipment. Additional delays occurred as a result of transitioning
             property recording functions near the end of the year to compensate for the
             loss of staffing resources. The spreadsheets themselves are complex and have
             been modified somewhat in FY 2002 for clarity purposes; however, they
             provide the necessary information needed to track and record the items in
             FFS. FCC notes that while some errors did occur, reviews of the spreadsheets
             were performed during the FY to ensure that data collected and included on
             the sheets was accurate.

       Recommendations:

       To provide assurance that software is appropriately classified and recorded
       timely, we recommend:

       45.     Review capitalized software and software maintenance costs on a periodic
               basis. Reconcile the amounts in the BOC accounts to the capitalized asset
               or SGL account monthly.

               Management Comments:

               Management concurs. FCC is using contractor services in FY 2002 to
               review capital equipment purchases for proper BOC classification prior to
               the procurement transaction.

       46.     Ensure that the Planning and Support Group (PSG) effectively review all
               Information Technology Center (ITC) service related requests for proper
               BOC entries.

               Management Comments:

               Management concurs. Some expenditures for hardware and software have
               been erroneously posted to “budget only” object codes (3120 and 3130). To
               prevent such errors, FCC configured its procurement system so that it no
               longer accepts those codes for purchase requests.

       47.     Strictly implement FCC policy requiring that software and systems’ owners
               certify the transfer of a software system from development to operations (in-
               service) in order for the proper classification and proper depreciation of
               asset.




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 39
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               Management Comments:

               Management concurs. FCC is already implementing policy as stated in its
               Property Management Policies and Procedures, that software and systems’
               owners certify the transfer of a software system from development to
               operations.

       48.     Ensure that in-service certification documents are prepared, signed and
               dated by the appropriate parties at the time the software is moved from in-
               process to operations.

               Management Comments:

               Management concurs. FCC ensures that the self-certification of software in
               process or operational status is prepared, signed, and dated by the
               appropriate parties on a quarterly basis.

       49.     Review the effectiveness of current spreadsheets used in tracking completed
               and in-service software.

               Management Comments:

               Management concurs. FCC will continue to evaluate the in-process
               software tracking spreadsheet to identify and implement improvements.

       50.     Perform quality control reviews of the software spreadsheets or its successor
               to ensure that data are accurate, reliable, proper and correct.

               Management Comments:

               Management concurs. In conjunction with the review of BOC’s on capital
               purchases, the FCC will also examine additional review procedures for
               verifying the completeness of FFS.


IX.    Controls over Accounts Receivable and Accounts Payable Subsidiary
       Records (Modified Repeat Condition)

       FCC does not perform an adequate review of its subsidiary ledgers - Open
       Billings Detailed Report (OBDR) and the Open Accounts Payable Report
       (OAPR) - on a monthly basis to determine accuracy, reasonableness, and proper
       classification of each outstanding transaction in the report.       Numerous




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 40
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       transactions are not posted to subsidiary ledgers timely or not posted at all. These
       transactions are repeatedly shown as reconciling items and carried each month in
       its monthly reconciliation. For instance, an account receivable for $24 million
       was collected in July 1999; however, the receivable was still included in the
       September 30, 2001 OBDR. The amount was removed when a revised OBDR
       was received for September 30, 2001. Also, some FY 1999 and FY 2000 revenue
       accruals were posted to the subsidiary records and remained in the September 30,
       2001 OBDR.

       Our analysis of the OAPR this year disclosed that the weaknesses noted in
       FY 2000 had not been corrected. Vendors’ accounts beginning with a Z code
       with a total of approximately $15 million debit balances noted in FY 2000 were
       still shown in the OAPR at September 30, 2001. A “Z” code is a vendor code in
       FFS that starts with the prefix Z. FCC determined the debit balances were
       substantially due to auction up-front payments refunded to losing bidders from
       prior years activity dating back to at least 1996. When refunds were made, FCC
       debited accounts payable even though an accounts payable was not originally
       established.

       In addition, we noted that numerous outstanding balances in the OAPR continue
       to be identified by a journal voucher (JV), not by a vendor. Although FCC stated
       that the use of JV was minimized in FY 2001, we noted that the number of journal
       vouchers prepared to correct balances increased from 38 in FY 2000 to 42 in
       FY 2001; most of these vouchers were not matched against a specific vendor
       balances.

       Standards for internal controls state that transactions are to be properly classified.
       Account balances should be analyzed on a periodic basis to ensure their propriety,
       accuracy, and timely detection of errors.

       Management Comments:

       Management concurs. FCC established monthly reconciliations for both accounts
       payable and accounts receivable in response to prior year audit findings. FCC did
       clear a number of reconciling items from both the accounts receivable and
       accounts payable reconciliations but was unable to clear all items prior to year-
       end. FCC will continue to clear outstanding items in FY 2002 and, in the case of
       the OAPR, is re-designing the report to add capabilities that the original report
       was not designed to provide. FCC notes that the $15 million debit is offset by a
       $15 million credit which results in a net balance of zero.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                            Page 41
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



       Recommendations:

       51.     Correct old outstanding transactions still in the OBDR and OAPR.

               Management Comments:

               Management concurs. The systems enhancements made to the OAPR report
               in FY 2002 will clear old transactions.

       52.     Minimize the use of journal vouchers. If a journal voucher has to be
               prepared, ensure that the appropriate subsidiary ledger is adjusted for the
               effect of the journal voucher.
               Management Comments:

               Management concurs. Wherever possible FCC will use transaction codes in
               order to establish and liquidate balances.

       53.     Consider using a sub-SGL account (i.e., SGL 2110.1) to account for
               auction-related payables. This will allow management to perform an
               effective and efficient review of the accounts payable and the auction-
               related transactions.

               Management Comments:

               Management believes that the changes made in FY 2001 and changes being
               made in FY 2002 will eliminate the need for a sub-account. However
               management will continue to look for methods to improve the usefulness of
               our reconciliations.

X.     Compliance with Certain Aspects of the Clinger-Cohen Act of 1996

       The Clinger-Cohen Act of 1996 requires federal agencies to focus on the results
       they are achieving through IT investments. Specifically, this act introduces more
       rigor and structure into how agencies approach the selection and management of
       IT projects. Among other things, the head of each agency is required to
       implement a process for maximizing the value and assessing and managing the
       risks of the agency's IT acquisitions.

       During our review, we noted that the FCC did not comply with the requirements
       of the Clinger-Cohen Act in its development and implementation of the RAMIS
       application. FCC did not follow its directive on systems development standards
       for RAMIS prior and during its critical development stages. The development




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                       Page 42
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       efforts began in July 1998, and FCC systems development and implementation
       standards were only completed in the last quarter of calendar year 2000.

       The FCC’s system development methodology, therefore, was not the
       methodology used to manage the implementation of RAMIS. As a result of FCC
       not formalizing its system development and implementation plan and not
       adequately planning this IT investment, we noted the following weaknesses:

          •    Ineffective hardware planning. FCC did not have a documented plan for
               the migration strategy that would include: disaster recovery, proposed data
               center location changes on strategy, telecommunications, and other
               logistical support.
          •    Ineffective human resource or staff planning. FCC did not commit
               adequate resources to manage the implementation of the RAMIS
               application.
          •    Inadequate IT participation on the RAMIS development. ITC did not fully
               participate in the development and implementation of the RAMIS
               application. ITC did not provide guidance to the project owner on using
               FCC’s SDLC standards to manage project activities and product. Thus
               ITC did not involve itself at the various stages of the RAMIS project as
               required by FCC’s SDLC standards.
          •    Project management tools (time, function, budget) were not utilized. The
               RAMIS implementation plan report indicated that the project met every
               milestone target date without exception. However, as of September 2001,
               the project has still not been implemented and has not met the final
               deadline for full implementation. The report contradicts the actual
               progress of RAMIS implementation and provides no information to
               management of delays and slippage that have occurred.
          •    Unfamiliarity with the operating environment and hardware. ITC is not
               familiar with the database administration software being used in the
               development of RAMIS. The RAMIS project has not provided for
               training of ITC personnel to manage the hardware when RAMIS is finally
               moved into the production environment.

       The RAMIS project was supposed to have been completed by September 30,
       2000 in accordance with the contract. However, as of September 30, 2001, only
       four of the seven modules were completed and parallel testing of these four
       modules is still in progress.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 43
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II               INDEPENDENT AUDITOR’S
                         REPORT ON INTERNAL CONTROL



       FCC did not establish and implement a rigorous methodology and structure for
       the management of the RAMIS development and implementation. This resulted
       in:

             •    Inadequate cost/benefits analysis of the investment;
             •    No evidence of quantifiable measurements for determining the net benefits
                  and risks of the investment; and
             •    Inadequate and untimely monitoring of information regarding the progress
                  of an investment, including lack of an approved project review schedule
                  for the review of RAMIS implementation at key milestones in the
                  lifecycle of the project as the project moves from initial design, testing
                  through full implementation and as the dollar amounts that are expended
                  increases.

       Management Comments:

       Management concurs. The progress of RAMIS development would have been
       improved if FCC’s SDLC methodology had been in place when RAMIS
       development began.

       Recommendations:

       54.       Document and implement a migration strategy for the RAMIS application.

                 Management Comments:

                 Management concurs. As part of the SDLC, the current implementation
                 strategy will be revised to more clearly document the implementation and
                 integration strategy for RAMIS.

       55.       Commit adequate resources to the management of the RAMIS project.

                 Management Comments:

                 Management concurs. A vacant position on the RAMIS team was
                 advertised in March 2002 and management plans to have a replacement on
                 board by June 2002. Additional contractor staff has been added for the
                 implementation of the final modules.

       56.       Adopt FCC’s SDLC methodology for IT systems to the RAMIS project.




01-AUD-07-28             REPORT ON THE FEDERAL COMMUNICATIONS                        Page 44
                         COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



               Management Comments:

               Management concurs. Management will apply FCC’s SDLC methodology
               to RAMIS.

       57.     ITC should provide guidance to FCC on major IT investment initiatives.

               Management Comments:

               Management concurs. ITC does provide guidance to FCC on major IT
               investment initiatives. The Chief Information Officer participates in FCC’s
               budget formulation and execution for IT investments. ITC is preparing an IT
               Capital Planning and Investment Control Process, which will document the
               procedures for providing this guidance.

       58.     Ensure that RAMIS project management reports are accurate, and provide
               decision makers with timely information.

               Management Comments:

               Management concurs. Management reports will be accurate and timely.

       59.     Ensure that major IT investments such as RAMIS, are subject to periodic
               review at key milestone dates.

               Management Comments:

               Management concurs. Major IT investments such as RAMIS are subject to
               periodic review. The Managing Director (MD) and the CFO meet biweekly
               with the RAMIS project team to review progress. Also, the MD and the
               Chief Information Officer meet biweekly to review all sensitive major IT
               projects and quarterly status reports are received on the remaining systems.


XI.    OMB Circulars No. A-127 and A-130 Reviews (Repeat Condition)

       FCC has recently identified its major financial applications and general support
       systems, and established a timetable for meeting the requirements of OMB
       Circulars No. A-127 and A-130 review of these applications. FCC plans to begin
       conducting OMB Circulars No. A-127 and A-130 reviews in FY 2002. Until
       these reviews are performed and completed, FCC cannot determine compliance
       with these Circulars to include in its annual Federal Managers’ Financial Integrity




01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 45
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL



       Act (FMFIA) report and to ensure substantial compliance with Federal Financial
       Management Improvement Act.

       Management Comments:

       Management concurs. FCC has not completed all of the reviews for its major
       initiatives; however, a program for performing OMB Circular reviews has been in
       place for three years and continues to be supported through IT funding initiatives
       and contractor services for all general support systems and applications declared
       to be major. Eleven such reviews are completed and all remaining reviews are
       scheduled and slated for completion by the end of FY 2002.

       For FY 2001, the results of completed OMB Circular reviews were submitted as
       part of Section 4 reporting on the FCC’s annual FMFIA report. This effort was
       coordinated between the ITC Computer Security Office and the MD’s PERM.

       Recommendations:

       60.     Institute a program for conducting periodic reviews in accordance with
               OMB Circulars No. A-127 and A-130.

               Management Comments:

               Management concurs. A program is in place to complete the required
               reviews by the close of FY 2002.

       61.     Include the results of OMB Circulars No. A-127 and A-130 reviews as part
               of Section 4 reporting in FCC’s annual FMFIA report.

               Management Comments:

               Management concurs. The results of completed reviews were included for
               FY 2001 and will continue to be included for FY 2002 reporting.




01-AUD-07-28           REPORT ON THE FEDERAL COMMUNICATIONS                       Page 46
                       COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



                 ********************************************

In addition to the material weaknesses and reportable conditions described above, we
noted certain matters involving internal control and its operation that we reported to the
management of FCC in a separate letter dated February 22, 2002.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB, and Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties. We caution that
misstatements, losses, and noncompliance may occur and not be detected by the testing
performed and that such testing may not be sufficient for other purposes.

a1
Calverton, Maryland
February 22, 2002




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 47
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
              SECTION III

      INDEPENDENT AUDITOR’S REPORT
ON COMPLIANCE WITH LAWS AND REGULATIONS
SECTION III                   INDEPENDENT AUDITOR’S REPORT ON
                              COMPLIANCE WITH LAWS AND REGULATIONS




A1
      Independent Auditor’s Report on Compliance with Laws and Regulations


To the Inspector General of the
Federal Communications Commission


We have audited the Principal Statements (hereinafter referred to as “financial
statements”) of the Federal Communications Commission (FCC) as of and for the year
ended September 30, 2001 and have issued our report thereon dual dated February 22,
2002 and March 5, 2002. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

The management of FCC is responsible for complying with laws and regulations
applicable to the agency. As part of obtaining reasonable assurance about whether FCC’s
financial statements are free of material misstatements, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statements
amounts, and certain other laws and regulations specified in OMB Bulletin No. 01-02,
including the requirements referred to in the Federal Financial Management Improvement
Act (FFMIA) of 1996. We limited our tests of compliance to these provisions and we did
not test compliance with all laws and regulations applicable to FCC.




Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050


                                                                                h
fax: 301-931-1710
www.cliftoncpa.com                    Offices in 13 states and Washington, DC




01-AUD-07-28                  REPORT ON THE FEDERAL COMMUNICATIONS                 Page 1
                              COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     COMPLIANCE WITH LAWS AND REGULATIONS



The results of our tests of compliance with laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the
following laws and regulations that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 01-02, which are described below.

Chief Financial Officers Act of 1990 (CFO Act)

The Government Management Reform Act of 1994 (GMRA) amended the requirements
of the CFO Act by requiring, among other things, the annual preparation and audit of
organization-wide financial statements of 24 executive departments and agencies.
Although FCC is not listed in OMB Bulletin No. 01-02 as one of the agencies required to
comply with these requirements, management has voluntarily elected compliance and as
such is being evaluated accordingly.

The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which have an impact on citizens’ lives and
livelihood. To meet this responsibility, the CFO Act establishes a leadership structure,
provides for long-range planning, requires audited financial statements, and strengthens
accountability reporting. Specifically, the CFO Act establishes the authority, functions
and responsibilities of a Chief Financial Officer (CFO). These include, among others,
that a CFO:

   •   Develops and maintains integrated accounting and financial management systems
       that comply with applicable accounting principles, standards, and requirements;
       internal control standards; and requirements of OMB, the Department of the
       Treasury, and others;

   •   Directs, manages, and provides policy guidance and oversight of all agency
       financial management personnel, activities, and operations;

   •   Implements agency asset management systems, including systems for cash
       management, credit management, debt collection, and property and inventory
       management and controls.

FCC does not meet the above criteria as explained in more detail in our Report on
Internal Control (IC Report), Sections I through V. The key items we identified include:

   •   FCC was not able to prepare reliable and timely financial management
       information efficiently for managing current operations.

   •   FCC’s financial management systems do not comply with certain accounting
       standards and requirements, and internal control standards.



01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 2
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



   •   FCC’s financial information system is not fully integrated. Data comes from
       various subsystems and spreadsheet programs for the accounting, preparing, and
       reporting of financial statements.

   •   Although the majority were drafted, written policies and procedures on financial
       management personnel, accounting events, activities and operations have not been
       completed or have not been fully implemented.

   •   Direction, policy guidance and oversight of Universal Service Fund (USF)
       financial operations are inadequate.

In addition, FCC’s internal control directive, FCCINST 1102.3, Internal and
Management Controls, assigns management responsibility and procedures for
establishing, maintaining, evaluating, and reporting on internal controls. This directive
expired in May 2000, leaving no directive in effect for fiscal year (FY) 2001.


Debt Collection Improvement Act (DCIA) of 1996

DCIA requires agencies to notify Department of the Treasury of all debts that are
delinquent for more than 180 days for offset and for referral to Department of the
Treasury for cross-servicing debt collection. FCC is also responsible for reporting
receivables due from the public for administrative receivables of the USF and
Telecommunication Relay Service Fund (TRS.) In FCC’s Treasury Report on
Receivables (TROR) for administrative receivables submitted to Department of the
Treasury at September 30, 2001, it reported $10 million as the amount eligible for referral
to Department of the Treasury for offset, however, only $76 thousand of the $10 million
was referred to Department of the Treasury for cross-servicing.

In addition, gross administrative receivable balances as of September 30, 2001 reported
on the TROR could not be adequately reconciled to the final balances reported on the
financial statements. There was at least a $186 million difference between the two
reports.


Government Performance and Results Act of 1993 (GPRA)

The GPRA requires federal agencies to submit to OMB and Congress the following:

   •   A strategic plan (SP) for program activities, which sets out a course of action and
       accomplishment over the long term;




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



   •   An annual performance plan (APP) that sets annual goals with measurable target
       levels of performance; and

   •   An annual program performance report (APPR) that compares actual performance
       to the annual goals.

FCC did not fully comply with the critical key components of the GPRA as described
below:

   (a) The SP dated September 2000 (the most recent plan) lacked three out of the six
           significant elements required by GPRA. The SP did not specifically address:

       ¾ The skills and technologies required to achieve the general goals and
         objectives;
       ¾ The human, capital, information, and other resources required to achieve the
         general goals; and
       ¾ The means and strategies section.

   (b) The APP for FY 2001 did not describe the means to be used to verify and validate
       measured values.

   (c) The APPR for FY 2000 (latest report available) did not include three significant
       elements required by GPRA as follows:

       ¾ The APPR did not include a summary of findings for program evaluations
         completed during the fiscal year covered by the APPR.
       ¾ The APPR did not describe the use nor assesses the effectiveness of achieving
         the performance goals.
       ¾ The APPR did not explain and describe where a performance goal was not
         met. Also, there was no description of plans and schedules to meet an unmet
         goal in the future, or recommended action if infeasible to meet the unmet
         goals.

The results of our tests of compliance disclosed no instances of noncompliance with other
laws and regulations discussed in the preceding paragraphs exclusive of FFMIA that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 01-
02.




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 4
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



Federal Financial Management Improvement Act of 1996

Under FFMIA, we are required to report whether the agency’s financial management
systems substantially comply with the Federal financial management systems
requirements, applicable Federal accounting standards, and the United States Standard
General Ledger (USSGL) at the transaction level. To meet this requirement, we
performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed instances, described below where the agency’s financial
management systems did not substantially comply with Federal financial management
systems requirements, applicable Federal accounting standards, and the USSGL at the
transaction level.


Federal Financial Management Systems

   •   Agency-wide Financial Information Classification Structure – As explained in
       detail in the IC Report, Section I.F., FCC’s core financial system, Federal
       Financial System, (FFS) has not been consistent with the standard general ledger.
       FCC is in the process of implementing recommendations from the FFS’ developer
       to enhance FFS compliance with the USSGL and to facilitate use of external
       reporting capabilities of FFS.         Delay in full implementation of these
       recommendations is due to the length of time needed to identify all
       inconsistencies and to test the modifications.

       In addition, FCC’s reporting entity’s financial information classification structure
       to track program expenditures was not modified from four programs in FY 2000
       to five programs in FY 2001. See IC Report, Section I.C.

   •   Integrated Financial Management Systems - FFS and feeder systems (direct loan
       systems and spreadsheets, cost systems, property management system, license
       database systems, collection systems, certain accounts receivable systems,
       procurement systems and various spreadsheets) are not integrated or
       electronically interfaced. A user is not able to have one view into systems such
       that, at whatever level the individual is using the system, he or she can obtain the
       information needed efficiently and effectively through electronic means. See IC
       Report, Section I.E.

       FCC has an on-going effort during the last two years to strengthen its financial
       management systems. FCC management expected to achieve some level of
       financial management systems’ integration by implementing the Revenue
       Accounting and Management Information System (RAMIS) by September 30,



01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 5
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     COMPLIANCE WITH LAWS AND REGULATIONS



       2000. RAMIS would supposedly integrate, among others, the direct loan system,
       fee billing and collection systems, fines and forfeitures, licensees’ databases,
       interface with FFS and include a module for cost accounting system. FCC,
       however, did not meet this expectation, as RAMIS was not operational at
       September 30, 2001. As of September 30, 2001, four of the seven modules were
       completed and parallel testing of these four modules remains in progress. The
       primary reason for noncompliance is FCC’s failure to meet its timetable and the
       length of time needed to implement several financial management systems’
       enhancements developed over the last two years.

   •   Financial Reporting – FCC was not able to provide timely and reliable financial
       information for managing current government operations. The primary reason of
       the non-compliance is that significant financial activities are not recorded,
       prepared and analyzed timely. See IC Report, Section I.

   •   Security – During our review of the information technology controls, we
       identified several weaknesses, which are collectively considered a material
       weakness and are described in more detail in our IC Report, Section V. The
       weaknesses include noncompliance with OMB Circular A-130’s, Management of
       Federal Information Resources, requirement for a comprehensive security plan,
       inadequacies and inconsistencies in the mainframe and network access request
       process, and lack of a fully developed and tested contingency plan. Since this
       non-compliance was identified in FY 1999, FCC has started the process of
       instituting corrective actions. For example, FCC obtained the services of a
       contractor to develop and implement a FCC-wide security plan, which include a
       continuity of operations plan, in FY 2002. The primary reason for this
       noncompliance is the length of time needed to implement the corrective actions
       and the availability of funds.


Federal Accounting Standards

Due to lack of an adequate cost accounting system, FCC was not able to produce
managerial cost information consistent with standards in the Statements of Federal
Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Standards,
as described in our IC Report, Section II.




01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS                        Page 6
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



Standard General Ledger (SGL) at the Transaction Level

Substantial compliance with the SGL at the transaction level requires the agency’s
recording of financial events to be consistent with all applicable account descriptions and
posting models/attributes reflected in the SGL issued by the Financial Management
Service, Department of the Treasury, effective for the period covered by the audit. As
discussed in our IC Report, Section I.F., FCC system setup and posting model definitions
do not fully comply with the transaction posting models consistent with the USSGL
guidance and policies, when recording and classifying transactions.

Also, as discussed in Section III of the IC Report, USF transactions, which were
transactions from feeder systems summarized in a trial balance for consolidation in the
FCC financial statements, were not recorded in a manner consistent with the account
definitions, posting models/attributes specified in the SGL. The feeder system from USF
or the FCC did not record budgetary entries for the USF.

The FCC Managing Director and the CFO have been assigned the responsibility of
ensuring the substantial compliance with the FFMIA. We discussed the actions taken by
the agency and our recommendations to strengthen FCC’s financial management systems
are outlined in our IC Report. FCC management plans to have some of the corrective
actions started or implemented by FY 2002.

Management Comments:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Control. As FCC corrects and
resolves identified issues, the occurrences of non-compliance will reduce.

          *******************************************************

Providing an opinion on compliance with certain provisions of laws and regulations was
not an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB and Congress, and is not intended to be and
should not be used by anyone other than these specified parties.

a1
Calverton, Maryland
February 22, 2002




01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 7
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS
               SECTION IV

  FEDERAL COMMUNICATIONS COMMISSION
FISCAL YEAR 2001 ANNUAL FINANCIAL REPORT
Federal
Communications
Commission




          Fiscal Year 2001
       Annual Financial Report
         (October 1, 2000 – September 30, 2001)
                                     Table of Contents


                                                                              Page


Management’s Discussion & Analysis                                              1
   Overview of the FCC                                                           1
   FCC’s Mission                                                                 1
   FCC’s Vision and Business Plan                                                2
   FCC’s Organizational Structure                                                2
   Facilitating the Communications Revolution – The FCC’s Implementation of     7
   the Government Performance and Results Act
   Financial Management – Legal Compliance, Systems, and Controls              33
   Possible Future Effects on the FCC – Looking Ahead                          36
   Cross-Cutting Functions of the Commission                                   38
   Highlights of the Financial Statements                                      39
   Limitations of the Financial Statements                                     41
Financial Statements                                                           42
  Consolidated Balance Sheet                                                   43
  Consolidated Statement of Net Cost                                           44
  Consolidated Statement of Changes in Net Position                            45
  Combined Statement of Budgetary Resources                                    46
  Consolidated Statement of Financing                                          47
  Consolidated Statement of Custodial Activity                                 48
Notes to Consolidated Financial Statements                                     49
Required Supplementary Information                                             89
Other Accompanying Information                                                100
Glossary of Acronyms                                                          111
                                                                    Federal Communications Commission
                                                                Fiscal Year 2001 Annual Financial Report


          MANAGEMENT’S DISCUSSION & ANALYSIS

Overview of the FCC
The Federal Communications Commission (FCC or Commission) is an independent United States
Government regulatory agency, directly responsible to Congress. The FCC was established by the
Communications Act of 1934 (the Act) and is charged with regulating interstate and international
communications by radio, television, wire, satellite, and cable. The FCC’s Headquarters is located
in Washington, DC, and it has field locations throughout the Nation. The FCC's jurisdiction covers
the 50 states, the District of Columbia, and U.S. possessions.
The FCC is directed by five Commissioners, appointed by the President and confirmed by the
Senate, for 5-year terms, except when filling an unexpired term. The President designates one of
the Commissioners to serve as Chairman. Only three Commissioners may be members of the same
political party. Commissioners cannot have a financial interest in any FCC-related business.
This document contains information about the FCC’s principal financial statements for fiscal year
(FY) 2001, including a consolidated balance sheet, a statement of net cost, a statement of changes in
net position, a statement of budgetary resources, a statement of financing, a statement of custodial
activity, and notes to the consolidated financial statements. Additionally, it presents the FCC’s
mission and organizational structure; performance information; details on its systems; controls and
legal compliance; and possible future impacts on the Commission. It serves as a guide to key FCC
initiatives and activities taking place during FY 2001, or planned for future years, that demonstrate
the breadth of the Commission’s work.


FCC’s Mission


    “Today, the Commission’s primary mission is to promote a fully
    competitive marketplace as well as access for all Americans to
    communications services.”
                                                                   Chairman Michael K. Powell
                                                     Testimony on Appropriations, June 28, 2001


The fundamental mission of the FCC is to implement the Act, as amended, and the
Telecommunications Act of 1996 (the 1996 Act) in a manner that promotes competition,
innovation, and deregulation in the communications industry and the availability of high quality
communications services for all Americans.




                                                 1
                                                                                   Federal Communications Commission
                                                                               Fiscal Year 2001 Annual Financial Report

FCC’s Vision and Business Plan
The FCC’s mission is to promote competition in communications, protect consumers, and support
access for every American to existing and advanced communications services. To do this, the FCC
will write and execute a new business plan built along the following four dimensions.1
    9 a clear substantive policy vision, consistent with the various communications statutes
      and rules, that guides FCC deliberations;
    9 a pointed emphasis on management that builds on a strong team, produces a cohesive
      and efficient operation, and leads to clear and timely decisions;
    9 an extensive training and development program to ensure that the FCC possesses
      independent technical and economic expertise; and
    9 an organizational restructuring to align the FCC with the realities of a dynamic and
      converging marketplace.2
The FCC will strive to use taxpayers’ funds constructively to improve the Commission’s services
through a comprehensive retooling of the mission in concert with the FCC’s current legislative
mandate. The United States has a proud legacy in the area of communication services. This Nation
has built the finest voice communication system in the world, as well as top-notch mass media
delivery systems in the form of radio, television, and cable. With the advancements that have been
made in the communications industry, the FCC has begun encouraging deployment of new
advanced architectures and technologies of services like broadband. Government policy will need
to foster the migration towards the digital broadband future. The Commission’s policy direction
will focus on this migration with several directional guideposts3 including efforts to:
    9    facilitate timely and efficient deployment of broadband infrastructure;
    9    creatively pursue universal service goals of ubiquity and affordability in deployment;
    9    redirect focus onto innovation and investment;
    9    harness competition and market forces;
    9    rationalize and harmonize regulations across industry segments, where appropriate; and
    9    shift from expanding permissive regulations to effective enforcement of necessary ones.


FCC’s Organizational Structure
The FCC Chairman leads the Commission and oversees the activities of the Commissioners. The
Chairman delegates management and administrative responsibility to the Managing Director. The
Commissioners supervise all FCC activities, delegating responsibilities to staff units and bureaus.
The Commission staff is organized by function into bureaus and staff offices.4 There are seven
operating bureaus: Cable Services, Common Carrier, Consumer Information, Enforcement,
International, Mass Media, and Wireless Telecommunications. These bureaus are responsible for
developing and implementing regulatory programs, processing applications for licenses or other

1
  Testimony before the Subcommittee on Commerce, Justice, State and the Judiciary of the Senate Committee on Appropriations by
FCC Chairman Michael K. Powell on June 28, 2001.
2
  The organizational restructuring will begin in FY 2002.
3
  Testimony before the Subcommittee on Appropriations by Chairman Powell on June 28, 2001.
4
  The organizational chart for the FCC, as of September 30, 2001, can be found on page 6 of this report.

                                                             2
                                                                   Federal Communications Commission
                                                               Fiscal Year 2001 Annual Financial Report

filings, analyzing complaints, conducting investigations, and taking part in FCC hearings. There are
also staff offices: Administrative Law Judges, Communications Business Opportunities,
Engineering and Technology, General Counsel, Inspector General, Legislative and
Intergovernmental Affairs, Managing Director, Media Relations, Plans and Policy, and Workplace
Diversity. Even though the bureaus and offices have individual functions, they regularly join forces
and share expertise in addressing Commission issues.

FCC Bureaus

Cable Services Bureau (CSB) – serves as the single point-of-contact for consumers, community
officials, and the industry for cable-related issues.

Common Carrier Bureau (CCB) – is responsible for rules and policies concerning telephone
companies that provide interstate, and, under certain circumstances, intrastate telecommunications
services to the public through the use of wire-based transmission facilities (i.e., corded/cordless
telephones) and radio communications.

Consumer Information Bureau (CIB) – communicates information to the public regarding
Commission policies, programs, and activities. CIB handles public inquiries and informal
consumer complaints. It is also charged with overseeing disability mandates.

Enforcement Bureau (EB) – enforces the Communications Act, as well as the Commission’s rules,
orders, and authorizations. It consolidates enforcement functions from other areas of the FCC.

International Bureau (IB) – represents the Commission in satellite and international matters (such
as rates, standards, and development issues).

Mass Media Bureau (MMB) – regulates AM/FM radio and television broadcast stations, as well as
Multipoint Distribution (i.e., cable and satellite) and Instructional Television Fixed Services. This
bureau also assigns frequencies and call letters to stations and designates operating power times.

Wireless Telecommunications Bureau (WTB) – oversees all domestic wireless telecommunications
programs (except satellite), including cellular and PCS phones, pagers and two-way radios. This
bureau also regulates the use of radio spectrum to fulfill the communications needs of businesses,
local and state governments, public safety service providers, aircraft and ship operators, and
individuals.

FCC Staff Offices

Office of Administrative Law Judges (OALJ) – presides over hearings and issues Initial Decisions.

Office of Communications Business Opportunities (OCBO) – provides advice to the Commission on
issues and policies concerning opportunities for ownership and contracting by small, minority, and
women-owned communications businesses.

Office of Engineering and Technology (OET) – allocates spectrum for non-governmental use and
provides expert advice on technical issues before the Commission. OET makes recommendations
on how spectrum should be allocated, and establishes technical standards for spectrum users.

                                                 3
                                                                  Federal Communications Commission
                                                              Fiscal Year 2001 Annual Financial Report

Office of the General Counsel (OGC) – serves as chief legal advisor to the Commission and its
various bureaus and offices. OGC advises the Commission on fostering competition and promoting
deregulation in a competitive environment.

Office of Inspector General (OIG) – conducts and supervises audits and investigations relating to
the operations of the Commission. This office recommends policies for activities designed to
promote economy, efficiency, and effectiveness, as well as to prevent and detect fraud and abuse.

Office of Legislative and Intergovernmental Affairs (OLIA) – is the Commission’s main point of
contact with Congress and other governmental entities.

Office of the Managing Director (OMD) – functions as a chief operating official, serving under the
direction and supervision of the FCC’s Chairman. Provides direction to the bureaus and staff
offices in management and administrative matters.

Office of Media Relations (OMR) – informs the news media of FCC decisions and serves as the
Commission’s main point of contact with the media. This office also manages the FCC’s website.

Office of Plans and Policy (OPP) – serves as the Commission’s chief economic policy advisor,
analyzing issues and developing long-term policy planning.

Office of Workplace Diversity (OWD) – advises the Commission on all issues related to workforce
diversity, affirmative recruitment, and equal employment opportunity.

The Universal Service Fund

Universal Service Fund (USF) – a significant program of the FCC, as designated in the U.S.
Budget, USF consists of five elements, four of which are the universal service support mechanisms
and the fifth being the Telecommunications Relay Service (TRS) Fund. The universal service
support mechanisms were established pursuant to Section 254 of the Act, as amended. The TRS
Fund was established pursuant to Section 225 of the Act, as amended. The TRS Fund compensates
TRS providers for the reasonable costs of providing interstate telephone transmission services that
enable persons with hearing or speech disabilities to use wireline or wireless telecommunications
services.
The universal service support mechanisms are funded through mandatory contributions from all
U.S. telecommunications companies, including local and long distance phone companies, wireless
and paging companies, and payphone providers. There are four universal service support
mechanisms: high cost, low income, rural health care, and schools and libraries. The High Cost
Support Mechanism provides support to telephone companies that serve high cost areas. The Low
Income Support Mechanism assists low-income consumers by helping to pay for service connection
charges as well as monthly charges. The Rural Health Care Support Mechanism allows rural health
care providers to pay the same for telecommunications services as their urban counterparts. The
Schools and Libraries Support Mechanism provides discounted Internet access and
telecommunications services to schools and libraries. While consumers benefit from the support
mechanisms, only service providers may receive money directly from the support mechanisms,
which defray the cost of delivering services to customers.


                                                4
                                                                   Federal Communications Commission
                                                               Fiscal Year 2001 Annual Financial Report

Universal Service Administrative Company (USAC) – administers the USF under the direction of
the FCC. On July 13, 2001, the FCC authorized USAC to outsource the USF accounting functions
for billing and collections through the competitive procurement process to a private contractor.
Unlike the FCC’s programs, USF programs operate on a different fiscal year, which commences
January 1 and ends December 31.

National Exchange Carriers Association (NECA) – administers the TRS Fund under the direction of
the FCC.

Other FCC Components

North American Numbering Plan (NANP) – In February 1996, Congress passed the 1996 Act
amending the Act. Section 251(e)(1) of the Act requires the Commission to create and designate
one or more impartial entities to administer telecommunications numbering and to make such
numbers available on an equitable basis. The goals of the plan are to provide a structure for number
administration that is impartial and pro-competitive, maintain and foster an integrated approach to
number administration throughout North America, and correct the deficiencies of the current
industry-led efforts in number administration, while maintaining the positive aspects of those
effects. The administrator and billing and collection agent serve for terms of years and are required
to be non-governmental entities under FCC regulations (47 C.F.R. §. 52.12). Cost recovery and
allocation measures are provided for in FCC regulations. However, revenues to support the
program are collected by the administrator or the billing and collection agent (47 C.F.R. §. 52.16;
52.17)

Local Number Portability (LNP) – The FCC established, under the 1996 Act, and as defined in 47
C.F.R. § 52.21. Additionally, the Local Number Portability Administrator (LNPA) was also
established. It is an independent, non-government entity, and is not aligned with any particular
telecommunications industry segment. The LNPA administers the number portability which means
the ability of users of telecommunication services to retain, at the same location, existing
telecommunications numbers without impairment of quality, reliability, or convenience when
switching from one telecommunications carrier to another. The administrator and billing and
collection agent serve for terms of years and are required to be non-governmental entities under
FCC regulations (47 C.F.R. §. 52.21h). Cost recovery and allocation measures are provided for in
FCC regulations. However, revenues to support the program are collected by the administrator or
the billing and collection agent (47 C.F.R. §. 52.32; 52.33).

The organizational chart for the FCC, as of September 30, 2001, is included on the following page.




                                                 5
                                                                             Federal Communications Commission
                                                                         Fiscal Year 2001 Annual Financial Report




* As of September 30, 2001, there was one vacant Commissioners Office.

                                                                   6
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2001 Annual Financial Report

 Facilitating the Communications Revolution – The FCC’s
 Implementation of the Government Performance and Results Act

            “[We have]…a unique opportunity to take stock and assess our regulatory
            framework, and to develop guiding principles that will encourage economic growth
            in the communications sector and maximize consumer welfare.”

                                                                                   Chairman Michael K. Powell
                                                                    Testimony on Appropriations, June 28, 2001


 I.      Overview: With rapid changes in the technology sectors, the FCC’s strategic planning
         process is an evolving one. However, the fundamental mission of the FCC remains
         unchanged – to implement the Act, as amended, and the 1996 Act, in a manner that
         promotes competition, innovation, and deregulation in the communications industry and the
         availability of high quality communications services to all Americans. In order to achieve
         these objectives in this time of great innovation in the communications industry, the FCC
         must strive to remain on the cutting edge of changes in technology, economics, and the law.
         To ensure the FCC is making strides in fulfilling its mission, the Commission developed
         strategic goals and objectives as well as performance measures, in accordance with the
         Government Performance and Results Act of 1993 (GPRA). Performance measures
         included in this overview were drawn from the FCC’s Annual Performance Plan as
         submitted to Congress with the FCC’s FY 2002 budget request as well as the FY 2000
         Annual Program Performance Report (March 2001), which assesses FY 2000 performance
         efforts and highlights the goals for FYs 2001 and 2002. These measures are consistent with
         the FCC’s Strategic Plan. The performance measures selected for this Annual Financial
         Report (five measures from the FY 2000 Annual Financial Report and three new measures)
         were based on links to the Commission’s most significant activities.

II.      Goals and Objectives: Consistent with the objectives of the 1996 Act, the Commission has
         sought to rely increasingly on market forces to promote competition to foster the availability
         of high quality communications services to consumers at reasonable prices. The FCC is
         challenged to continue to find ways to foster competitive entry into established markets,
         while encouraging the development of open, competitive markets for new and innovative
         technological services. The FCC must strive, through the enforcement of policies aimed at
         encouraging competition, to ensure that its rules are adhered to fully, and to continue to
         monitor business practices and their impact on consumers. The FCC must also keep
         focused on an ever increasing global communications marketplace, and the challenges that
         globalization poses for spectrum sharing and maintaining open international markets. The
         advent of Internet-based and other new technology-driven communications services will
         impact the communications industry, eroding traditional regulatory distinctions between the
         various sectors of the communications industry. As a result, the FCC will need to integrate
         the changing character of the industry into its core functions: 1) licensing; 2) promotion of
         competitive markets; 3) enforcement; 4) consumer information; and 5) spectrum
         management.5 The FCC’s goals and objectives, listed in the chart below, are aligned with

 5
     FCC’s FY 2002 Budget Estimates to Congress, Annual Performance Plan, pages 1-2.
                                                                7
                                                                       Federal Communications Commission
                                                                   Fiscal Year 2001 Annual Financial Report

        the five core functions as well as the FCC’s Strategic Plan and Annual Performance Plan.
        Eight performance measures related to the strategic objectives in italics are highlighted in
        this report in the order listed, and detailed further in Part VI of this section.

            Strategic Goals and Objectives from the Annual Program Performance Report6
         1. Licensing: Create A More Efficient, Effective and Responsive Agency
                 Automate agency processes. (1)
                 Streamline Commission’s processes and procedures. (2 and 3)
         2. Competition:
            A. Promote Competition In All Communications Markets
                 Eliminate barriers to entry in domestic markets. (4)
                 Deregulate where appropriate to promote competition. (5)
                 Promote competition in international communications markets.
            B. Promote Opportunities For All Americans To Benefit From The Communications Revolution
                 Promote access for all Americans to communications services. (6)
                 Promote consumer education and information.
         3. Enforcement: Promote Competition In All Communications Markets
                 Enforce the rules so businesses compete fairly. (7)
         4. Consumer Information Services:
            A. Create A More Efficient, Effective and Responsive Agency
                 Provide improved access to all Commission information.
            B. Promote Opportunities For All Americans To Benefit From The Communications Revolution
                 Promote access for all Americans to communications services.
         5. Spectrum Management: Manage The Electromagnetic Spectrum In The Public Interest
                  Promote more efficient use of spectrum.
                  Foster the increased availability of spectrum. (8)


        The table on the following page reflects the budgetary resources dedicated to the five core
        functions. The data includes both direct organizational full time equivalent personnel (FTE)
        and operating cost, as well as other staff office support (FTE and operating cost) necessary
        to provide policy direction, program development, legal services, executive direction and
        other services associated with each of the individual functions. In the FY 2000 Annual
        Financial Report, the FCC first tracked its performance measures according to the five core
        areas noted above. However, the cost accounting system has not yet been updated to reflect
        the addition of spectrum management as an additional function. As a result, the FCC
        Budget Office developed the FY 2001 cost-by-activity and FTE estimates in the following
        table based on the same percentages for allocation of funds used in the FY 2001
        Congressional Budget submission. The FCC has developed the functional requirements
        document for a new cost accounting system. The new Managerial Cost Accounting System
        (MCAS) will provide a financial management system that supports the partnership between
        program and financial managers, assures the integrity of information for decision making,
        and measures the full cost of the FCC’s programs and their various elements, activities, and
        outputs.



6
    FCC’s FY 2000 Annual Program Performance Report, March 2001
                                                           8
                                                                        Federal Communications Commission
                                                                    Fiscal Year 2001 Annual Financial Report

                      Dedicated Budgetary Resources by the 5 Core Functions7
                                  (Dollar amounts in thousands)
                                               FY 2000 Estimate                    FY 2001 Estimate
                                       Cost-by-                             Cost-by-
        Activity                                    %       FTEs    %                    %     FTEs      %
                                       Activity                             Activity
      1. Licensing                      $36,314   17.3%     402    20.8%     $41,388   18.0%     370   18.7%
         Promotion of Competitive
      2.                                $68,009   32.4%     528    27.3%     $69,900   30.4%     510   25.8%
         Markets
      3. Enforcement                    $65,070   31.0%     599    31.0%     $72,889   31.7%     658   33.3%
         Consumer Information
      4.                                $18,892    9.0%     236    12.2%     $22,993   10.0%     265   13.4%
         Services
      5. Spectrum Management            $21,620   10.3%     168    8.7%      $22,764    9.9%     172    8.7%

        TOTAL:                         $209,905 100% 1,933 100%            $229,934 100% 1,975 100%


III. Strategies and Resources to Achieve Performance Goals: The FCC has identified
     strategies and resources to achieve the performance goals for each of the five core functions.
     The chart above details the estimated budgetary resources to achieve these performance
     goals. A summary of the strategies for each of the core functions follows.
     A. Licensing – The FCC has sought to improve its licensing activities through a multi-
        year plan to reengineer and integrate its licensing databases, and through
        implementation of interactive, electronic filing systems. Initiatives have included
        universal licensing, streamlined application processes, revised and simplified licensing
        forms, blanket authorizations, and authorizations for electronic filing of license
        applications and certifications. The benefits derived from these efforts are manifold
        and include a more economical use of FCC personnel resources, improvement in
        processing times, the ability of licensees to file via the Internet or through other
        electronic filing mechanisms, and the ability to provide licensees with immediate status
        reports on their applications. These have resulted in the ability to provide improved
        service to the public.
     B. Promotion of Competitive Markets – As the FCC’s role changes from market regulator
        to market facilitator, the Commission will rely less on traditional rulemaking
        procedures where possible, and will rely more on interagency task forces, advisory
        committees, and state, local, and regional consortia. The FCC will endeavor to assist
        the rapid expansion of innovative new technologies. In addition, the Commission will
        continue to promote the development of competition in the local exchange market to
        increase the range of choices in local telephone service providers, multipoint video
        programming market services, and mobile wireless providers. At the same time, the
        Commission will review rules and spectrum allocation policies to ensure that FCC
        rules, regulations, and activities do not deter development of emerging technologies.



7
  Data sources: Annual Performance Plan as included in the FY 2002 Budget Estimates to Congress and supporting
documentation from the FCC Budget Office.
                                                        9
                                                          Federal Communications Commission
                                                      Fiscal Year 2001 Annual Financial Report

C. Enforcement – An important element for competitive markets is the full and fair
   enforcement of the FCC’s rules and regulations. Effective use of the FCC’s resources
   is critical to ensuring full implementation of the Act, as amended, the 1996 Act and the
   Commission’s rules specifically designed to open communications markets to
   competition and enhance choice for consumers. An essential step in achieving this
   objective was the creation of the Enforcement Bureau, consolidating functions formerly
   dispersed throughout the FCC. The Enforcement Bureau was created to respond
   quickly and efficiently to the demands of a competitive environment.                The
   consolidation of FCC’s enforcement activities allows for a streamlined, centralized
   enforcement program, capable of identifying problems as they emerge, and better
   equips the Commission to provide a wide range of enforcement initiatives. The
   Enforcement and Consumer Information Bureaus work together to watch for trends and
   share data. The end result is improved performance through an expanded outreach
   program, a better-educated telecommunications consumer, and a more law-abiding
   industry.
D. Consumer Information Services – In FY 2000, the FCC consolidated its consumer
   information activities within one organization to provide “one stop shopping” to the
   telecommunications consumer. Consolidation of consumer information services under a
   single structure yields significant benefits to consumers and stakeholders – providing
   timely, accurate, and consistent information; tracking trends and mapping “hot” consumer
   issues nationwide, by region or by state; achieving economies of scale; and developing a
   useful Consumer Information Strategic Plan for FCC-wide applications. Progress in the
   FCC’s consumer information services includes development of: an Internet homepage
   with a wealth of information on all telecommunications topics; an electronic comment
   filing system that allows stakeholders throughout the country to file their rulemaking
   comments electronically; and Consumer Information Centers that provide consumers with
   detailed information on all telecommunications-related topics.
E.   Spectrum Management – The successful deployment of many new communications
     technologies depends on the availability of electromagnetic spectrum. To ensure that
     the FCC does not hinder the growth of new services, the Commission issued guidelines
     for future spectrum management policies that will:
        9 Allow flexibility in allocations and service rules as appropriate;
        9 Promote new spectrum efficient technologies;
        9 Ensure that important communications needs, such as public safety, are met;
        9 Improve the efficiency of spectrum utilization;
        9 Encourage the development of secondary markets for spectrum to promote
          greater use of the spectrum;
        9 Continue to seek out ways to make more spectrum available, for example, by
          reclaiming spectrum for higher valued uses;
        9 Authorize equipment in a timely fashion while ensuring safety.
     To improve spectrum management activities, the FCC established a Spectrum Policy
     Executive Committee to: (1) address broad policy issues affecting spectrum
     management; (2) implement initiatives consistent with spectrum allocation policies;
     and (3) coordinate inter-bureau spectrum issues.

                                           10
                                                                      Federal Communications Commission
                                                                  Fiscal Year 2001 Annual Financial Report

IV. Process for Integrating Performance Measures in FCC Management Activities: The
    GPRA requires that Federal agencies establish standards to measure effectiveness and
    performance in achieving their goals and objectives. The GPRA requires Federal agencies
    to: develop a Strategic Plan covering the current and subsequent five fiscal years (revised
    every three years); prepare an Annual Performance Plan setting out performance goals for
    one fiscal year; and submit an Annual Program Performance Report comparing actual
    performance results with performance goals. The FCC has taken numerous steps to ensure
    that performance measures are integrated into the day-to-day activities of the Commission
    and used by FCC staff to manage results. The FCC recognizes that the GPRA is a valuable
    tool for achieving this end, and has integrated performance measures into management
    activities as follows:
        A.     Coordination. The Performance Evaluation and Records Management (PERM) staff
               coordinates with the FCC Budget Office and the Chief Financial Officer (CFO) to
               discuss the development of performance measures and evaluation processes, and to
               ensure communication of these measures as they relate to the FCC's operations.
        B.     Meetings. The PERM staff meets with bureau and office chiefs to provide an
               overview of GPRA, explain the goals of the annual performance planning process, and
               answer any questions from the bureau and office chiefs. Follow-up meetings are
               scheduled with individual managers as well as with the Office of the Chairman to
               discuss the status of performance measure development and outcomes.
        C.     Review of Performance Measures. In response to requests from the Managing
               Director and PERM staff, bureau and office chiefs are asked to review performance
               measures and provide feedback on the previous year's Annual Performance Plan –
               which measures are still useful, which should be modified, and whether there are
               additional measures that would be useful from a management perspective.
        D.     Developing Outcome Measures. Bureau and office chiefs are encouraged to develop
               outcome measures. Outcome goals reflect the intended result, effect, or consequence
               (e.g., impact) of carrying out a program or activity. Output goals, on the other hand,
               result from process-related measures, and reflect the level of activity or effort over a
               period of time (or by a specified date), including characteristics and attributes (e.g.,
               timeliness) set as standards for conducting the activity or effort.8 As a regulatory
               agency, however, it is difficult to measure with certainty the market impact of many of
               the FCC's measures. In addition, there are other limitations to performance
               measurement: performance cannot be fully described by a single indicator; indicators
               do not by themselves say why performance is at the level reported; focusing on
               quantifiable indicators can sometimes have unintended consequences; and, where
               performance measurement is feasible, the impacts will likely occur over a period of
               time, not in a single fiscal year.
        E.     Documentation. Once the results of the efforts to develop performance measures are
               completed and analyzed, the new and revised measures are incorporated into financial
               and budget documents and the Annual Performance Plan.


8
    OMB Circular A-11, Section 200.2, page 484, July 2001.
                                                             11
                                                                Federal Communications Commission
                                                            Fiscal Year 2001 Annual Financial Report

     F.   Data Collection, Verification and Validation, and Creation of Quarterly Reports.
          The PERM staff works with the bureaus and appropriate staff offices to collect
          relevant quarterly data on the performance measures. The data is then analyzed and
          summarized for the Quarterly Performance & Results Review (QPRR). Bureaus and
          offices are responsible for ensuring that data is validated and verified. However,
          PERM undertakes a second level of review. Where data appears to vary from trends
          or raise questions, PERM requests the bureau or office to further verify and validate
          that the data is relevant and reliable. Additionally, training provided to appropriate
          staff promotes accurate data entry, and program staff’s review of the data helps assure
          reasonable accuracy and quality results.
     G.   Information Sharing. These quarterly performance reports are distributed to
          management in all bureaus and staff offices within the FCC as a management tool for
          assessing performance to date. In addition, the QPRR is provided to, and used as a
          benchmark by, the Chief of Staff and the Chairman.
     H.   Management Tool. FCC management uses the QPRR information as a tool to identify
          areas where goals are not being met, which enables PERM staff to work with bureaus
          and offices to make adjustments as necessary throughout the year. With the FCC's
          new pass/fail employee appraisal process, it is at the discretion of each bureau and
          office manager to identify the key performance measures that will be used for staff
          appraisals.

     The FCC strives to ensure that the staff regularly assesses efforts to meet the FCC's
     performance goals so that appropriate progress is made throughout the year. As noted
     previously, the FCC is currently developing its MCAS, which will provide a financial
     management system that supports the partnership between program and financial managers,
     assures the integrity of information for decision making, and measures the full cost of the
     FCC's programs and their various elements, activities, and outputs. Using MCAS, FCC
     management will have an increased level of detail concerning the cost of doing business.
     Financial management data and information, which is accurate, timely, and consistent across
     FCC bureaus and offices, will be available simultaneously to program managers, financial
     managers, and budget officials.

V.   Performance Measures Highlighted in the Financial Statements: The process for
     determining the appropriate performance measures for integration into the financial
     statements starts with initial discussions between PERM, Financial Operations, the Budget
     Office, and program staff, as appropriate. In those discussions, participants review the
     GPRA performance measures, identify measures for sizeable FCC activities, determine data
     sources, and select measures that have significant programmatic, financial, and/or
     managerial impacts. Once the MCAS is completed, linkages between performance
     measures and the Statement of Net Cost will be more easily achieved.

     Based on guidance from the Office of Management and Budget (OMB) and the Financial
     Accounting Standards Advisory Board (FASAB), performance measures for the FY 2001
     Annual Financial Report, highlighted below, have been selected because they are:
          9 aligned with the Commission’s mission and goals;
          9 limited to the FCC’s most significant programs; and
                                                12
                                                                             Federal Communications Commission
                                                                         Fiscal Year 2001 Annual Financial Report

           9 consistent with the Commission’s implementation of the GPRA as reflected in
             budget documents and other related materials.

VI. Measurement of FCC Strategic Goals and Objectives: This section discusses eight
    performance measures related to FCC’s strategic goals and objectives as well as the FCC’s
    success in achieving its FY 2001 targets. The eight performance measures include five that
    were previously incorporated into the FY 2000 Annual Financial Report plus three new
    measures selected from the Annual Performance Plan, consistent with FCC’s Strategic Plan.
    All of the measures have been updated to reflect the performance results in the FCC’s FY
    2000 Annual Program Performance Report. Each section below includes a table that
    identifies the FCC’s FY 2001 accomplishments. Where FY 1999 and FY 2000 data are
    available, they are also highlighted to provide trend information. Additionally, where a
    measure is new to this annual report it is identified as “new,” whereas measures included in
    the previous Financial Statements are marked as “ongoing” and are updated to reflect any
    modifications to the goals. The performance measures were selected by FCC management
    as significant for inclusion in the FY 2001 Annual Financial Report for reasons noted above.

       (1) LICENSING:
           Strategic Goal – Create a More Efficient, Effective and Responsive Agency
           Performance Objective – Automate Agency Processes9 (ongoing)

         This performance objective encourages the efficient and innovative licensing and
         authorization of filing services by automating or streamlining several critical FCC
         functions. The goal is to implement automated licensing and electronic filing systems
         across the Commission, creating a more efficient, effective and responsive FCC and
         substantially reducing backlogs in licensing applications, petitions for reconsideration,
         and other proceedings. As the FCC works to develop and implement new business
         processes and policies, coupled with advances in information technology, the FCC will
         be a leader in implementing Federal e-government initiatives.
          Performance Measure                         Measurement           FY 2000          FY 2001        FY 2001
                                                                             Results           Goal         Results
          Create a paperless FCC by automating       Percentage of       Result 59.9%     70% of all         77%
          functions and fully implementing           electronic          actions          documents
          automated licensing and electronic         applications        (applications)   (applications)
          filing systems to promote one-stop         submitted via       filed            filed
          shopping. Consolidate individual           licensing &         electronically   electronically
          systems and adopt one standard user        filing systems
          interface where possible to simplify                           Goal: 60%
          public use of our systems.

         The FCC is already seeking to improve its licensing activities through a multi-year
         Chairman-sponsored initiative to design and develop a common repository of information
         that can be shared by various Commission systems. The objective of this effort is to
         streamline FCC business processes, in order to enhance the public’s ability to access FCC
         data, improve the manner in which the FCC serves its constituencies, and ensure that
         FCC processes are compatible with the modern communications industry that it

9
 In FY 2000, this performance objective was called “Create a Model Agency for the Digital Age,” however, under the new
Chairman, the name was changed to better depict the strategic goal, which remains unchanged from FY 2000.
                                                          13
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2001 Annual Financial Report

         regulates. One key area where the Commission could realize maximum benefits is in the
         integration and simplification of the FCC’s application filing and licensing systems.
         Specific FCC initiatives to promote improved business processes in licensing activities,
         include universal licensing, streamlined application processes, revised and simplified
         licensing forms, blanket authorizations, and enhanced electronic filing/licensing
         systems.10 The benefits derived from these efforts are manifold and include a more
         economical use of FCC personnel resources, improvement in processing times, the ability
         of licensees to file via the Internet or through other electronic filing mechanisms, and the
         ability to provide licensees with immediate status reports on their applications. These
         have resulted in the ability to provide improved service to the public.
         This measure compares the number of applications submitted using electronic
         licensing/filing systems with the total number of applications processed. In FY 2001, the
         number of applications received electronically by the FCC was 77% of the total
         processed, exceeding the Commission’s 70% goal, and representing a 17% increase over
         FY 2000. The table below provides details for FY 2001 by bureau and office.

                           FY 2001 Electronic Filing/Licensing by Bureau and Office
                    Bureau/Office                 Number of Electronic            Total Number of             Percent
                                                   Filings/Applications          Filings/Applications         Achieved
           Office of Engineering and                        2,412                        2,886                  83.5%
           Technology
           Wireless Telecommunications                    453,043                       577,290                 78.4%
           Bureau
           Mass Media Bureau                               17,242                       27,896                  61.8%
           International Bureau                             2,533                        6,281                  40.3%
           Common Carrier Bureau                             641                         2,906                  22.0%
           Total Agency                                   475,871                       617,259                 77.0%

         By comparison, in FY 2000, about 60% of the applications were filed electronically.
         Specific FY 2000 electronic filing results by bureau and office were: Office of
         Engineering and Technology, 86%; Wireless Telecommunications Bureau, 63%; Mass
         Media Bureau, 27%; International Bureau, 21%; and Common Carrier Bureau, 25%.
         In FY 2000 a total of 108 application and licensing services11 were available, of which 78
         of these services (72%) had automated licensing or electronic filing capability, utilizing
         18 electronic filing, licensing, and public access systems. These figures remained
         constant in FY 2001.
         In FY 2000, the FCC expended $17.7 million12 of appropriated funds towards the
         Commission’s information technology (IT) program, including base-level funds ($15.3
10
   There are twelve electronic filing/licensing systems: Universal Licensing System, Broadband Licensing System, Consolidated
Database System, International Bureau Filing System, Management Database System, Electronic Comment Filing System,
Operations Support for Complaint Analysis and Resolution, Cable Operations and Licensing System, Electronic Tariff Filing
System, Access, Equipment Authorization System, and the Experimental Licensing System.
11
   A “service” refers to a discrete application or license.
12
   The FY 2000 actual expenditures differ from those included in the FY 2000 Annual Financial Report, which reflected budget
estimates of obligations. Additional supplemental appropriated funds for Y2K remediation were obligated in FY 2000.
                                                              14
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2001 Annual Financial Report

                   million) for day-to-day IT operations, bureau and office application systems
                   maintenance, and limited life-cycle replacement in addition to the remaining Y2K
                   remediation funds ($2.4 million). Of the expended amount, nearly $3.2 million13 (18%)
                   was used to promote electronic filing, streamlined application processes, enhanced
                   customer access to information, facilitation of the creation of a paperless environment,
                   and enhanced computer security for these mission-critical systems.
                   In FY 2001, the FCC expended $23.6 million of appropriated funds toward the
                   Commission’s IT program. Nearly, $4.4 million of these expenditures were obligated for
                   electronic filing and licensing systems enhancements, technical support, and
                   development. This represents about 19% of the total IT budget.
                   The chart below details the actual expenditures for electronic filing and systems
                   development and maintenance by bureau and office for FYs 2000 and 2001.

                              Fiscal Years 2000 and 2001 IT Expenditures on
                        Electronic Filing/Licensing Systems Maintenance & Development


                                $4,500,000


                                $4,000,000


                                $3,500,000


                                $3,000,000
        Expenditures ($000's)




                                                                                                                    FY 2000
                                                                                                                    Expenditures
                                $2,500,000
                                                                                                                    FY 2001
                                                                                                                    Expenditures
                                $2,000,000


                                $1,500,000


                                $1,000,000


                                 $500,000


                                       $0
                                             CIB   IB   MMB         OET       OMD        WTB        Agency
                                                              Bureau/Office




13
  The FY 2000 actual expenditures differ from those included in the FY 2000 Annual Financial Report, which reflected budget
estimates of obligations.
                                                               15
                                                                                    Federal Communications Commission
                                                                                Fiscal Year 2001 Annual Financial Report

            Currently, the FCC’s Consumer Information Bureau is undertaking an information
            technology review to improve document management and operational issues impacting
            FCC’s stakeholders from consumers and carriers to the states. While not an electronic
            filing or licensing system, the Consumer Information Management System (CIMS) will
            remove obsolete and unsupported proprietary technologies, reduce the existing multiple-
            database environment, and simplify workflows. Specifically, the use of commercial-off-
            the-shelf software, the addition of graphical user interfaces, Braille and audio interfaces,
            e-mail integration, Internet connectivity, and data and document storage are among the
            benefits to be realized. Security features will be available, as will the ability to capture
            documents and attachments such as electronic images to reduce workflow time and
            eliminate paper tracking processes. Once implemented, CIMS will provide the FCC with
            a single integrated (“unified messaging” concept) resource to quickly obtain accurate and
            up-to-date information, and will simplify public use of FCC systems.14


          (2) LICENSING:
              Strategic Goal – Create a More Efficient, Effective and Responsive Agency
              Performance Objective – Streamline Agency’s Processes & Procedures (new)

            This performance objective promotes the efficient and innovative licensing and
            authorization of services by creating a faster, flatter, more functional FCC. Across the
            Commission, the FCC must invest in new technologies that will improve processes and
            allow the Commission to be as responsive to customers as possible. The FCC must be
            structured to react quickly to market developments, to work more efficiently with a
            competitive industry, and to focus on bottom line results for consumers. Ultimately, the
            Commission must be structured to render decisions quickly, predictably, and without
            imposing needless costs on industry or consumers through unnecessary delays.

             Performance               Measurement                  FY 2000 Results       FY 2001 Goal         FY 2001
             Measure                                                                                           Results
             Improve our speed of      Percentage of                Result: 89% of all   90% of                 93.7%
             disposal for processing   applications disposed        applications         applications
             license applications      within speed of              processed within     disposed of
                                       disposal (SOD) goals         goals                within SOD
                                                                                         goals
                                                                    Goal: 90%

            Each of the bureaus and staff offices sets customer service speed of disposal goals for the
            processing and disposing of license applications, tariff filings, formal complaints, and
            cable service activities. Internal and external factors, including resources for staffing and
            estimates of workload, play a role in the FCC’s ability to meet goals for processing
            license applications. In some cases, conflicting applications, complex legal and
            engineering questions, and other issues arose that impact the measurement of speed of
            disposal. As a result, the FCC is reviewing the approximately 300 different processing
            goals for all of its actions in an effort to improve consistency in measuring the speed of
            disposal.

14
     From “Business Process Review Report,” prepared by DynCorp Information & Enterprise Technology (2-7-01)
                                                               16
                                                                   Federal Communications Commission
                                                               Fiscal Year 2001 Annual Financial Report

        For example, the Mass Media Bureau (MMB) sets goals based on a number of factors. In
        the case of “AM & FM New and Major Changes,” the process starts when the first
        applicant files for a license. Time is needed to issue a public notice and invite competing
        applications; respondents must be given time to prepare competing applications; the
        MMB then evaluates the applications; respondents have the opportunity to file petitions
        to deny; the MMB evaluates and responds to those petitions, if filed; the MMB then
        processes all the applications (which could include engineering evaluations, legal
        determinations, Federal Aviation Administration tower clearances, local government
        approvals, among other issues). In addition to this example, other programs have
        statutory requirements under which licenses cannot be acted upon until 120 days after
        expiration of the public notice inviting applications.
        Tracking of the speed of disposal goals is based on “non-routine,” “routine,” and
        “blocked” categories, defined generally as follows:
            9 Routine: applications/cases/proceedings that are uncontested, non-blocked, and do not
              involve waivers or any complex matters or circumstances.
            9 Non-routine: applications/cases/proceedings that are contested or involve rule waivers,
              conflicting proposals or other issues within the bureau’s purview.
            9 Blocked: applications/cases/proceedings that involve issues or processing outside of the
                Commission's control.
        Of the 603,417 actions disposed of in FY 2001, 565,830 were disposed of within the
        speed of disposal goals. Agency-wide, the percentage of actions disposed of within the
        speed of disposal goals was 93.7%.
        In FY 2000, a total of 543,066 actions were disposed of, 484,992 of which were disposed
        of within the speed of disposal goals. Agency-wide, the percentage of actions disposed
        of within the goal for speed of disposal (90%) was 89%.

     Percentage of Actions Disposed Within Speed of Disposal Goals
                                        FY 2001 Goal: 90%
           100%
            90%                                                                        CCB
            80%                                                                        CSB
            70%                                                                        EB
            60%                                                                        IB
            50%                                                                        MMB
            40%                                                                        OET
            30%                                                                        WTB
            20%                                                                        AGENCY
            10%
             0%
                           FY 00 Average                 FY 01 Average

Source of Data: SOD Reports from Bureaus/Offices.

                                                    17
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2001 Annual Financial Report



       (3) LICENSING:
            Strategic Goal – Create a More Efficient, Effective and Responsive Agency
            Performance Objective – Streamline Agency’s Processes & Procedures (ongoing)

         This performance objective promotes the efficient and innovative licensing and
         authorization of services by creating a faster, flatter, more functional FCC with
         substantially reduced backlogs in licensing applications, petitions for reconsideration,
         and other proceedings. The FCC must be structured to react quickly to market
         developments, to work more efficiently with a competitive industry, and to protect
         consumers.

           Performance                    Measurement                FY 2000 Results*             FY 2001         FY 2001
           Measure                                                                                 Goal            Results
           Substantially reduce      The number of                 Result: By the end of        Backlog         On average,
           our backlog including     applications                  the 4th quarter, FY          will not        backlog was
           licensing                 backlogged compared           2000, backlog had been       exceed          1.5% of
           applications, petitions   to the number of              reduced by 96.4%             10% of          receipts
           for reconsideration,      applications received.                                     receipts
           and other                 (A backlog is defined         Goal: Backlog in
           proceedings.              as 1.5 times the speed        applications does not
                                     of disposal (SOD)             exceed 40% of receipts
                                     goal.)
         * In some cases the FCC may not meet timelines due to external requirements (e.g., involvement of outside agencies).


         In calculating the percentage of backlogged applications, the FCC incorporates the
         workload for processing new applications, which impacts the Commission’s ability to
         respond to overage cases. In FY 2001, the FCC reduced backlogs from 3.1% in the first
         quarter to 0.82% in the 4th quarter. Overall, by the end of FY 2001, the FCC reduced its
         backlog by 99% FCC-wide. On average, backlogs were 1.5% of receipts, thus exceeding
         the goal of 10%. In some cases, these backlogs existed due to technical issues
         unresolved within the industry, processing procedures in the satellite space program, and
         broadcast auction procedures.
         In FY 2000, the FCC reduced its backlog from 40% in the first quarter and further
         reduced its backlog to nearly 4%15 by the end of the fourth quarter. Overall, the FCC
         reduced the backlog by over 96% in the 4th quarter. Significant concentration was placed
         on reduction of the informal complaints backlog.
         By reducing the number of forms required, and enabling the public to file applications
         electronically, the FCC will be in a better position to respond to backlogged applications,
         thereby providing better customer service. For example, in FY 2000, FTE resources
         were reallocated to the Enforcement Bureau (EB) and the Consumer Information Bureau
         (CIB), both of which experienced significant reductions in backlogs that year. In
         addition, the FCC refocused its backlog reduction efforts toward the elimination of a
         significant number of informal complaints in CIB.

15
  Note that FY 2000 results differ slightly from the FY 2000 Annual Financial Report due to reassessment and corrections made
based on internal audits of automated systems.
                                                              18
                                                                    Federal Communications Commission
                                                                Fiscal Year 2001 Annual Financial Report



                               Backlog Reduction Efforts
  (Percentage of Total Workload Identified as Backlogged – i.e., 1.5 times the SOD Goal)


       55%                                                                               CCB
       50%                                                                               CIB
       45%                                                                               CSB
       40%                                                                               EB
       35%                                                                               IB
       30%                                                                               MMB
       25%
                                                                                         OET
       20%
                                                                                         WTB
       15%
       10%
                                                                                         AGENCY
        5%
        0%
                     FY 00 Average                       FY 01 Average

Source of Data: SOD Reports from Bureaus/Offices.




                                                    19
                                                                   Federal Communications Commission
                                                               Fiscal Year 2001 Annual Financial Report


(4) COMPETITION:
  Strategic Goal – Promote Competition in All Telecommunications Markets
  Performance Objective – Eliminate Barriers to Entry in Domestic Markets (new)

This performance objective promotes the development of competitive, innovative, and
high quality communications systems. As the Commission strives to assist in the rapid
expansion of innovative new technologies, its role will change from market regulator to
market facilitator. The FCC will continue to promote competition in the local exchange
market to dramatically increase the range of choices in local telephone service providers,
multipoint video programming market services, and mobile wireless providers.
 Performance             Measurement                  2000 Results                    2001 Goal
 Measure
 Complete the            Percent growth    88% of households with 1 new     30% of households living
 opening of local        in competition    residential LEC*                 within zip codes with at least 1
 telecommunications      and consumer      Goal: 15%                        CLEC***
 markets through         options – the
 pro-competitive         “State of         73% with 2 residential LECs      10% w/ 2 CLECs
 unbundling,             Competition       Goal: 10%
 interconnections &      Reports”
 co-location policies                      2.6% penetration –households     15% of households have access
                                           with access to advanced cable    to high-speed and advanced
                                           services                         services
                                           Goal: 15%

                                           5% with access to 5 MVPDs**      10% households have access to
                                           6% - 4 MVPDs                     5 or more MVPDs
                                           91% - 3 MVPDs
                                           Goal: 10% 5 MVPDs

                                           75% of households with access    78% households with access to
                                           to 5 or more mobile wireless     5 or more mobile wireless
                                           providers                        providers
                                           84% - 4 or more
                                           91% - 3 or more                  FY 2001 results will be
                                           Goal: 73% with 5 or more         available in Summer 2002
                                                                            when the corresponding
                                                                            competition reports are
                                                                            released
* Local Exchange Carrier (LEC)
** Multichannel Video Program Distribution (MVPD) Providers
*** Competitive Local Exchange Carrier (CLEC)

In FY 1999, the FCC implemented a variety of rulemaking decisions designed to provide
guidance in the areas of unbundling, co-location, line-sharing, and pricing in order to
facilitate local competition. These decisions prescribe certain minimum points of
interconnection necessary to permit competing carriers to choose the most efficient
points at which to interconnect with the incumbent local exchange carrier’s (ILEC)
network. While the actual pricing is left to the states, the FCC provides a methodology
for establishing the rates for interconnection and the purchase of unbundled elements.
The FCC’s cost-based pricing methodology is based on forward-looking economic costs,
and is at the core of bringing competition to the communications market.
                                                 20
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2001 Annual Financial Report

         In March 2000, the Commission established a local competition and broadband data-
         gathering program to assist the Commission in its efforts to monitor and further
         implement the pro-competitive, deregulatory provisions of the 1996 Act. Under this
         program, service providers file reports with the Common Carrier Bureau twice a year,
         providing data that allows the FCC to examine competition and barriers to entry. The
         Cable Services Bureau collects similar information from the industry once each year.
         The data is used to develop competition reports on the communications industry. These
         reports are based on the calendar year, rather than FCC’s fiscal year.
         Competitive Local Exchange Carriers
         During FY 2001, the Chairman met with several competitive local exchange telephone
         carriers (CLECs) to discuss and assess what is working in the industry, technological
         obstacles, and best practices to bring effective competition to local phone markets. This
         is one example of FCC outreach to better understand the industry.
         In calendar year 2000, 88% of households within each zip code had access to at least one
         new local exchange carrier and 77% had access to two, exceeding the FCC’s goals of
         15% and 10%, respectively. And, in 1999, 85% had access to at least one. By the end of
         calendar year 2000, competitive local exchange carriers reported 16.4 million (or 8.5%)
         of the approximately 194 million nationwide local telephone lines were in service to end-
         user customers, compared to 12.7 million (or 6.7%) six months earlier. This represents a
         29% increase in the CLEC market size during the second half of calendar year 2000.16
                              Local Exchange Carrier Competition
     (FY 2001 Goal: 30% of Households with Access to 1 Competitive Local Exchange Carrier
                               (CLEC); 10% with access to 2)

                          90%
                          80%
                          70%
                          60%
                          50%                                                               % with access to one
                                                                                            CLEC
                          40%                                                               % with access to two
                          30%                                                               CLECs

                          20%
                          10%
                            0%
                                          FY 99                      FY 00
         Source of Data: CCB Annual Competition Reports; FY 2001 statistical data will not be available until Summer 2002.
         The data is obtained from industry reports based on the calendar year ending December 31. Results indicate
         availability within zip code only; the percentage of residential customers currently is lower than the access rate.




16
  “Local Telephone Competition: Status as of December 31, 2000,” Industry Analysis Division of the Common Carrier Bureau,
Federal Communications Commission, May 2001.
                                                             21
                                                                              Federal Communications Commission
                                                                          Fiscal Year 2001 Annual Financial Report

         Penetration of Advanced Services
         The FCC also set a goal of a 15% penetration rate for “advanced cable services.” The
         scope of this performance measure has evolved with the technologies, beyond just cable
         services. Section 706 of the 1996 Act requires that the FCC conduct inquiries to
         determine “whether advanced telecommunications capability is being deployed to all
         Americans in a reasonable and timely fashion.” Results of these surveys are published in
         annual competition reports, which are used to determine the effectiveness of the FCC’s
         efforts to reach its goal. Advanced telecommunications capability refers to the
         availability of high-speed, switched, broadband telecommunications that enables users to
         “originate and receive high-quality voice, data, graphics, and video using any
         technology.” “Advanced telecommunications capability” and “advanced services” can
         support two-way (provider-to-customer/downstream and customer-to-provider/upstream)
         communications with a broadband width in excess of 200 kilobits per second (kbps).
         “High-speed” services are those with over 200 kbps in at least one direction.17
         At the end of calendar year 2000, the penetration rate for advanced services had
         increased to 2.6% (not meeting the FY 2000 goal of 15%). However, over 96% of the
         country’s population lived in the 75% of zip codes having access to at least one high-
         speed service provider (data is not currently collected on access to advanced services).18
         At the end of calendar year 1999, the penetration rate was 1.0%. So, while the 2000 goal
         was not met, the growth in advanced services increased by 62% over 1999. Results for
         2001 will be available in Summer 2002.
         External factors may impact the FCC’s ability to meet this goal. With many of the new
         technologies in their infancies, uncertainty remains as to the final capability of some
         services. In addition, the degree of consumer demand for these new communications
         services remains unknown, and in these initial stages, prices may outstrip demand. The
         FCC continues to take steps to remove barriers to deployment, to encourage investment
         in technologies that deliver advanced services, and vigorously promote competition in the
         marketplace. The FCC has encouraged initiatives that facilitate the increased speed of
         deployment of advanced services, by participating in a Joint Federal-State Conference on
         Advanced Services (“Joint Conference”), promoting competition-friendly laws,
         encouraging strategic planning and investment by state and local governments, and
         helping foster activism among local business and consumer groups. The FCC also
         continues to seek comments from stakeholders on how the FCC or state commissions can
         better encourage deployment of advanced telecommunications services generally by
         utilizing “price cap regulations, regulatory forbearance, measures that can promote
         competition in the local telecommunications market, or other regulatory methods that
         remove barriers to infrastructure investment.”19




17
   “Federal Communications Commission High-Speed Services for Internet Access,” Industry Analysis Division of the Common
Carrier Bureau, August 2001.
18
   Ibid.
19
   FCC’s “Third Notice of Inquiry” released August 10, 2001 (CC Docket No. 98-146).
                                                           22
                                                                      Federal Communications Commission
                                                                  Fiscal Year 2001 Annual Financial Report

Penetration and Accessibility of High-Speed & Advanced Services
   (FY 2001 Goal: 15% of Penetration Rate for Advanced Services – Residential)



        100%
                                                                                      Penetration of
         90%                                               75%                        Advanced Services
         80%                      56%                                                 Penetration of High-
         70%                                                                          Speed Services
                                                                                      Access to High-Speed
         60%                                                                          Services
         50%
         40%
         30%
                                                           4.7%
         20%                     1.6%
         10%                 1.0%                       2.6%
          0%
                      1999 December               2000 December


  Source of Data: Common Carrier Bureau.

  Mutichannel Video Program Distribution
  By the end of calendar year 2000, 5% of households had access to at least five or more
  multichannel video program distribution (MVPD) providers, falling short of the 10%
  goal. However, 91% of households had access to at least three MVPD providers, and 6%
  of had access to at least four MVPD providers. To better reflect ongoing consolidation in
  the MVPD industry, the FCC will change the annual goal to track households with access
  to 3, 4 or more distributors.
               Multichannel Video/Broadcasting Penetration
              (FY 2001 Goal: 10% of Households with Access to 3 or More
                    Multichannel Video Programming Distributors)


              100%
               90%
               80%
               70%
               60%                                                                 3 MVPDs
               50%                                                                 4 MVPDs
               40%
                                                                                   5 MVPDs
               30%
               20%
               10%
                0%
                             1998               1999           2000
                                           Calendar Year

  Source of Data: Cable Services Bureau.




                                                   23
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2001 Annual Financial Report

         Access to Wireless Providers
         The FCC exceeded its FY 2000 goal that 10% of all households be provided with access
         to 5 or more mobile wireless providers, with 73% of households having such access by
         the end of calendar year 2000. The 1998 figures in the chart below are based on
         coverage by basic trading area (BTA), while the 1999 & 2000 numbers are based on
         coverage by county. In all three years, a carrier need only cover a small portion of the
         geographic area in order to be considered providing service. Therefore, under either
         method, coverage is overstated. However, coverage based on counties is more accurate.

                                           Wireless Competition
                (FY 2001 Goal: 78% Population with Access to 5 or More Providers)

                 100%
                  90%
                  80%
                  70%                                                                              3 or more competitors
                  60%                                                                              4 or more competitors
                  50%                                                                              5 or more competitors
                                                                                                   6 or more competitors
                  40%
                                                                                                   7 or more competitors
                  30%
                  20%
                  10%
                   0%
                                 FY 98                FY 99                FY 00
                Source of Data: Sixth Report on the State of Competition in the Wireless
                Industry, July 2001. FY 2001 Statistics will not be available until Summer 2002.


         According to the FCC’s “State of Competition in the Wireless Industry Report,” there has
         been strong growth in the mobile telephony sector. At the end of calendar year 2000, 259
         million people, or almost 91%, have access to three or more different operators (cellular,
         broadband PCS, and/or digital specialized mobile radio providers) offering mobile
         telephone services in the counties in which they live. Over 214 million people, or 75% of
         the U.S. population, live in areas with five or more mobile telephone operators competing
         to offer service. And 133 million people, or 47% of the population, can choose from at
         least six different mobile telephone operators.20




20
  “Annual Report and Analysis of Competitive Market Conditions with Respect to Commercial Mobile Services,” FCC’s Sixth
Report (FCC 01-192) released July 17, 2001.
                                                             24
                                                                             Federal Communications Commission
                                                                         Fiscal Year 2001 Annual Financial Report


       (5) COMPETITION:
           Strategic Goal – Promote Competition in All Telecommunications Markets
           Performance Objective – Deregulate where Appropriate to Promote Competition
           (ongoing)

         This performance objective relates to the FCC’s formal inquiries and rulemaking
         proceedings. The goal of this objective is to encourage the development of competitive,
         innovative, high quality communications systems, with a minimum of regulation, or with
         an absence of regulation where appropriate in a competitive market. The FCC is
         eliminating barriers to competition by deregulating where appropriate, and eliminating
         outdated rules to reduce the burden on participants in FCC programs.
          Performance Measure                   Measurement                      FY 2000        FY 2001      FY 2001
                                                                                  Results        Goal        Results
          Reduce the burden of filing,          Overall reduction in the      Result: 1.4%21     20%          7.9%
          reporting, record keeping and         number of forms required      reduction in
          accounting requirements across        by the FCC                    forms
          all communications industries                                       Goal: 10%

         According to performance data collected from the various bureaus and offices, the total
         number of FCC forms at the start of FY 2001 was 139 Commission-wide. During FY
         2001, 20 forms were combined or eliminated, and 9 new forms were approved. The total
         number of forms at the end of FY 2001 was 128, representing a 7.9% reduction from FY
         2000. Recent increases in the number of FCC forms are the result of requirements for
         data collection imposed by Congress. The FCC has determined that a preferred way to
         measure the Commission’s progress in reducing reporting requirements would be an
         annual review of half of the FCC’s forms.
         The FCC’s Information Collection Budget (ICB) submitted to OMB is compiled annually
         and tracks the number of FCC forms as well as burden hours and costs to the public. The
         FCC’s FY 2002 ICB had not been published at the time of this Annual Financial Report.
         The FCC’s FY 2001 ICB (November 2000) estimated a burden reduction on the public of
         10.9% over FY 2000. Burden hours are estimates of the amount of time expected for the
         public to complete required documents (e.g., forms, applications, etc.).
         In FY 2000, 14 forms were combined or eliminated. Twelve additional forms were
         created to accommodate new collection needs, leaving the total number of forms at the
         end of FY 2000 at 139 (a 1.4% reduction from FY 1999). According to the OMB’s FY
         2001 “Information Collection Budget of the United States Government,” the FCC
         reduced burden on LECs by over 1.7 million hours by reducing the amount of
         information needed to request a change in access fees in FY 2000.22




21
   During FY 2000, the agency did not have a mechanism in place to efficiently track the total number of FCC forms, and
numerous forms identified by the Office of Management and Budget were counted twice. The correct number of forms at the
beginning of FY 2000 was 141, thus changing the percentage in forms reduction from 7% to 1.4%.
22
   “Information Collection Budget of the United States Government,” OMB, August 1, 2001.
                                                           25
                                                                                Federal Communications Commission
                                                                            Fiscal Year 2001 Annual Financial Report


       (6) COMPETITION:
           Strategic Goal – Promote Opportunities for All Americans to Benefit from the
           Communications Revolution
           Performance Objective – Promote Access For All Americans to Communications
           Services23 (ongoing)

         This performance objective encourages the development of competitive and innovative
         communications systems, by promoting opportunities for all Americans to access existing
         and future communications services. As the FCC strives to promote competition, it will
         continue to monitor the marketplace to ensure that the benefits of advanced
         telecommunications services and the new information economy is available to everyone,
         able-bodied or disabled, in every school, classroom, and library as well as in high-cost,
         low-income, and rural communities throughout the United States.
          Performance             Measurement                  FY 1999            FY 2000             FY 2001 Goal
          Measure                                              Results            Results
          Continue oversight      Percentage of public      63% of            Result: 77% of      90% of public school
          of the universal        school instructional      public school     public school       instructional
          service discount        classrooms receiving      instructional     instructional       classrooms connected
          mechanism for           telecommunications        classrooms        classrooms          to the Internet
          schools; fully          services, Internet        connected to      connected to
          implement the           access, or internal       the Internet      the Internet
          Schools and             connections at                                                  Results unavailable
          Libraries Program       reasonable rates                                                until Spring 2002
                                                                              Goal: 75%


         The Schools and Libraries support mechanism – often called the Education rate or “E-
         rate” – provides support for eligible schools and libraries to help offset the cost of
         telecommunications services. The range of discounts available corresponds to the
         income level of students’ families in the community as well as the location of the school
         or library (e.g., urban or rural). Income for a school or district is measured by the
         percentage of students eligible for the National School Lunch Program. In FY 2001, the
         USF, for the Schools and Libraries Program, collected gross receipts of approximately $2
         billion, with outlays of approximately $1.7 billion. In FYs 1999 and 2000, the USF
         collected gross receipts of approximately $1.5 billion and $2.0 billion, respectively, with
         outlays of approximately $1 billion and $1.6 billion, respectively.24
         By the fall of 2000, approximately 98% of public schools (as distinct from instructional
         classrooms) were connected to the Internet. The percentage of public school
         instructional classrooms connected to the Internet increased to 77%, surpassing the
         FCC’s goal of 75%.25 Instructional classroom connection rates for 2001 will be available
         when the National Center for Education Statistics (NCES) publishes their 2001 report in
         the spring of 2002.26


23
   In FY 2000, this performance objective was included under the strategic goal to “Promotion of Competitive Markets
Domestically and Internationally,” however, under the new Chairman, the objective was re-categorized to better reflect the
strategic goal.
24
   Gross receipts and outlays are based on monthly SF-224 reports, using the FCC’s FY October 1 to September 30.
25
   National Center for Education Statistics, “Internet Access in U.S. Public Schools and Classrooms: 1994-2000” (May 2001).
26
   The USF funding year starts July 1 and ends June 30 of the following year.
                                                             26
                                                                                                      Federal Communications Commission
                                                                                                  Fiscal Year 2001 Annual Financial Report



             FY 2001 USF Schools and Libraries Fund
                                                                  (in thousands)



 $250,000
 $200,000
 $150,000
 $100,000
  $50,000
       $0
                                                                February
                            November


                                                     January




                                                                                    April




                                                                                                                           September
                                         December
               October




                                                                           March




                                                                                                                August
                                                                                            May


                                                                                                         July
                                                                                                  June
                                                                                              OUTLAYS
                                                                                              RECEIPTS




             FY 2000 USF Schools and Libraries Fund
                                                                  (in thousands)



$250,000
$200,000
$150,000
$100,000
 $50,000
      $0
                                                               February
                                                    January
                         November




                                                                                    April
                                       December




                                                                           March
            October




                                                                                                         July
                                                                                            May




                                                                                                                              September
                                                                                                                  August
                                                                                                  June




                                                                                              OUTLAYS
                                                                                              RECEIPTS




                                                                                   27
                                                                                                                    Federal Communications Commission
                                                                                                                Fiscal Year 2001 Annual Financial Report



              FY 1999 USF Schools and Libraries Fund
                                                                      (in thousands)


$200,000
$150,000
$100,000
  $50,000
       $0




                                                                                                April
                                                                 February




                                                                                                                         July
                                                  January




                                                                                                          May
                                                                                   March
                      November

                                   December
            October




                                                                                                                 June



                                                                                                                                   August

                                                                                                                                                  September
                                                                                                            OUTLAYS
                                                                                                            RECEIPTS


In addition to the Schools and Libraries support mechanism, the Universal Service Fund
supports the High-Cost, Low-Income, and Rural Health Care Support mechanisms. The
following charts provide the monthly receipts and outlays for each of the support
mechanisms. In FY 2001, the High Cost fund collected gross receipts of approximately
$2.6 billion with outlays of approximately $2.6 billion; the Low Income Fund collected
gross receipts of approximately $633.2 million, with outlays of approximately $569
million; and the Rural Health Care fund collected gross receipts of approximately $9.1
million, with outlays of approximately $5.5 million.

                                 FY 2001 USF High Cost Fund
                                                                      (in thousands)


      $240,000
      $230,000
      $220,000
      $210,000
      $200,000
      $190,000
      $180,000
                                                                        February
                                                            January
                                 November




                                                                                                  April




                                                                                                                                            September
                                              December
                      October




                                                                                      March




                                                                                                                                August
                                                                                                          May


                                                                                                                        July
                                                                                                                June




                                                                                                            OUTLAYS
                                                                                                            RECEIPTS




                                                                                           28
                                                                                                        Federal Communications Commission
                                                                                                    Fiscal Year 2001 Annual Financial Report

                        FY 2001 USF Low Income Fund
                                                                (in thousands)



$100,000
 $80,000
 $60,000
 $40,000
 $20,000
      $0


                                                                  February
                         November


                                                      January




                                                                                      April




                                                                                                                             September
                                        December
              October




                                                                              March




                                                                                                                   August
                                                                                              May


                                                                                                            July
                                                                                                     June
                                                                                                OUTLAYS
                                                                                                RECEIPTS




                        FY 2001 USF Health Care Fund
                                                                (in thousands)



$2,000
$1,500
$1,000
 $500
   $0
                                                                February
                                                   January
                    November




                                                                                      April




                                                                                                                                 September
                                    December
         October




                                                                             March




                                                                                                                    August
                                                                                              May


                                                                                                            July
                                                                                                     June




                                                                                                    OUTLAYS
                                                                                                    RECEIPTS




                                                                                 29
                                                                  Federal Communications Commission
                                                              Fiscal Year 2001 Annual Financial Report


(7) ENFORCEMENT:
  Strategic Goal – Promote Competition in all Communications Markets
  Performance Objective – Enforce the Rules so that Businesses Compete Fairly
  (new)

This performance objective is part of the FCC’s efforts to enforce the Act, as amended,
the 1996 Act, and the Commission’s rules, regulations, and authorizations. These
enforcement efforts involve investigations, inspections, compliance monitoring, and
sanctions, including civil monetary penalties (CMPs). The FCC promotes the public
interest and pro-competitive policies by enforcing statutory provisions and rules and
regulations that ensure that Americans are afforded efficient use of communications
services and technologies. By enforcing the rules, businesses will compete more fairly.
 Performance               Measurement       FY 2000 Results         FY 2001 Goal     FY 2001 Results
 Measure
 Show zero tolerance       Percent         9 major slamming          20% reduction   10 major slamming
 for perpetrators of       reduction in    actions taken             in number of    actions taken
 consumer fraud such       the number of                             informal long
 as slamming and           informal long   $5.65 million collected   distance        $520,000 collected
 cramming. Impose          distance                                  slamming
 substantial monetary      slamming        No FY 2000 goal           complaints      50.8% reduction in
 forfeitures against the   complaints                                                slamming
 worst offenders.                                                                    complaints

Slamming is the illegal practice of changing a consumer’s telephone service – local or
long distance – without permission. The FCC adopted new slamming liability rules
(effective November 2000), which allow states to “opt in” to become the primary forums
for administering the slamming liability rules and resolving individual slamming
complaints. Where states do not opt in, the FCC administers the rules. The
Commission’s slamming liability rules provide a remedy to better protect consumers by
requiring unauthorized carriers to absolve consumers of unauthorized charges and to
reimburse authorized carriers and consumers for charges already paid. These rules help
to eliminate profits for telephone companies that slam consumers. Where the consumer
has not paid the unauthorized carrier, the consumer will be absolved of the obligation to
pay for service for up to 30 days after a slam. Where the consumer has paid the
unauthorized carrier, the rules require the unauthorized carrier to pay 150% of the
charges it received from the consumer to the authorized carrier, which must, in turn,
reimburse the consumer 50% of the charges paid by the consumer.
Consumers file informal slamming complaints (by phone, letter, e-mail), and the FCC or
the “opt-in” state serves the carrier with the complaint. Carriers have 30 days to respond.
If consumers are unhappy with the response they may file a formal complaint with the
FCC. Complaints by carriers against other carriers are generally formal complaints (and
likely involve litigation). In some cases, the FCC concurs with the carrier and lowers
fines. In addition to enforcing the slamming complaint rules, the FCC regularly tracks
informal slamming complaints filed with both the FCC and the states, and where the
trend shows repeat slamming cases, FCC serves a “Notice of Apparent Liability” (i.e.,
forfeiture order). These forfeiture proceedings have resulted in millions of dollars in
fines levied against unauthorized carriers.
                                                30
                                                                        Federal Communications Commission
                                                                    Fiscal Year 2001 Annual Financial Report

In FY 2001, 3,493 slamming complaints were filed with the FCC for resolution,
representing a reduction of 50.8% over FY 2000. Approximately 2,300 additional
slamming complaints received by the FCC in FY 2001 were forwarded to the “opt in”
states to resolve (under the provisions noted above), and therefore were not included in
the FCC’s FY 2001 results. The FCC also completed ten major actions (i.e., issued a
Forfeiture Order, Consent Decree, and/or Petition for Reconsideration) against six
carriers, and $520,000 was collected for slamming offenses against one carrier. Where
the FCC is unable to collect fines, or negotiate an appropriate settlement, the cases are
referred to the Department of Justice for collection. The FY 2000 performance plan did
not include quantitative goals for reducing the number of slamming complaints.
However, in FY 2000, FCC received a total of 7,104 slamming complaints filed with the
Commission by members of the public. During FY 2000, the FCC completed nine major
actions against eight carriers guilty of slamming practices. The FCC collected $5.65
million for violations against three of the carriers.


(8) SPECTRUM MANAGEMENT:
  Strategic Goal – Manage the Electromagnetic Spectrum in the Public Interest
  Performance Objective – Foster the Increased Availability of Spectrum (ongoing
  and new)

This performance objective promotes efficient and effective management of the Nation’s
airwaves for all non-Federal Government users, including commercial, international
business, and public safety users. Spectrum management includes the structures and
processes for allocating, assigning, and licensing this scarce resource in a way that
promotes competition while ensuring the public interest is served. The Commission
relies on market-based technical solutions to maximize the use of spectrum in an efficient
and equitable manner.
 Performance            Measurement                      FY 2000 Results             FY 2001          FY 2001
 Measure                                                                              Target           Results
 New Services*          The number of new        Results: 2 GHz of                 Initiate 3G      3G spectrum
                        mobile, fixed, and       additional spectrum for           spectrum         allocations
                        broadcast services       unlicensed services               allocations      delayed until
                                                 allocated.                                         after Spring
                                                                                                    2002
                                                 Goal: Allocate 4 GHz of
                                                                                                    assessment
                                                 spectrum for unlicensed
                                                                                                    completed
                                                 services.
  * Note this measure refines the FY 2000 goal, which aimed to “increase the amount of spectrum available for use,
  particularly for new services.” Results for this measure are included in the FY 2000 column above.


Spectrum is divided into blocks or bands of frequencies called allocations, which
determine the type of use allowed. Some of the considerations in determining allocations
include: public need and benefits; amount required; controlling interference with other
services; technical considerations; and economic viability of services. Finding spectrum
for new services includes efforts to increase sharing (different services using the same
spectrum), and to increase efficiency by increasing the amount of information that can be
transmitted (modulation) or reducing the amount transmitted (compression).

                                                    31
                                                           Federal Communications Commission
                                                       Fiscal Year 2001 Annual Financial Report

Third generation (3G) wireless systems, a new service, will provide access, by means of
one or more radio links, to a wide range of telecommunication services supported by
fixed networks and to other services specific to mobile users. A range of mobile terminal
types (for mobile or fixed use) will be encompassed, linking to terrestrial and/or satellite-
based networks. Key features of 3G systems include: a high degree of commonality of
design worldwide, compatibility of services, use of small pocket terminals with
worldwide roaming capability, and Internet and other multimedia applications.
In July 2001, the Department of Commerce and the FCC agreed to postpone the FY 2001
deadline for the Commission to identify spectrum allocations for 3G systems until FY
2002. The National Telecommunications and Information Administration (NTIA) and
the Commission are working together to develop a plan for the selection of 3G spectrum
to be executed as soon as possible. Additionally, allocation decisions for defense-related
spectrum are being reassessed in light of the events of September 11, 2001.
In FY 2001, four auctions of spectrum were held, and the FCC recorded $16.9 billion in
net winning bids. This amount represents the net winning bids excluding possible
defaults and the costs to the FCC of $67.5 million. This amount is recognized as revenue
when a final payment date is established by a Public “prepared to grant” notice rather
than when the auction is held or cash is received. The FY 2002 budget estimated that a
total of $1.6 billion in auction receipts would be generated from the anticipated auctions
in FY 2001.
In FY 2000, the FCC increased the amount of spectrum available to the public for
unlicensed services. Unlicensed services are those services made available through
rulemaking (e.g., low power TV) to allow and encourage the introduction of new
services, particularly in rural or underserved areas. Eight (8) auctions were held, and the
FCC recorded $1.3 billion in net winning bids. This amount represents the net winning
bids excluding possible defaults and the costs to the FCC of $45.4 million.
There are several reasons for the increase in costs for the spectrum auction program from
$45.4 million to $67.5 million. Among the reasons for the increases in FY 2001 were:
personnel compensation and benefits due to increased accuracy in cost reporting for
commission-wide on board staff as well as additional direct staff increases to support the
program; increases to rent for Portals, telephone service, utilities, etc. associated with the
increase in FTE support; supplies, equipment and security costs to house and support the
Revenue Accounting and Management Information System (RAMIS), the Commission
Registration System (CORES), increased costs for loan maintenance, storage and support
as well as contract costs for full loan servicing by a major financial services firm; as well
as licensing litigation costs, physical and computer security, additional audit related
costs, including enhanced inventory control support, audit travel, and contract support
services.




                                          32
                                                               Federal Communications Commission
                                                           Fiscal Year 2001 Annual Financial Report

Financial Management – Legal Compliance, Systems, and Controls
  Legal Compliance
  The FCC, like other Federal agencies, is required to comply with statutes and regulations
  related to appropriations, safety and health, and employment. Compliance with such
  requirements is the responsibility of FCC management. The Office of Managing Director
  has responsibility for implementing accounting and financial policies, systems, and reports;
  improving the reliability of financial information; implementing debt collection; and
  implementing financial management legislation including the following:
         9   Prompt Payment Act of 1982
         9   Federal Managers’ Financial Integrity Act of 1982
         9   Cash Management Improvement Act of 1990
         9   Federal Credit Reform Act of 1990, as amended
         9   Chief Financial Officer’s Act of 1990
         9   Government Performance and Results Act of 1993
         9   Government Management Reform Act of 1994
         9   Federal Financial Management Improvement Act of 1996
         9   Debt Collection Improvement Act of 1996
  In the FCC’s efforts to achieve compliance with applicable legislation, it is necessary to have
  effective management and system controls in place. The FCC has established formal policies
  and procedures regarding the processing, maintaining, and reporting of financial information.
  The FCC has updated its policies and procedures for financial-related sections (e.g.,
  Accounts Receivable, Budget, Revenue, Administrative Expenses). Revisions to remaining
  sections, including policies and procedures for the preparation of the financial statements and
  performance measures, are currently in progress. Although the FCC has made significant
  improvement with regards to its management controls, additional improvement is needed as
  indicated by the results of the FY 2000 financial statement audit.
  Systems
  The Financial Systems Operations Group, within the Office of the Managing Director,
  oversees maintenance support for the system controls of the financial systems. The
  following summarizes several significant financial systems:
         9   Federal Financial System
         9   Revenue & Accounting Management Information System
         9   Collections System
         9   Loan System
         9   Management Cost Accounting System
  The Federal Financial System (FFS) is a Commercial Off-the-Shelf (COTS) software
  package, which serves as the FCC's central accounting system. FFS runs on a mainframe
  located at the Department of the Interior's (DOI) National Business Center (NBC) in Denver,
  Colorado. The DOI NBC provides system maintenance support through a cross-servicing
  agreement. FCC staff within the office of the Associate Managing Director – Financial
  Operations (AMD-FO), performs system operations, maintenance of system tables, and
  security administration for the FFS application. The system is supplemented by a data
  warehouse, which provides ad hoc reporting capabilities.

                                               33
                                                              Federal Communications Commission
                                                          Fiscal Year 2001 Annual Financial Report

The Revenue Accounting and Management Information System (RAMIS) is a COTS
software package modified to handle all of the collections, accounting, and loan management
specific to the FCC. It is designed to interface with FCC’s central accounting system, FFS,
and licensing systems throughout the Commission. Once all reporting modules are complete,
all collection activity of the FCC, including civil monetary penalties and loans, will be
recorded and tracked in RAMIS. RAMIS will also record the collection of receipts, produce
dunning letters for past due accounts, and issue reminders to forward account forfeitures to
the Office of General Counsel (OGC) for referral to the Department of Justice (DOJ) for
collection. Implementation of RAMIS is intended to assist the FCC in achieving better
system integration, as well as to meet system requirements established by the Joint Financial
Management Improvement Program (JFMIP). As of the date of the FY 2001 audit, the FCC
was still in the conversion phase of implementation and no audited financial activity related
to the loan program was recorded in the RAMIS system.
The Collections System is a custom-built database application designed to store and display
all the collections accounting for the FCC. It is designed to interface with licensing and
other systems throughout the Commission. In FY 2001, the FCC also began converting the
collections system used to track civil monetary penalties with the status of Notices of
Apparent Liability (NALs) from a COTS software package to RAMIS as the system of
record. From June 30, 2001, until September 30, 2001, both of these systems ran parallel.
The Nortridge Loan System (NLS) is a COTS software package designed and developed for
lenders of all types and sizes. NLS incorporates the latest in client-server and object-oriented
technology along with standard, familiar, Windows operation to provide an ideal solution for
lending operations. The FCC currently uses NLS to record payments received by licensees
under the Spectrum Auction Direct Loan Portfolio program.
The AMD-FO is developing the requirements for a streamlined automated MCAS that will
be in compliance with high-level core financial system requirements for cost and budget
management as prescribed by the JFMIP. MCAS will provide a financial management
system that offers FCC management an increased level of detail concerning the cost of doing
business. Financial management data and information, which is accurate, timely, and
consistent across FCC bureaus and offices, will be available simultaneously to program
managers, financial managers and budget officials. MCAS will support budget and cost
control, performance measurement, fee and price determinations for reimbursements,
program evaluations, and economic decisions. MCAS will use JFMIP-certified COTS
managerial cost accounting and budget formulation and execution applications and related
implementation support services.
Not included as part of its systems, but still an important financial management tool for FCC
management in FY 2001, are the Loan Model Spreadsheets used to calculate loan balances
on the FCC’s credit reform loans. On a monthly basis, the spreadsheets are updated with the
monthly collections from the NLS. These spreadsheets have been maintained by an outside
contractor throughout the course of the year and have served as the basis for numbers used in
the calculation of the FCC’s subsidy reestimate and the loan subsidiary records. Ultimately,
these spreadsheets will be replaced by an outside loan servicing system.
The FCC has contracted with a major financial services firm to provide loan servicing for the
portfolio. The FCC has begun porting the loan data to its new service provider, with loan
servicing implementation scheduled for December 2001. During the transition period, the

                                             34
                                                              Federal Communications Commission
                                                          Fiscal Year 2001 Annual Financial Report

FCC prepared the loan processing policies and procedures to be performed by the FCC and
the new loan servicer. Additionally, the FCC tasked the service provider with providing a
document management, imaging and retrieval system. A password protected system, it can
be accessed via the Internet. The system further allows users to electronically store, retrieve,
copy and correlate data and images directly from their desktop. The FCC currently has the
ability to search and retrieve loan documents from their desktops, thereby eliminating the
need to manually store and research files.
Internal Controls
The FCC has numerous internal controls over financial reporting to obtain reasonable
assurance that the financial statements do not contain material misstatement, and fairly
present information related to assets, liabilities and net position. As noted in the preceding
section, transactions are executed in accordance with budgetary and financial laws,
consistent with the FCC statutory requirements, and are recorded in accordance with Federal
accounting standards. Additionally, assets are properly acquired and used, safeguarded to
deter theft, accidental loss or unauthorized disposition, and fraud. Further, the FCC internal
controls exist to assure the existence and completeness of the performance measures, as
required by OMB Bulletin 01-09 (Form and Content of Agency Financial Statements).
While the FCC received an unqualified opinion in FY 2000, auditors found material
weaknesses in the following five areas:
   1. Financial Reporting
      a. integrating financial management systems
      b. establishing and maintaining an adequate audit trail
      c. correcting and updating financial system setup and posting model definitions
      d. recording activities timely and preparing and analyzing financial activity
      e. formalizing financial reporting processes and responsibilities
      f. incorporating future effects in the Management’s Discussion & Analysis
         (MD&A)
   2. Cost Accounting System
   3. Universal Service Fund and Telecommunications Relay Service Fund Financial
      Reporting
   4. Loans Receivable and Related Accounts
       a.   improving loan subsidiary ledger system
       b.   reconciling general ledger to the subsidiary ledger balances
       c.   implementing direct loan system to account for all events in a loan cycle
       d.   improving loan documentation
   5. Information Technology
       a. creating a comprehensive security plan in compliance with OMB Circular A-130
       b. improving controls to protect FCC information
       c. accelerating efforts to develop and test contingency plans
   Additionally, the auditors identified the following reportable conditions:
   1. Review and Finalize Written Internal Control Documentation for Financial and
      Administrative Operations
   2. Improve Internal Controls over Certain Accounts Receivable
                                             35
                                                                Federal Communications Commission
                                                            Fiscal Year 2001 Annual Financial Report

     3. Improve Supporting Documentation and Controls on Property and Equipment
     4. Improve Controls over Accounts Payable
     5. Conduct OMB Circular A-127 and A-130 Reviews
  In accordance with the Federal Managers’ Financial Integrity Act (FMFIA), the FCC has
  identified corrective actions during FY 2001 for material weaknesses and reportable
  conditions related to internal controls over: collections; auction loans; procedures for
  preparing financial statements; Universal Service Fund financial reporting; management of
  Federal information resources; protection of data and information; ability to identify non-
  payment of funds; property, plant, & equipment; accounts payable, undelivered orders, and
  net position.
  The FCC also identified corrective action plans for non-conformances including:
  requirements for billings and collections; identification of non-payers of fees; maintenance of
  auction loan accounts under credit reform; cost reporting system to meet management
  information needs; interface between financial system and property subsidiary system.


Possible Future Effects on the FCC – Looking Ahead
  The Commission has identified certain demands, risks, uncertainties, events, conditions, and
  trends that may impact the FCC’s ability to achieve its goals and objectives in the future. For
  example, a number of factors will affect the Commission’s ability to promote competition
  and deregulation. The fortitude with which the FCC and the states enforce the pro-
  competitive mandates of the 1996 Act will continue to be a significant factor. Whether or
  not litigation delays the introduction or implementation of key FCC and state decisions is
  another factor.
  A range of additional external factors may affect the continued development of competition
  in communications markets. First, convergence-driven competition depends heavily on
  investments in new technology by incumbent and new communications providers. To date,
  traditional wireline telephone service providers, cable operators, wireless firms, and satellite
  companies have made massive investments in new networks that do or will allow:
     9 telephone companies to offer high-speed Internet and possibly video service,
     9 cable operators to offer phone service and high-speed Internet,
     9 wireless companies to offer phone service reliable and inexpensive enough to
       compete for basic local voice telephony, and
     9 satellite companies to offer television, radio and high-speed Internet.
  Should the pace of investment in these networks diminish, the competition in these areas
  likely will be slower to develop.
  Second, significant technological uncertainty remains for many new “converged”
  technologies. For example, although the carriage of voice traffic over packet-based, Internet
  Protocol (IP) networks promises significant new competitive entry into the local and long
  distance voice markets, “IP telephony” technology is still developing. Also, the use of
  shared “tree-and-branch” networks, such as hybrid fiber-coax cable networks for voice or
  data service, similarly poses technical obstacles at moderate to high penetration levels. Until
  the full reliability of cable networks can be demonstrated, the competitive impact of cable
                                               36
                                                            Federal Communications Commission
                                                        Fiscal Year 2001 Annual Financial Report

entry into telephone and data markets may be delayed. As a third example, a significant
factor in the development of robust competition in the broadband access market is the slow
rate of technological development of various “xDSL“ (digital subscriber lines which provide
high-speed data transmission) technologies that will be used to offer high-speed service over
copper telephone loops. Each of these, as well as many other technological factors, could
affect the rate at which competition develops across communications markets.
A third category of uncertainty is the degree of consumer demand for new communications
services. Many new services, such as high-speed Internet access, digital television, wireless
data service, and satellite-delivered services will continue to be deployed by service
providers, and many market analysts forecast strong consumer adoption rates. However, the
breadth and depth of long-term consumer demand for these new services remain unknown.
The business models of many new competitors hinge on combining multiple existing and
new services on a single service delivery platform. For example, the profitability of
companies that are "overbuilding" new hybrid fiber-coax networks to compete with cable
and telephone incumbents depends on selling customers bundles of service including
multichannel digital video, high-speed Internet access, and telephony. Only by combining
revenue streams can new entrants, saddled with heavy network construction costs, compete
with incumbents operating existing networks. If consumer adoption of new services fails to
meet expectations, competition could be slower to develop.
Fourth, the prospects for competitive communications markets are significantly affected not
only by national developments, but also by developments in world markets. The
opportunities for increased competition in the United States can be more fully realized if
other countries join us in fostering competition in their communications marketplaces.
Market access restrictions in foreign countries significantly impede U.S. companies' ability
to compete on a global scale. Specifically, the FCC’s vision of fully competitive
communications markets in the U.S. is contingent to some degree on whether other nations
also establish the necessary conditions for deregulation, competition, and increased private
investment in their communications infrastructure. The FCC’s success will depend on
vigorous enforcement of the market access commitments set forth in the 1997 World Trade
Organization (WTO) Agreement on Basic Telecommunications Services.
The Commission's ability to carry out its vision also is largely dependent on a fifth category
of uncertainty—adequate resources to carry out critical activities. In many cases, the FCC
will need to redeploy existing budget and staff resources to address changing priorities. The
planned implementation in FY 2002 of new systems for managerial cost accounting, budget
formulation and execution, and FTE tracking and reporting will improve the Commission’s
ability to appropriately allocate resources and to accurately link resources to performance.
Moreover, for the FCC to fulfill its congressional charge, it will write and execute a new
business plan built along the following four dimensions:
   9 a clear substantive policy vision, consistent with the various communications statutes
     and rules, that guides FCC deliberations;
   9 a pointed emphasis on management that builds a strong team, produces a cohesive
     and efficient operation, and leads to clear and timely decisions;
   9 an extensive training and development program to ensure that the FCC possesses
     independent technical and economic expertise; and


                                             37
                                                              Federal Communications Commission
                                                          Fiscal Year 2001 Annual Financial Report

     9 an organizational restructuring to align the FCC institution with the realities of a
       dynamic and converging marketplace.
  Some of these initiatives will require Congressional approval and all will require continued
  adequate funding. The FCC’s success is tied directly to the Commission’s ability to maintain
  critical staffing levels and adequate funding.

  Sixth, the Commission’s ability to achieve its goals and objectives in the future will be
  affected by the unpredictable. Factors outside the FCC’s control may impact its ability to
  fulfill its mission, from possible future actions by the Congress, changing Federal laws that
  may affect FCC’s responsibilities and workload, to national tragedies such as that which
  occurred on September 11, 2001.

  And finally, relative to the USF, on Feb. 14, 2002, the Commission adopted a Notice of
  Proposed Rulemaking (NPRM) concerning changes to the contribution methodology for
  federal universal service support mechanisms. The NPRM seeks comment on changing the
  methodology from one based on end-user telecommunications revenue to one based on
  connections. The NPRM also seeks comment on whether a connection-based assessment
  approach would ensure the long-term stability, fairness, and efficiency of the universal
  service contribution system in a dynamic telecommunications marketplace. Also, a number
  of matters are under review at the FCC involving disbursements from the USF to a limited
  number of service providers participating in the schools and libraries program. In the
  opinion of FCC management, it is unlikely that all matters under review will result in legal
  proceedings or other actions and as such an estimated amount of recovery cannot be
  determined at this time. During FY 2001 the USF recovered $1.3 million as a result of the
  above mentioned reviews.


Cross-Cutting Functions of the Commission
  The Commission routinely interacts with a number of other Federal agencies. For example,
  the FCC:
     9 coordinates radio antenna and tower proposals with the Federal Aviation
       Administration (FAA) to prevent interference and to ensure the safety of life and
       property;
     9 measures spurious radio signal emissions in cooperation with the Environmental
       Protection Agency (EPA) to monitor public risks associated with radiation;
     9 coordinates with the U.S. Customs Service (USCS) concerning the import of
       electronic devices;
     9 coordinates with the NTIA to ensure the effective management of the public and
       private spectrum; and,
     9 works particularly closely with the FTC on consumer issues, e.g., unscrupulous
       practices such as “slamming” and “cramming” practiced by some service providers.
  In addition to coordination efforts with other Federal agencies, the FCC must also seek the
  input of state and local government to achieve a truly national telecommunications policy.
  The 1996 Act set the groundwork for this goal, and the Commission is fulfilling its role in
  establishing the rules for opening communications markets across the country, in partnership
                                              38
                                                                Federal Communications Commission
                                                            Fiscal Year 2001 Annual Financial Report

  with state regulators. The Commission will continue to work with state and local agencies,
  and toward this end the FCC has instituted a Local and State Government Advisory
  Committee to share information and views on many critical communications issues.


Highlights of the Financial Statements
  Future Effects of Current Demands
  Since 1994, the FCC has conducted auctions of licenses for electromagnetic spectrum. These
  auctions are open to any eligible company or individual that submits an application and
  upfront payment, and is found to be a qualified bidder by the Commission. Qualified bidders
  are those applicants whose FCC Form 175 applications have been accepted for filing and that
  have timely submitted upfront payments sufficient to make them eligible to bid on at least
  one of the licenses for which they applied. In Auction 35 a total of 422 licenses covering
  195 markets were offered for C and F Block Broadband PCS in January 2001.
  In Auction 35, the FCC auctioned spectrum associated with the licenses won by Nextwave
  and for which the company defaulted on its payments. Under the Commission’s rules,
  Nextwave’s default resulted in automatic cancellation of its licenses. In June, 2001, the U.S.
  Court of Appeals for the District of Columbia Circuit held that Section 525 of the
  Bankruptcy Code precluded FCC from canceling Nextwave’s licenses.

  In October 2001, the Government asked the Supreme Court to review the ruling by the D.C.
  Circuit. On March 4, 2002, the Supreme Court granted the Government’s petition for
  certiorari from the Court of Appeals decision. The FCC plans to prosecute vigorously its
  case to the Supreme Court. The Supreme Court is expected to hear oral arguments in the
  case next term.

  On January 4, 2002, the Auction 35 winning bidders for spectrum associated with
  Nextwave's licenses asked the FCC to refund the approximately $3.1 billion in down
  payments that the agency has been holding since February 2001. On March 26, 2002, the
  Commission issued an order to return 85% of approximately $3.1 billion in down payments,
  retaining amounts equal to 3% of each winning bid, the minimum bidder default payment
  under the Commission’s rules. The Commission stated that the FCC will keep the related
  Auction 35 licenses in a pending status until final resolution of the litigation and will require
  the winning bidders to pay their full bids if the U.S. Supreme Court rules in the FCC's favor.

  Results of Financial Position and Operations
  A significant aspect of the FCC’s operations is its Spectrum Auction Direct Loan Portfolio
  (Spectrum Auction) program. The net loans receivable, which represent installments due
  from loans under the Spectrum Auction program, is approximately $5.9 billion of the total
  assets of the Commission of approximately $13.1 billion.
  The FCC is required to annually adjust its allowance for losses on the credit portfolios based
  on the most current performance information. In accordance with OMB guidance, the FCC
  calculates its subsidy reestimate based on the most recent economic conditions and technical
  assumptions available.


                                                39
                                                               Federal Communications Commission
                                                           Fiscal Year 2001 Annual Financial Report

During FY 2001, at OMB’s request, the FCC completed four subsidy reestimates resulting in
an overall upward subsidy adjustment of $2.7 billion. The first reestimate performed in the
December, 2000 was for performance data through September 30, 2000 and generated a
downward adjustment of $3.4 billion that was reported in the FY 2000 financial statements.
The second subsidy reestimate resulted in a $6.2 billion downward adjustment based on the
assumption that FCC would receive a greater than 100 percent recovery rate on its C-block
re-auctioned licenses in FY 2001. The third subsidy reestimate resulted in an upward
adjustment of $8.8 billion after the potential for recovery above 100 percent was impaired by
the loss of a court case concerning a significant portion of the C-block licenses being re-
auctioned. The last subsidy reestimate was completed in December, 2001 for performance
data through September 30, 2001. The result of this reestimate was an upward adjustment of
$91.7 million that was reported in the FY 2001 financial statements, but will not be reported
in the budget until FY 2002. The average subsidy rate (the subsidy cost expressed as a
percent of the original loan amount) decreased from 52% in FY 2000 to 44% in FY 2001.
The most significant components of the subsidy cost historically have been the FY 1997 C
and F Block installment loans. Based on the FY 2000 and FY 2001 reestimates, the FY 1997
C and F Block account for 97% of the Spectrum Auction licenses. The C Block FY 1997
cohort subsidy rate for the reestimate in FY 2001 resulted in a change from 54% for FY 2000
to 50% in FY 2001 and a subsidy cost change from $4.9 billion in FY 2000 to $4.5 billion in
FY 2001. The F Block FY 1997 cohort subsidy rate for the reestimate in FY 2001 resulted in
a change from 28% for FY 2000 to –53% in FY 2001 and a subsidy cost change from $137
million in FY 2000 to -$263 million in FY 2001. The F Block 1997 cohort subsidy
reestimate decreased primarily because actual defaults in FY 2001 were lower than projected
defaults by approximately $11 million. The Narrowband subsidy rate for the first reestimate
in FY 2001 resulted in a change from 35% for FY 2000 to 41% in FY 2001, and a subsidy
cost change from $42.4 million in FY 2000 to $49.4 million in FY 2001. Although the IVDS
loan portfolio was restructured in FY 2001, the result was a net increase in the subsidy cost
of less than $1 million.
The FCC’s FY 2002 subsidy reestimate shows a $128.8 million increase in the Spectrum
Auction program subsidy cost, primarily due to the timing of recoveries on previously
defaulted Nextwave loans. Recoveries on Auction 35 related licenses are projected to occur
in mid-FY 2002 for non-Nextwave re-auctioned licenses and at the end of FY 2002 for the
Nextwave re-auctioned licenses. The subsidy cost increased in the Narrowband and
Interactive Video and Data Service (IVDS) reestimates for FY 2002. The Narrowband
subsidy cost increased due to more conservative assumptions related to the recovery potential
on non-paying loans.
In addition to Loans Receivable, FCC’s assets include its Fund Balance with Treasury and
Cash and Other Monetary Assets. The $1.7 billion increase over FY 2000 in Fund Balance
with Treasury is primarily the net result of a $3.5 billion collection in deposit funds related to
Auction 35 and a $1.8 billion transfer out to the Department of Treasury related to the first
downward reestimate made at the end of FY 2000. The $1.5 billion increase over FY 2000
in Cash and Other Monetary Assets is attributed to a change in USF investments. During FY
2001, USF changed banking institutions and began investing most of its funds in four money
market funds, instead of individual securities that would be classified as investments.
FCC’s most significant liability accounts include Liability for Borrowings from Treasury,
and Deferred Revenue. The $3.2 billion increase in Deferred Revenue over the FY 2000
                                              40
                                                               Federal Communications Commission
                                                           Fiscal Year 2001 Annual Financial Report

  balance is also primarily attributed to Auction 35 collections applied to first and second
  downs, most of which were collected in FY 2001.
  The net cost of FCC operations for FY 2001 was $8.5 billion, which was allocated to the five
  programs of the FCC: Consumer Information Service, Enforcement, Competition, Licensing,
  and Spectrum Management; Credit Reform; and the USF. The $12.8 billion increase in net
  costs over FY 2000 amounts is related to the FY 2001 subsidy reestimates and the inclusion
  of the total operations of the USF.
  The FCC’s budget authority in FY 2001 was $24 billion, and an additional $5.3 billion for
  USF, which in total represents a $27.4 billion increase over FY 2000. The increase is a result
  of the combination of borrowing authority used for downward reestimates of $12 billion and
  the appropriation received for the upward adjustments of $11.5 billion, and the inclusion of
  USF in Budgetary Resources.
  Another significant dimension of the financial statements is the USF. The Fund continued to
  grow over the past year, collections have outpaced the new support requirements of carriers.
  The Fund has met all obligations during the year. Management expects the Fund to continue
  to meet all obligations presented.
  The USF had a total distribution of $4.9 billion in fiscal year 2001. Net collections ($5.3
  billion) exceeded the total distributed by $344 million. Those collections when added to
  previous collections and receivables constitute the total net assets of the Fund, $2.8 billion.
  Those assets are sufficient to meet the total liabilities of the Fund and consideration is
  underway at the FCC of the best way to reduce the growing fund balance in this program.


Limitations of the Financial Statements
  The financial statements have been prepared to report the financial position and results of
  operations of the FCC, pursuant to the requirements of 31 U.S.C. 3515(b). While the
  statements have been prepared from the books and records of the FCC in accordance with
  generally accepted accounting principles (GAAP) for Federal entities and the formats
  prescribed by the Office of Management and Budget, the statements are in addition to the
  financial reports used to monitor and control budgetary resources which are prepared from
  the same books and records.
  The statements should be read with the realization that they are for a component of the U.S.
  Government, a sovereign entity. One implication of this is that liabilities cannot be
  liquidated without legislation that provides resources to do so.




                                               41
             Federal Communications Commission
         Fiscal Year 2001 Annual Financial Report




 FINANCIAL
STATEMENTS




    42
                                           Federal Communications Commission
                                               Consolidated Balance Sheets
                                            As of September 30, 2001 and 2000
                                                        (dollars in thousands)


                                                                            2001                     2000
ASSETS

Intragovernmental
Fund Balance with Treasury (Note 2)                                 $             4,058,202     $      2,207,665
Accounts Receivable, net (Note 5)                                                       -                     39
Investments (Note 4)                                                                    -              1,297,611
Total Intragovernmental                                                           4,058,202            3,505,315

Cash and Other Monetary Assets (Note 3)                                           1,602,254               49,323
Investments (Note 4)                                                                652,571              734,948
Accounts Receivable, net (Note 5)                                                   773,078              502,922
Interest Receivable                                                                   7,889                9,873
Loans Receivable, net (Note 6)                                                    5,972,496            9,592,520
Forfeited Property (Note 7)                                                             -                     61
Property, Plant, and Equipment, net (Note 8)                                         35,318               39,399
Total Assets                                                                     13,101,808           14,434,361



LIABILITIES

Intragovernmental
Liability for Borrowings from Treasury (Note 9)                     $             6,109,604     $      5,307,271
Other Liabilities (Note 13)                                                         851,592              346,160
Total Intragovernmental                                                           6,961,196            5,653,431

Accounts Payable (Note 10)                                                          394,621              409,629
Deferred Revenue (Note 12)                                                        3,304,671               69,982
Payable to Providers (Note 14)                                                          -              2,052,849
Other Debt (Note 11)                                                                125,274              125,274
Other Liabilities (Note 13)                                                          37,319               55,908
Accrued Unfunded Leave                                                               13,357               12,548
Total Liabilities                                                                10,836,438            8,379,621

Commitments and Contingencies (Note 21)

NET POSITION

Unexpended Appropriations (Note 16)                                 $                24,012     $      6,122,690
Cumulative Results of Operations                                                  2,241,358              (67,950)
Total Net Position                                                                2,265,370            6,054,740


Total Liabilities and Net Position                                  $            13,101,808     $     14,434,361




                                   The accompanying notes are an integral part of these statements
                                        (see Note 27 for comparative statement modifications)
                                                                 43
                      Federal Communications Commission
                       Consolidated Statements of Net Cost
                For the Years Ended September 30, 2001 and 2000
                                    (dollars in thousands)




PROGRAM COSTS:                                               2001                 2000
Licensing

Program Costs
Intragovernmental                                    $         19,209         $       8,540
With the Public                                                59,158                38,001

Less: Earned Revenues                                          (86,901)             (60,425)

Net Program Costs                                               (8,534)             (13,884)

Competition

Program Costs
Intragovernmental                                    $         21,146                16,702
With the Public                                                65,149                74,323

Less: Earned Revenues                                          (94,876)            (118,177)

Net Program Costs                                               (8,581)             (27,152)

Enforcement

Program Costs
Intragovernmental                                    $         18,100         $      12,962
With the Public                                                55,734                57,679

Less: Earned Revenues                                          (80,553)             (91,713)

Net Program Costs                                               (6,719)             (21,072)

Consumer Information Service

Program Costs
Intragovernmental                                    $          3,685         $       2,665
With the Public                                                11,166                11,858

Less: Earned Revenues                                          (16,493)             (18,854)

Net Program Costs                                               (1,642)               (4,331)

Spectrum Management

Program Costs
Intragovernmental                                    $          6,598
With the Public                                                20,126

Less: Earned Revenues                                          (29,509)

Net Program Costs                                               (2,785)

Universal Service Fund

Program Costs
Intragovernmental                                    $               -
With the Public                                              4,980,967               39,608

Less: Earned Revenues                                               -               (39,608)

Net Program Costs                                            4,980,967                   -

Credit Reform

Program Costs
Intragovernmental                                    $       1,214,175             1,360,218
With the Public                                              7,965,866            (3,360,066)

Less: Earned Revenues                                    (5,603,670)              (2,270,096)

Net Program Costs                                            3,576,371            (4,269,944)


Total Net Program Costs                              $       8,529,077        $   (4,336,383)

UNASSIGNED COSTS:
Imputed Costs                                                   9,551                 9,755
Depreciation                                                   11,662                11,256
Telecommunications Development Fund                            19,852                   -
Other Expenses                                                  1,036                     51

Total Unassigned Costs                               $         42,101         $      21,062

UNASSIGNED REVENUE:

Auction Interest Revenue                             $         (19,852)       $          -

Net Cost of Operations                               $       8,551,326        $   (4,315,321)




            The accompanying notes are an integral part of these statements
                 (see Note 27 for comparative statement modifications)
                                          44
                                   Federal Communications Commission
                            Consolidated Statements of Changes in Net Position
                             For the Years Ended September 30, 2001 and 2000
                                                   (dollars in thousands)


                                                                                2001               2000
Net Cost of Operations                                                      $    8,551,326     $    (4,315,321)

Financing Sources:
Appropriations Used (Note 18)                                                    3,469,300             44,625
Universal Service Fund Nonexchange Revenue                                       5,352,740
Donations                                                                                88
Imputed Financing                                                                    9,551              9,755
Transfers In                                                                         5,964                 94
Transfers Out                                                                      (30,017)           (28,141)
Downward Subsidy Re-estimate                                                           -           (4,282,602)
Loss                                                                                  (107)          (125,424)
Total Financing Sources                                                          8,807,519         (4,381,693)

Net Results of Operations before Change in Accounting Principle                    256,193            (66,372)

Cumulative Effect of Change in Accounting Principle (Note 28)                    2,052,850

Net Results of Operations                                                        2,309,043            (66,372)

Prior Period Adjustments (Note 19)                                                    2,589        (1,760,291)
Cancelled Appropriations                                                             (2,323)             (777)

Change in Cumulative Results of Operations                                       2,309,309         (1,827,440)

Increase/(Decrease) in Unexpended Appropriations                                 (6,098,679)        6,093,786

Change in Net Position                                                           (3,789,370)        4,266,346

Net Position - Beginning of Period                                               6,054,740          1,788,394

Net Position - End of Period                                                $    2,265,370     $    6,054,740




                             The accompanying notes are an integral part of these statements
                                  (see Note 27 for comparative statement modifications)
                                                            45
                                Federal Communications Commission
                           Combined Statements of Budgetary Resources
                          For the Years Ended September 30, 2001 and 2000
                                                 (dollars in thousands)



Budgetary Resources:                                                      2001              2000

Budget Authority                                                      $    29,560,547        2,125,225
Unobligated Balances - Beginning of Period                                  3,810,864           70,817
Spending Authority from Offsetting Collections                             25,554,843        2,912,267
Adjustments                                                               (26,095,268)        (583,620)

Total Budgetary Resources                                             $   32,830,986         4,524,689


Status of Budgetary Resources:

Obligations Incurred                                                  $   30,494,885         2,665,943
Unobligated Balances - Available                                            2,295,950        1,822,928
Unobligated Balances - Not Available                                           40,151           35,818

Total Status of Budgetary Resources                                   $   32,830,986         4,524,689


Outlays:

Obligations Incurred                                                  $   30,494,885         2,665,943
Less: Spending Authority from Offsetting Collections
     and Adjustments                                                      (25,558,950)      (2,940,885)
Obligated Balance, net - Beginning of Period                                   45,148           56,665
Less: Obligated Balance, net - End of Period                                  (63,770)         (45,148)

Total Outlays                                                         $    4,917,313          (263,425)




                          The accompanying notes are an integral part of these statements
                               (see Note 27 for comparative statement modifications)
                                                        46
                               Federal Communications Commission
                               Consolidated Statements of Financing
                         For the Years Ended September 30, 2001 and 2000
                                              (dollars in thousands)



Obligations and Nonbudgetary Resources                                            2001               2000

 Obligations Incurred                                                  $   30,494,885      $   2,665,943
 Less: Spending Authority for Offsetting
       Collections and Adjustments                                         (25,554,810)        (2,912,267)
 Receivables from Federal Sources                                                     3         1,794,483
 Change in Unfilled Customer Orders                                                  (1)                (1)
 Recoveries of Prior Year Obligations                                           (4,108)           (28,607)
 Financing Imputed for Cost Subsidies                                            9,551              9,755
 Transfers in/out without Reimbursement                                            -               (1,500)
 Exchange Revenue not in the Budget                                           (130,376)          (281,515)
 Other                                                                            (893)               -
 Total Obligations as Adjusted, and Nonbudgetary Resources             $     4,814,251     $    1,246,291


Resources That Do Not Fund Net Cost Of Operations

 Change in Amount of Goods, Services, and Benefits
 Ordered But Not Yet Received or Provided                              $       (26,448)    $        5,331
 Costs Capitalized on the Balance Sheet                                         (6,516)              (619)
 Collections that decrease/increase credit program
 receivables/liabilties                                                      9,243,238             (1,137)
 Financing Sources that Fund Costs of Prior Periods                            (10,664)        (1,821,450)
 Other                                                                             876            651,038
 Total Resources That Do Not Fund Net Cost of Operations                     9,200,486         (1,166,837)


Costs That Do Not Require Resources

 Depreciation and Amortization Expense                                 $        11,662     $       11,284
 Subsidy Amortization                                                          591,430                -
 Bad Debts                                                                      40,197                  52
 Changes in Other Accrued Liabilities                                               70              1,255
 Loss on Future Revenues                                                          (177)          (125,273)
 Downward Subsidy Re-estimate                                               (6,236,616)        (4,282,602)
 Total Costs That Do Not Require Resources                                  (5,593,434)        (4,395,284)


Financing Sources Yet to be Provided (Note 25)                         $      130,023      $          509


Net Cost of Operations                                                 $     8,551,326     $   (4,315,321)




                         The accompanying notes are an integral part of these statements
                              (see Note 27 for comparative statement modifications)
                                                       47
                                Federal Communications Commission
                            Consolidated Statements of Custodial Activity
                          For the Years Ended September 30, 2001 and 2000
                                               (dollars in thousands)



Revenue Activity:                                                           2001                2000
 Sources of Cash Collections:
   Spectrum                                                             $    1,507,584      $      798,725
   Fines and Forfeitures                                                        52,916              19,965
   Telecommunications Development Fund                                          19,886               2,531
   Contributions & Investment Interest                                                           4,539,259
 Total Cash Collections                                                      1,580,386           5,360,480

 Accrual Adjustment                                                           129,499              64,437

Total Custodial Revenue                                                      1,709,885           5,424,917

Disposition of Collections:
 Transferred to Others:
   U.S. Treasury                                                        $   (1,077,197)     $     (167,994)
   USF Providers                                                                                (4,029,528)
   Spectrum Deposit                                                                                (24,476)
   Telecommunications Development Fund                                                              (2,531)
 Total Transferred to Others                                                (1,077,197)         (4,224,529)

 (Increase)/Decrease in Amounts Yet to be Transferred                         (543,540)           (679,422)
 Refunds and Other Payments (Note 24)                                           (1,771)           (475,559)
 Retained by the Reporting Entity (Note 24)                                    (87,377)            (45,407)

Net Custodial Activity                                                  $          -        $          -




                          The accompanying notes are an integral part of these statements
                               (see Note 27 for comparative statement modifications)
                                                         48
              Federal Communications Commission
          Fiscal Year 2001 Annual Financial Report




NOTES TO THE
CONSOLIDATED
  FINANCIAL
 STATEMENTS




     49
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies:

Reporting Entity

The Federal Communications Commission (“FCC” or “Commission”) is an independent United
States government agency, directly responsible for reporting to Congress. The FCC was
established by the Communications Act of 1934, as amended, and is charged with regulating
interstate and international communications by radio, television, wire, satellite and cable. The
FCC's jurisdiction covers the 50 states, the District of Columbia, and the U.S. possessions.

The FCC is directed by five Commissioners appointed by the President of the United States and
confirmed by the Senate for five-year terms, except when filling an unexpired term. The
President designates one of the Commissioners to serve as Chairman. Only three Commissioners
may be members of the same political party. None of them can have a financial interest in any
Commission-related business.

The FCC’s operations are divided among the following bureaus and offices: International, Cable
Services, Engineering and Technology, Mass Media, Common Carrier, Wireless
Telecommunications, Consumer Information, and Enforcement. In addition, two outside
entities, the Universal Service Administrative Company (USAC) and the National Exchange
Carrier Association (NECA) administer the activities of the Universal Service Fund Program
(USF Program). The USF Program includes the Universal Service Fund (USF), administered by
USAC, and the Telecommunications Relay Service Fund (TRS), administered by NECA. The
USF consists of four universal service support mechanisms that were established pursuant to
Section 254 of the Communications Act of 1934, as amended. The USAC was appointed by the
FCC to administer the four USF support mechanisms: high cost areas, low-income consumers,
schools and libraries, and rural health care providers. It also submits projections of demand and
administrative expenses for each of these mechanisms and quarterly USF contribution data to the
FCC. The TRS was established by the Americans with Disabilities Act of 1990, Title IV and
provides telephone service to the blind and physically handicapped. The NECA is the appointed
administrator for the TRS Fund.

Other components of the FCC, as defined by Statement of Federal Financial Accounting
Concepts (SFFAC) No. 2 Entity and Display, include the programs administered by the North
American Numbering Plan Administrator (NANPA) and the Local Number Portability
Administrator (LNPA). These programs are not accounted for in the FCC financial statements
for materiality reasons. The administrators and billing and collection agent serve in terms of
years and are required to be non-governmental entities under FCC regulations (47 C.F.R. §52.12,
52.21h). Cost recovery and allocation measures are provided for in FCC regulations. However,
revenues to support the program are collected by the administrator or the billing and collection
agent (47 C.F.R. §52.16, 52.17, 52.32, 52.33).




                                               50
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies: (continued)

Basis of Accounting

The consolidated financial statements have been prepared from the accounting records of FCC in
conformity with Generally Accepted Accounting Principles (GAAP), and standards specified by
the OMB in OMB Bulletin No. 97-01, Form and Content of Federal Agency Financial
Statements, as amended and applicable portions of OMB Bulletin No. 01-09, Form and Content
of Agency Financial Statements (OMB Form and Content). GAAP for Federal entities are the
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB), which was
designated the official accounting standards-setting body for the Federal government by the
American Institute of Certified Public Accountants. The consolidated financial statements are
different from the financial reports, also prepared by FCC pursuant to OMB directives used to
monitor and control FCC’s use of budgetary resources.

Basis of Presentation

The accompanying consolidated financial statements have been prepared to report the financial
position, results of operations, changes in net position, budgetary resources, custodial activity,
and financing of the FCC as of September 30, 2001 and 2000 and for the periods October 1,
2000 through September 30, 2001 and October 1, 1999 through September 30, 2000. The
consolidated financial statements have been prepared from the books and records of the FCC in
accordance with OMB Form and Content and GAAP of the Federal government.

Fiscal Year 2001 is the first year for which comparative financial statements are required in
accordance with OMB Form and Content. The FCC has made several presentation changes to
the FY 2000 Financial Statements in order to present them comparatively in these statements.
See Note 27 for further discussion.

In addition to the comparative changes mentioned above, the FCC implemented a change in
accounting principle with respect to its accounting for the USF Program. The change in FY
2001 resulted in the recognition of revenue and expenses on the Statements of Net Cost and
Changes in Net Position that were reported in FY 2000 on the Statement of Custodial Activity.
The effects of the change on prior years are shown as a cumulative change in accounting
principle on the FY 2001 Statement of Changes in Net Position. Details of the change are
disclosed in Note 28.

The preparation of financial statements, in accordance with accounting principles generally
accepted in the United States, requires management to make estimates and assumptions that
affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
liabilities at the date of the financial statements, and the reported amounts of revenues and
expenses during the reporting period. Actual results may differ from those estimates.



                                               51
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies: (continued)

Basis of Presentation (continued)

Except for the programs administered by the NANPA and the LNPA, the financial statements
include all funds and programs for which the FCC is responsible. All significant intra-entity
balances and transactions have been eliminated in consolidation. A distinction has been made in
the financial statements between asset and liability balances arising from transactions with other
Federal government agencies and all other asset and liability balances. These balances are
specifically identified under the heading Intragovernmental.

Assets

Assets are tangible or intangible items owned by the FCC that have probable economic benefits
that can be obtained or controlled by the FCC. The Notes to the Consolidated Balance Sheet
present assets in one of two categories: entity or non-entity. Entity assets are those assets which
the reporting entity holds and has the authority to use in its operations. Non-entity assets are
assets the entity holds but does not have the authority to use in its operations.

Fund Balance with Treasury

The FCC maintains seven types of accounts with the U.S. Treasury: general, revolving, deposit,
special, receipt, trust and clearing. The general and revolving accounts may be used by the FCC
to finance expenditures depending on budgetary availability. The deposit accounts are used to
hold funds received through spectrum auctions, international telecommunications settlements, or
regulatory fee monies until they can be distributed to the proper account. The special account is
used to track USF and TRS funds held outside of the U.S. Treasury. The receipt accounts are
used to record collections made by the FCC on behalf of the Department of the Treasury’s
General fund. The trust account was established in FY 2001 to track funds donated for a special
study on noise and interference affecting the performance of current and proposed
communications systems, and the clearing account is used to clear unidentified collections and
reimbursements throughout the year.

Cash and Other Monetary Assets

Cash and Other Monetary Assets represents cash on deposit at several commercial banks and
highly liquid securities with an original maturity of three months or less. The commercial
accounts are in the form of money market funds that can easily be drawn against. In the case of
USF and TRS, interest proceeds are reinvested and remain available for use. In the case of the
FCC, these funds represent third party deposits made pursuant to the FCC Spectrum Auction
activities. Upon conclusion of individual auctions, funds on deposit are offset against amounts
due from successful bidders or returned to unsuccessful bidders. The funds are held in the
Telecommunications Development Account (TDA), an interest bearing account, for subsequent


                                                52
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies: (continued)

Cash and Other Monetary Assets (continued)

transfer to the Telecommunications Development Fund (TDF) during and for a 45 day period
after the close of a given auction. These funds represent a liability to the FCC until such time as
they are applied toward a valid spectrum license, returned to the depositor, or transferred to the
TDF.

The 1996 Act established the TDF, the purpose of which is to: (1) promote access to capital for
small businesses in order to enhance competition in the telecommunications industry; (2)
stimulate new technology development, and promote employment and training; and (3) support
universal service and promote delivery of telecommunications to underserved rural and urban
areas. Pursuant to 47 U.S.C. Section 309(j)(8), the FCC is authorized to transfer interest accrued
on deposits from the TDA to the TDF.

Cash on deposit typically exceeds federally insured limits. The Federal Reserve requires the
bank to collateralize all funds on deposit from the FCC at 110%.

Accounts Receivable

Accounts receivable are recorded net of any related allowance for doubtful accounts. The
allowance is determined based on an analysis of aged receivables and individual accounts. The
allowance is established using predetermined percentages against the respective year the
receivable was established, ranging from 0% to 100%.

Loans

Reporting requirements for direct loan obligations made after fiscal year 1991 are governed by
the Federal Credit Reform Act (FCRA) of 1990, as amended. The FCRA requires that the
present value of the subsidy costs (present value of the estimated cash outflows over the life of
the loans minus the present value of the estimated cash inflows, discounted at the interest rate of
marketable Treasury securities with a similar maturity term) associated with direct loans be
recognized as a cost in the year that the loan is obligated. Direct loans are reported net of an
allowance for subsidy at the present value.

Investments

Investments are reported net of any unamortized premium or discount. The USF’s investments
include intragovernmental securities and repurchase agreements. All commercial investments
are considered to be short term with maturity dates that do not exceed one year.




                                                53
                  FEDERAL COMMUNICATIONS COMMISSION
                    NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 1 - Summary of Significant Accounting Policies: (continued)

Property, Plant and Equipment

The basis for recording purchased general Property, Plant and Equipment (PP&E) is full cost,
including all costs incurred to bring the PP&E to and from a location suitable for its intended
use. The cost of PP&E acquired through donation is the estimated fair value when acquired. The
cost of PP&E transferred from other Federal entities is the net book value recorded by the
transferring entity.

All PP&E with an initial acquisition cost of $25,000 or more and an estimated useful life of two
years or greater are capitalized. Bulk purchases of similar items, which individually are not
worth $25,000, but collectively are greater than $250,000, are also capitalized using the same
equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful life of the item. The useful lives used are: forty
years for buildings, seventeen years for patents, seven years for equipment, five years for
computers and vehicles, and three years for software. Land and land rights, including permanent
improvements, are not depreciated. Also, software in process is not depreciated. Normal
maintenance and repair costs are expensed as incurred.

The FCC’s authority relative to seized and forfeited property is cited in 47 U.S.C., Section 510.
Seized property consists of real property seized from illegal telecommunication operations. The
property is considered prohibited and held pending an outcome of court proceedings. Seized
assets that are monetary instruments shall be recognized as an asset when seized and a
corresponding liability shall be reported equal to the seized asset value. The FCC has no seized
assets that are monetary instruments. Forfeited property consists of seized property legally
turned over to the FCC and disposed of through the General Services Administration’s (GSA)
surplus process or destroyed. The values assigned to the seized and forfeited property are
determined by FCC engineers and are based on current market values for comparable property.

Accounts Payable and Accrued Liabilities

Accounts payable and accrued liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. FCC liabilities cannot be liquidated without
legislation that provides resources to do so. Since the FCC is a component of the U.S.
Government, a sovereign entity, payments of all liabilities other than contracts can be abrogated
by the sovereign entity.

Liabilities Covered by Budgetary Resources – Represent liabilities funded by available
budgetary resources including: (1) new budget authority, (2) spending authority from offsetting
collections, (3) recoveries of expired budget authority, (4) unobligated balances of budgetary
resources at the beginning of the year, and (5) permanent indefinite appropriations or borrowing
authority, as of the Consolidated Balance Sheet date. All liabilities covered by budgetary
resources are classified as current and are expected to be paid within one year following the

                                               54
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
reporting date.
Note 1 - Summary of Significant Accounting Policies: (continued)

Accounts Payable and Accrued Liabilities (continued)

Liabilities Not Covered by Budgetary Resources – Exist when funding has not yet been made
available through Congressional appropriations or current earnings. The FCC recognizes such
liabilities for employee annual leave earned but not taken, and amounts billed by the Department
of Labor for Federal Employee’s Compensation Act (disability) payments.

Deferred Revenue

The FCC collects proceeds from the sale of communications spectrum on behalf of the U. S.
Government. Spectrum sales transactions typically consist of an initial down payment equal to
20% of the net winning bid and a final down payment at the time the license is granted. All first
down payment money is recognized by the FCC as deferred revenue until a final payment date is
established by “prepared to grant” public notice.

Liability for Borrowings to Treasury

This account represents amounts due to the Bureau of Public Debt, U.S. Treasury, to support the
Spectrum Auction Loans Program. Borrowings are determined based on the FCC’s subsidy
estimate and reestimate in accordance with the FCRA of 1990, as amended, and guidance issued
by OMB.

Payable to Providers

This account represents collected contributions yet to be distributed to and awaiting approval for
eligible telecommunications services provided through the USF Program. In FY 2001, the FCC
financial statements reflect a change in accounting principle, recognizing all the expenses of the
USF Program through the Statement of Net Cost, which flows to the Net Position, Cumulative
Results of Operations on the Balance Sheet, and as Nonexchange Revenue on the Statement of
Changes in Net Position.

Retirement Plans and Other Benefits

Federal Employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, but not yet due and payable. These costs include pensions, other retirement benefits,
and other post-employment benefits. These benefits are administered by Office of Personnel
Management (OPM) and not by the FCC. Since the FCC does not administer the benefit plans,
the FCC does not recognize any liability on the Consolidated Balance Sheet for pensions, other
retirement benefits, and other post-employment benefits. FCC does, however, recognize the
imputed costs and imputed financing related to these benefits in the Statement of Net Cost and
the Statement of Changes in Net Position, respectively.

                                               55
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or
other termination of employment before retirement. Pension plans may also include benefits to
survivors and dependents, and they may contain early retirement or other special features. Most
FCC employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employee Retirement System (FERS). Under CSRS, FCC makes matching contributions equal
to seven percent of basic pay. For FERS employees, FCC contributes the employer’s matching
share for Social Security and contributes an amount equal to one percent of employee pay to a
savings plan and matches up to an additional four percent of pay. Most employees hired after
December 31, 1983, are covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded
liabilities, if any, applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability
for death, disability, medical and miscellaneous costs for approval compensation cases. The
liability is determined using a method that utilizes historical benefit payment patterns related to a
specific incurred period to predict the ultimate payment related to that period. No actuarial
liability is determined by the Department of Labor (DOL) for the FCC, due to the immateriality
to the Federal government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the
balance in the accrued annual leave account is adjusted to reflect leave balances and current pay
rates. Annual leave is reflected as a liability that is not covered by current budgetary resources.
Sick leave and other types of non-vested leave are expensed as taken.

Revenues and Other Financing Sources

Exchange and Nonexchange Revenue - Exchange revenue is the amount of money earned for
goods and services provided to other agencies and the public. For example, spectrum auction
sales and reimbursable agreements are considered exchange revenue to the Federal government.
Nonexchange revenue is recorded for transactions where revenue is earned at no substantial cost
to the provider. For example, collections from fines and forfeitures are considered nonexchange
revenue. Other Financing sources are funding such as appropriations, where resources are
received and nothing of value is given in return.




                                                 56
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Revenues and Other Financing Sources (continued)

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993
directed the FCC to assess and collect regulatory fees to recover the costs incurred in carrying
out certain provisions of the Agency’s mission. Regulatory fees are intended to offset costs
associated with the FCC enforcement, policy and rulemaking, international, and user information
activities. Since 1993, Congress has annually reviewed the regulatory fee collection
requirements of the Commission and established the total fee levels to be collected. Fees
collected up to the level established by Congress are applied against the FCC’s annual
appropriation via a negative warrant processed at the close of each fiscal year. Only once, in
fiscal year 1998, have fee attainments been less than the established level. The regulatory fee
collection of $200 million for FY 2001 was achieved.

Radio Spectrum Auction Proceeds (Exchange) – The proceeds from auctioning the right to use
the radio spectrum are exchange revenues, because each party receives and sacrifices something
of value. The amount of revenue is earned by sales in the market at auctions. The proceeds from
the auction of the radio spectrum bear little relationship to the costs recognized by the FCC,
which collects the revenue, and should not, according to Statement of Federal Financial
Accounting Standards (SFFAS) No. 7, Accounting for Revenue and Other Financing Sources
and Concepts for Reconciling Budgetary and Financial Accounting, be offset against the costs of
the FCC in determining its net cost of operations. Therefore, FCC accounts for this exchange
revenue as a custodial activity. Revenue on spectrum auction is recognized when the final
payment date is established by the “prepared to grant” public notice.

Recognition of revenue based on the “prepared to grant” public notice represents a change from
the FY 2000 policy of recognizing revenue at the time the second down payment was received.
The change converts the FCC to a full accrual basis of accounting by recognizing revenue at the
point when a payment date is established, not when full payment is received. This change has no
effect on the FY 2000 balances because all “prepared to grant” receivables were paid prior to the
end of the fiscal year.

Offsetting Collections (Exchange) – One of FCC’s primary functions is the management of the
Spectrum Auction Program on behalf of the U.S. Government. Proceeds from the auctions are
initially remitted to the FCC and later transferred to the U.S. Treasury, net of anticipated auction
related costs. Under 47 U.S.C. Section 309, a portion of the Spectrum Auction proceeds may be
retained by the FCC to offset the cost of performing the auction function. Collections used to
offset the cost of performing auctions related activity totaled $67,525 for FY 2001 and $45,407
for FY 2000.

Application Fees (Exchange) - Congress authorized the FCC (Section 8 47 U.S.C.) to impose
and collect application processing fees and directed the FCC to prescribe charges for certain
  types of application processing or authorization services it provides to communications
                                                57
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
entities over
Note 1 - Summary of Significant Accounting Policies: (continued)

Revenues and Other Financing Sources (continued)

which the FCC has jurisdiction. Application fees are deposited in the U.S. Treasury and are not
available for the FCC to use.

Reimbursable Work Agreements (Exchange) – The FCC recognizes reimbursable work
agreement revenue when earned, i.e. goods have been delivered or services rendered. The FCC
executed agreements with other agencies totaling approximately $1,100 in FY 2001 and $1,000
in FY 2000.

Annual Appropriations (Financing Source) - The FCC receives an annual salaries and expense
appropriation from Congress. These funds are used to fund operations during the course of the
fiscal year and are repaid to the U.S. Treasury once regulatory fees have been collected. The
annual appropriation for fiscal year 2001 was $230,000 less regulatory fee collections of
$200,146 resulting in a net appropriation of $29,854. The annual appropriation for FY 2000 was
$209,909 less regulatory fee collections of $185,754 for a net appropriation of $24,155.

Subsidy Estimates and Reestimates (Financing Source) – The FCC receives permanent-indefinite
authority in accordance with the FCRA of 1990, as amended, to fund its subsidy estimates and
reestimates, unless otherwise prescribed by OMB. This authority funds repayment to the U.S.
Treasury for the portion of Spectrum Auction loans that will not be recovered from the borrower.

USF Program (Nonexchange Revenue) – Carriers conducting interstate telecommunications are
required to remit a portion of their revenues to fund the cost of providing universal service. The
USF Program consists of five elements, four of which are the USF support mechanisms: (1)
schools and libraries; (2) low income service areas; (3) high cost service areas; and (4) rural
health care. The fifth element is the TRS which provides services to the blind and physically
handicapped. In FY 2001, the FCC reported these collections and related receivables as a
financing source on its statement of changes in net position. The FY 2001 presentation differs
from the FY 2000 presentation where these revenues were included on the statement of custodial
activity. See Note 28 for an explanation of the change.

Transactions with Related Parties

In the course of its operations, the FCC has relationships and financial transactions with
numerous Federal agencies. The more prominent of those relationships are with the Department
of the Treasury (Treasury) and the OMB. FCC also has relationships with agencies such as the
GSA, the DOL, the OPM, and the Department of Agriculture (USDA), National Finance Center
(NFC), among others.



                                               58
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies: (continued)

Transactions with Related Parties (continued)

In addition to its relationships and financial transactions with Federal agencies, the FCC has a
direct relationship with two organizations that were established to assist the FCC in carrying out
its mission. These organizations are USAC, which administers the four USF support
mechanisms, and NECA which administers the TRS Fund.

Other components of the FCC, as defined by SFFAC No. 2, but excluded from these financial
statements include the programs administered by the LNPA and the NANPA. LNPA works
with carriers to update data tables for required number portability, and NANPA administers the
numbering resources to support the industry’s efforts to accommodate current and future
numbering needs. The management of FCC reviews the programs annually for materiality with
respect to FCC’s consolidated financial statements. Under current guidance, the results of these
programs will be included in the consolidated financial statements of the FCC if these activities
become material in future reporting periods.

Net Position

Net position account balances consist of the following components:

Unexpended Appropriations – Represents amounts of spending authority that are unobligated
and available to the FCC, or obligated but not expended. Unexpended appropriations can also
result from downward subsidy cost reestimates of mandatory loan programs.

Cumulative Results of Operations – Represents the FCC’s net results of operations since
inception, including (1) the cost of property and equipment acquired that has been financed by
appropriations, less accumulated depreciation, (2) the amount of appropriated funding that will
be needed in future periods to liquidate liabilities incurred through the current fiscal year, and (3)
for FY 2001, any collected contributions and associated investment interest earned not yet
approved for distribution as of September 30, 2001. Funding for these items is generally
received in the year that amounts become due and payable.




                                                 59
                   FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 2 - Fund Balance with Treasury:

The following summarizes the types of fund balance with Treasury as of September 30, 2001 and
2000:

Fiscal Year 2001             Entity                Non-Entity              Total

General Funds              $ 85,179                $      -            $      85,179
Revolving Funds              18,175                       -                   18,175
Deposit Funds                     -                3,954,760               3,954,760
Trust Funds                                               88                      88

Total Fund Balance         $ 103,354               $3,954,848          $4,058,202


Status of Fund Balance with Treasury:                  FY 2001
Unobligated Balance
       Available                                   $       31,760
       Unavailable                                      3,962,612
Obligated Balance not yet Disbursed                        63,830

Total                                              $    4,058,202


Fiscal Year 2000             Entity                Non-Entity              Total

General Funds              $1,893,358              $        -          $1,893,358
Revolving Funds                10,136                       -              10,136
Deposit Funds                      -                   304,171            304,171
Trust Funds                                                 -                   -

Total Fund Balance          $1,903,494             $ 304,171           $2,207,665


General Funds - These funds consist of salaries and expense appropriation accounts used to fund
agency operations and capital expenditures, no-year accounts used to carryover spectrum auction
and regulatory fee funds not obligated in the year received, and the credit reform program
account.

Revolving Funds – The credit reform financing account is considered to be a revolving fund by
Treasury. This is the only revolving fund maintained by the FCC. This fund records cash flows
associated with the FCC’s Spectrum Auction Loan program.



                                              60
                   FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 2 - Fund Balance with Treasury: (continued)

Deposit Funds - These funds are maintained to account for receipts awaiting proper classification
or receipts being held in escrow until proper distribution can be made. The three deposit
accounts used by FCC hold spectrum auction receipts, international telecommunications
settlements, and regulatory fee monies. Deposit funds are not available for use by the FCC
unless they are properly identified or reclassified as FCC funds, otherwise, these funds will be
returned to the depositor or transferred to the U.S. Treasury.

Trust Funds – The FCC maintains one Gift and Bequest fund, established in FY 2001. The funds
were given to perform a study on noise and interference affecting the performance of existing
and proposed communication systems.

Note 3 – Cash and Other Monetary Assets:

The following summarizes cash and other monetary assets as of September 30, 2001 and 2000:

                             Entity                 Non-Entity
FY 2001                      Assets                  Assets                    Total

Imprest Fund                 $       64             $        -            $          64
Money Market Funds            1,594,667                  7,523                1,602,190

Total Cash                   $1,594,731             $    7,523            $1,602,254


                             Entity                 Non-Entity
FY 2000                      Assets                  Assets                    Total

Imprest Fund                 $        64            $         -           $         64
Money Market Funds                     -                  1,151                  1,151
Cash on deposit with
Commercial banks                       -                48,108                   48,108

Total Cash                   $        64            $    49,259           $     49,323

Non-entity money market funds are upfront deposits being held for Auctions 40 and 41. Entity
money market funds include $1,593,738 in USF contributions and interest distributed among
five money market funds, and $929 in TRS contributions and interest being held in the TRS
operating account. Interest rates for the money market accounts were at approximately 3.0% at
year end. The large increase over FY 2000 money market balances is the result of a shift in the
USF portfolio from individual securities to government market funds.



                                               61
                   FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 4 – Investments:

The following summarizes investments as of September 30, 2001 and 2000:

                                                                  Unamortized
                                                     Amortization (Premium)           Investments,
   FY 2001                              Cost           Method      Discount               Net
   Intragovernmental
       Marketable Securities        $       -              SL        $        -        $      -

   With the Public:
      Marketable Securities             623,725            SL            (3,669)           620,056
      Repurchase Agreements              32,515           N/A                  -            32,515
   Total With the Public                656,240                          (3,669)           652,571
                                                                               -
   Total Investments                $    656,240                $        (3,669)       $ 652,571


   The market value of Marketable Securities with the Public, as of September 30, 2001, was
   $611,648.

                                                                    Unamortized
                                                     Amortization    (Premium)        Investments,
   FY 2000                              Cost           Method         Discount            Net


   Intragovernmental
       Marketable Securities        $ 1,297,611           SL        $             -   $ 1,297,611

   With the Public:
      Repurchase Agreements             716,360           N/A                     -         716,360
      TRS (Other)                        18,588           N/A                     -          18,588

   Total With the Public           $    734,948                      $            -    $ 734,948


   Total Investments               $ 2,032,559                      $             -    $2,032,559




                                                62
                   FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 4 – Investments: (continued)

Investment balances represent USF and TRS funds that have been invested in low risk Federal
and commercial securities. Marketable Federal securities are securities that can be bought and
sold on the open market. All commercial investments are considered to be short term with
maturity dates greater than three months but generally not exceeding one year.

Note 5 - Accounts Receivable, Net:

The following summarizes accounts receivable as of September 30, 2001 and 2000:

Fiscal Year 2001                 Entity                 Non-Entity       Total
Intra-governmental
 Gross Accounts Receivable       $      -               $         -      $            -
 Allowance for Doubtful Accounts (      -)              (         -)     (            -)

Net Accounts Receivable              $         -        $         -      $             -

With the Public
 Gross Accounts Receivable       $ 651,268              $    229,411     $  880,679
 Allowance for Doubtful Accounts ( 86,359)               (    21,242)      (107,601)
Net Accounts Receivable          $ 564,909              $    208,169     $ 773,078


Fiscal Year 2000                     Entity             Non-Entity           Total

Intra-governmental
 Gross Accounts Receivable       $            67        $         -      $           67
 Allowance for Doubtful Accounts (            28)       (         -)     (           28)

Net Accounts Receivable              $        39        $         -      $           39

With the Public
 Gross Accounts Receivable       $ 20,852               $    528,936     $    549,788
 Allowance for Doubtful Accounts     ( 148)                  ( 46,718)        ( 46,866)

Net Accounts Receivable              $ 20,704           $    482,218     $    502,922




                                                   63
                   FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 5 - Accounts Receivable, Net: (continued)

Gross entity receivables consist largely of the $629,949 and $2,673 due from USF and TRS
contributors. The related allowances for USF and TRS receivables are $83,081 and $300
respectively. Another $18,494 is specific to 47 U.S.C., Section 9 regulatory fees and the related
late penalties due but not paid as of September 30, 2001 with a related allowance of $2,902.
Fiscal Year 2000 net regulatory fee receivables were $20,704.

Gross non-entity receivables are largely composed of $199,317 in Spectrum Auction receivables
with a related allowance of $5,031 established for the full amount of one receivable that has been
sent to the Department of Justice for settlement. Fines and forfeitures receivables are another
$24,179 with a related $16,155 allowance for doubtful accounts.

In FY 2000, gross non-entity receivables were largely composed of $429,700 due from USF
contributors and $5,150 due from TRS contributors. The related allowances for USF and TRS
were $29,500 and $0, respectively. FCC FY 2000 non-entity receivables included an amount of
$63,600 for the Broadband Personal Communications Services Licenses that has since been
received. In addition to the Pioneer licenses, the FCC had $23,000 in receivables related to fines
and forfeitures.

Note 6 - Direct Loans, Non-Federal Borrowers:

Under Section 309(j)(3) of the Communications Act of 1934, as amended, Congress directed the
FCC to implement a competitive bidding (auctions) system for licensing spectrum, in order to
expand economic opportunity, promote competition, and facilitate the development and delivery
of new and improved telecommunications services to the public. Section 309(j)(4) gave the
Commission certain instructions for implementing regulations for this system, including a
directive to ensure that small businesses, rural telephone companies, and women and minority-
owned businesses were provided with an opportunity to participate in the provision of spectrum-
based services. By statute, the FCC can use various means to facilitate expanded participation,
including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the FCC provided installment financing in connection with its Spectrum
Auction events, including the C Block Broadband Personal Communications Services' (PCS), F
Block PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multipoint Distribution
Service (MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing
program, winning bidders were generally given five or ten-year periods to repay their net winning bid
amount (less the down payment amount), with up to five-year, interest-only, initial payment periods.
Interest rates varied by the type of borrower. Retention of licenses granted at auction was strictly
conditioned on making full and timely payment of amounts as they become due.




                                                 64
                    FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 6 - Direct Loans, Non-Federal Borrowers: (continued)

The FCC’s first auction was conducted in 1994, and starting in 1995, installment payment
mechanisms were used to finance portions of some of the winning bid amounts. Except for the
Pioneer Broadband PCS, which was paid off in FY 2001, all of FCC’s loan portfolio is
accounted for in accordance with the FCRA of 1990. As of fiscal year 2001, the FCC’s
installment loan portfolio is tracked under nine cohorts. The loans receivable balance and value
of the assets related to the direct loans are not the same as the proceeds FCC would expect to
receive from selling their loans.

In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 2,
Accounting for Direct Loans and Loan Guarantees, Federal agencies are required to reestimate
the subsidy cost allowance annually as of the date of the financial statements. Any increase or
decrease in the subsidy cost allowance resulting from the reestimates is recognized as a change
in the subsidy expense.

At OMB’s request, the FCC completed four subsidy reestimates resulting in an overall upward
subsidy adjustment of $2.7 billion at September 30, 2001. The first reestimate performed in
December, 2000 was for performance data through September 30, 2000 and generated a
downward adjustment of $3.4 billion that was reported in the FY 2000 financial statements. The
second subsidy reestimate resulted in a $6.2 billion downward adjustment based on the
assumption that FCC would receive a greater than 100 percent recovery rate on its C-block re-
auctioned licenses in FY 2001. The third subsidy reestimate resulted in an upward adjustment of
$8.8 billion after the potential for recovery above 100 percent was impaired by the loss of a court
case concerning a significant portion of the C-block licenses re-auctioned. The last subsidy
reestimate was completed in December 2001 for performance data through September 30, 2001.
The result of this reestimate was an upward adjustment of $91.7 million that was reported in the
FY 2001 financial statements, but will not be reported in the budget until FY 2002.

As required under the FCRA of 1990, as amended, the FCC coordinates with the OMB in
developing estimation guidelines, regulations, and the criteria to be used in calculating the
subsidy cost allowance. This joint effort is undertaken to facilitate the development and
improvement of cost and recovery rate estimates. Therefore, the subsidy cost allowance has
been prepared under specific guidance provided by the OMB in an effort to ensure that the
objectives of the Federal government, taken as a whole, are being achieved and does not
represent the FCC’s current policy position on the auction of spectrum held previously by other
parties.




                                                65
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)

Note 6 - Direct Loans, Non-Federal Borrowers: (continued)

Loans Receivable - Loans receivable for post-1995 Spectrum Auctions are recorded at the
principal outstanding, net of allowance for subsidy. Allowance for subsidy costs represents the
difference between the present values of estimated net cash inflows and outflows of the
Spectrum Auction loans. The allowance for subsidy cost is amortized using the effective interest
method based on the U.S. Treasury’s interest rate at the time loans were disbursed. The
allowance for subsidy also provides for write-offs on defaults and other costs that may affect
cashflows.

Accrued Interest – FCC accrues interest on loans as it is earned. Current FCC policy
automatically grants Spectrum Auction loans two sequential three-month grace periods for
which borrowers are charged late fees. In accordance with the FCC rules, at the end of the six-
month total grace period, loans are considered to be in default and the license is automatically
cancelled. For financial reporting purposes, it is the FCC’s policy to discontinue accruing
interest on loans that are beyond the six-month grace period, since these loans are considered
non-performing. Therefore, it is the FCC’s policy to accrue and record interest only on the
performing loans for financial reporting purposes.

Direct Loans Obligated After FY 1991

                      Gross Loans Interest          Other         Allowance       Net
Loan Program          Receivable  Receivable        Receivables   for Subsidy     Loans Receivable

Spectrum Auctions:

   FY 2001            $5,593,132    $291,656        $    2,935    $    84,773      $5,972,496

   FY 2000            $8,177,261    $429,889        $    2,952    $   982,418      $9,592,520

Total Amount of Direct Loans Disbursed (Post 1991):

Spectrum Auctions:

   FY 2001            $       -

   FY 2000            $     93




                                               66
                    FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 6 - Direct Loans, Non-Federal Borrowers: (continued)

Subsidy Expense for Direct Loans by Program and Component

1. Subsidy Expense for New Direct Loans Disbursed:

                     Interest
   Loan Program       Differential   Defaults        Fees          Other          Total

   Spectrum Auctions:

   FY2001            $       -       $    -          $   -         $       -      $    -

   FY 2000           $    (58)       $   151         $   -         $       -      $   93


2. Direct Loan Modifications and Reestimates:
                                       Interest Rate         Technical         Total
   Loan Program     Modifications      Reestimates           Reestimates       Reestimates

  Spectrum Auctions:

   FY 2001 (Net)                                             $ 2,668,531       $ 2,668,531

   FY 2000                                                   $ (3,381,499)     $ (3,381,499)


3. Total Direct Loan Subsidy Expense:

Spectrum Auctions:

   FY 2001           $ 2,668,531

   FY 2000           $ (3,381,592)


Subsidy Rates for Direct Loans by Program and Component


There were no new direct loans disbursed in FY 2001.




                                                67
                    FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 6 - Direct Loans, Non-Federal Borrowers: (continued)

Schedule for Reconciling Subsidy Cost Allowance Balances

                                                                    FY 2001
Beginning Balance of the Subsidy Cost Allowance                    $ ( 982,418)

Subsidy expense for direct loans disbursed:
During FY 2001 by component:
       Interest rate differential costs                                      -
       Default costs (net of recoveries)                                     -
       Fees and other collections                                            -
       Other subsidy costs                                                   -

Adjustments:
      Loan modifications                                                   -
      Fees received                                                        -
      Loans written off                                            (2,352,755)
      Subsidy allowance amortization                                  591,430
      Other                                                             (9,561)
Ending balance before reestimates                                  (2,753,304)

Subsidy reestimates:
       Interest rate reestimate                                              -
       Technical/default reestimate                                    2,668,531

Ending balance of the subsidy cost allowance                       $     (84,773)

Administrative Expense:

   Spectrum Auctions Total FY 2001                  $    6,700

   Spectrum Auctions Total FY 2000                  $    4,836

Note 7 – Seized and Forfeited Property:

For materiality reasons the FCC did not report the value of forfeited property on the face of the
financial statements in FY 2001 however, the number and value of seized and forfeited property
is reported below in accordance with OMB Form and Content. During FY 2001 the FCC
transitioned it's reporting for seized and forfeited property from a manual spreadsheet to its
property database. The property database accounts for this property using the lot number
assigned to it and no longer classifies items into the four categories; (1) prohibited, (2) radio
frequency, (3) audio, and (4) other, that were used in prior years.


                                               68
                    FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 7 – Seized and Forfeited Property: (continued)

Seized Property

FCC seizes property from illegally operated radio and other communication operations. The
property is held pending the outcome of court proceedings. The property is comprised of
prohibited property, radio frequency, audio equipment and other communications equipment.
The values assigned to the property are determined by FCC engineers based on current market
values for comparable property.

Seized Property as of September 30, 2001:

FY 2001
                                     No. of          Dollar
Seized                                Lots           Value
Beginning Balance                     26            $ 55
Seized                                10               15
Forfeited                             18              (33)
Ending Balance                        18               37

Forfeited Property

Forfeited property consists of seized property legally transferred to the FCC. The FCC does not
resell the items. Forfeited items are either disposed of through the GSA surplus process or
destroyed. The property is comprised of prohibited property, radio frequency, audio equipment
and other communications equipment. The values assigned to forfeited property are determined
by FCC engineers, which are based on current market values for comparable property. Forfeited
Property as of September 30, 2001:

FY 2001
                                      No. of         Dollar
Forfeited                              Lots          Value
Beginning Balance                       53           $ 61
Forfeited                               18              33
Disposed                                53            ( 75)
Ending Balance                          18              19




                                               69
                    FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)
Note 8 - Property, Plant and Equipment, Net:

The following summarizes general property, plant and equipment (PP&E) as of September 30,
2001 and 2000:

FY 2001             Acquisition            Accumulated            Net Book              Service
Classes of PP&E       Cost                 Depreciation            Value              Life in Years
Land                $    1,304             $         -           $     1,304          N/A
Buildings                4,091                   3,858                   233          40
Furniture               19,158                   7,755                11,403          7
Equipment                7,891                   5,497                 2,394          7
Computer Equip.         14,214                   8,583                 5,631          5
Bulk Purchases           4,409                   2,753                 1,656          5-7
Vehicle Systems          2,913                   1,901                 1,012          5
Broadcast Station
Equipment                4,096                       4,036                 60         7
Patent                     800                         208                592         17
ADP Software            16,037                      11,807              4,230         3
Software In Process      6,803                           -             6,803          N/A

Total                $    81,716           $        46,398       $    35,318


FY 2000             Acquisition            Accumulated            Net Book              Service
Classes of PP&E       Cost                 Depreciation            Value              Life in Years
Land                $    1,292             $         -           $     1,292          N/A
Buildings                4,091                  3,848                    243          20
Furniture               19,158                  5,018                 14,140          7
Equipment      .         6,647                  5,084                  1,563          7
Computer Equip.         13,450                  7,722                  5,728          5
Bulk Purchases           4,409                  1,907                  2,502          5-7
Vehicle Systems          2,924                  1,150                  1,774          7
Broadcast Station
Equipment                4,497                       4,359               138          7
Patent                     800                         137               663          17
ADP Software            14,024                       6,577             7,447          3
Software In Process      3,909                            -            3,909          N/A

Total                $    75,201           $        35,802       $    39,399

In FY 2001 the FCC revised the useful lives related to the Buildings and Vehicle Systems
categories from 20 and 7 years to 40 and 5 years, respectively. The effects of the change have
been reflected in current year activity.


                                               70
                     FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)
Note 9 – Liability for Borrowings from Treasury:

The FCC borrows from the U.S. Treasury for costs associated with its Spectrum Auction Loan
Program. Borrowings are determined upon calculation of the subsidy estimates and reestimates
in accordance with the FCRA of 1990, as amended. The borrowings pertain to all loan cohorts.

                                            FY 2001              FY 2000
Beginning Balance                          $5,307,271           $3,938,605
Net Borrowing                                 802,333            1,368,666

Ending Balance                             $6,109,604           $5,307,271

Note 10 – Accounts Payable:

The following summarizes accounts payable as of September 30, 2001 and 2000:

FY 2001                            Intragovernmental     With the Public         Total

Accounts Payable - FCC                 $          -      $     14,878        $    14,878
Accounts Payable – TRS                            -             9,819              9,819
Accounts Payable - USF                            -           369,924            369,924

Total Accounts Payable                 $          -      $   394,621         $ 394,621


FY 2000                            Intragovernmental     With the Public         Total

Accounts Payable - FCC                 $          -      $    14,403         $    14,403
Accounts Payable – TRS                            -            9,532               9,532
Accounts Payable - USF                            -          385,694             385,694

Total Accounts Payable                 $          -      $   409,629         $ 409,629


The Accounts Payable – FCC balance reflects amounts owed for goods and services that have
been received, but not liquidated as of September 30, 2001.

Accounts Payable - USF and Accounts Payable – TRS represent liabilities for provider payments
that have been approved but not yet paid.




                                             71
                   FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                              September 30, 2001 and 2000
                       (dollars in thousands unless otherwise stated)
Note 11 – Other Debt:

Other Debt is comprised of a liability of $125,274 resulting from litigation against the FCC.
This liability is considered long-term and liquidation of the liability is dependent upon the
outcome of upcoming auctions.

Note 12 – Deferred Revenue:

The significant increase in deferred revenue over FY 2000 is related to the re-auction of C-block
licenses under Auction 35. Deferred revenue for Auction 35 is $3,295,835 of the total
$3,304,671.

Note 13 - Other Liabilities:

The following summarizes other accrued liabilities as of September 30, 2001 and 2000:

FY 2001                              Intra-governmental    With the Public            Total
Covered By Budgetary Resources:

   Accrued Payroll                       $      1,919      $       9,047        $      10,966
   Other                                          741                  -                  741

Total Covered By Budgetary Resources $          2,660      $       9,047        $      11,707


Not Covered By Budgetary Resources:
   FECA Liability                   $              313     $           -        $        313
   Custodial Liability                         848,619                 -             848,619
   Deposit/Unapplied Liability                      -              20,784             20,784
   Other                                             -              7,488              7,488

Total Not Covered
By Budgetary Resources                   $    848,932      $      28,272       $     877,204

TOTAL                                    $    851,592      $      37,319        $    888,911




                                               72
                   FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)
Note 13 - Other Liabilities: (continued)

FY 2000                               Intragovernmental      With the Public          Total
Covered By Budgetary Resources:
   Accrued Payroll                       $        1,762     $        8,369       $       10,131
   Other                                            607                   -                 607

Total Covered Budgetary Resources        $        2,369     $        8,369       $       10,738

Not Covered By Budgetary Resources:
   FECA Liability                   $               443     $            -       $         443
   Custodial Liability                          326,346                740             327,086
   Deposit/Unapplied Liability                   17,002             46,799              63,801

Total Not Covered By
Budgetary Resources                      $      343,791     $       47,539       $     391,330

TOTAL                                    $      346,160     $       55,908       $     402,068

The custodial liability includes both cash collected and receivables being held for transfer to the
U.S. Treasury General fund. The FCC collects three forms of custodial revenue: spectrum
auction revenue, penalty revenue on regulatory fees, and interest revenue on auction deposits
(held for TDF).

Deposit/Unapplied Liabilities represent either upfront deposits made by auctions bidders or
funds received that are being held until proper application is determined. The FCC considers all
other accrued liabilities to be current.

Note 14 - Payable to Providers:

The USF collects funds from contributing telecommunications service providers in accordance
with FCC regulations. Pursuant to FCC rules, the universal service support funds are made
available to service providers to assist in making access to telecommunication services more
affordable to remote or rural areas, low-income neighborhoods, rural health care providers, and
public and private schools and public libraries.

The TRS fund compensates service providers for the reasonable costs of providing interstate
telephone transmission services that enable persons with hearing or speech disabilities to use
wireline or wireless telecommunications services.

Accordingly, the payable to providers represents collected contributions that have yet to be
distributed to eligible providers for eligible universal service support. The USF portion was
$2,038,603 for FY 2000. The TRS portion was $14,246 for FY 2000. For treatment of the FY
2001 financial transactions, see Note 28.

                                                73
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 15 - Leases:

Operating Leases

The FCC has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods.

Future lease obligations under operating leases are as follows:

   Fiscal Year                      Bldg                   Copier                   Total

       2002                        36,966                   1,154                   38,120
       2003                        37,290                   1,154                   38,444
       2004                        37,590                   1,154                   38,744
       2004                        37,885                   1,171                   39,056
       2006                        38,179                   1,171                   39,350
Total Future Lease Payments      $187,910                  $5,804                 $193,714

Note 16 – Unexpended Appropriations:

Unexpended Appropriations                    FY 2001                  FY 2000
Unobligated:
       Available                                    422               6,103,668
       Unavailable                                2,745                    6,992
Undelivered Orders                              26,580                   17,336
Non-Budgetary Accruals                           (5,735)                  (5,306)

Total Status                                 $ 24,012               $ 6,122,690

Note 17 – Gross Costs and Related Exchange Revenue:

Section 9(a) of the Communications Act of 1934, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by
Congress, that it incurs in carrying out enforcement, policy and rulemaking, international, and
user information activities. OMB Circular No. A-25 revised, User Charges, requires an agency
to assess a user charge against each identifiable recipient for special benefits derived from
Federal activities beyond those received by the general public. The Circular also requires that
user fees be established to recover the full cost to the Federal government of providing the
service when the Government is not acting in its capacity as a sovereign entity. Where a statute
prohibits certain aspects of the user fee, the statute shall take precedence over the requirements
of
OMB Circular A-25. These fees were established by Congressional authority, and, consistent
with OMB Circular A-25, the FCC did not determine the full costs associated with its regulatory
activity in the establishment of regulatory fees.

                                                74
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)

Note 17 – Gross Costs and Related Exchange Revenue: (continued)

With regards to the costs reported on the FY 2000 Statement of Net Cost, these costs were
allocated to the four approved FCC programs in the FY 2000 Budget Submission (Authorization
of Service, Policy and Rulemaking, Enforcement, and Public Information Service) on the basis
of total and direct program costs. There were four common cost pools, which consisted of Leave
Costs, Other Costs, Bureau Overhead Costs, and Executive Direction Costs and the costs were
allocated in that order. All four cost pools were allocated on the basis of total costs and were
ultimately distributed either to activity codes for Salaries and Expenses related costs or auctions
related costs. Specifically, Leave Costs were allocated on a total cost basis and all other costs
were allocated based on direct program costs. At the completion of the common cost allocation
process, all costs were summarized according to the four programs.

For FY 2001, the FCC modified its budget submission to present Spectrum Management as a
fifth FCC program. As a result, the following five core approved programs were reflected in the
FCC FY 1999 Budget submission proposed for FY 2001: Licensing, Competition, Enforcement,
Consumer Information Service, and Spectrum Management. With the exception of some minor
FTE redistributions discussed below, three of the four programs remained functionally the same
from FY 2000 to FY 2001, named as follows: Authorization of Service is retitled Licensing;
Public Information Service is retitled Consumer Information Service; and the Enforcement
program is still entitled the Enforcement Program. The fourth program, Policy and Rulemaking
Program, is now divided in FY 2001 between the Competition and Spectrum Management
Programs.

Costs reported on the FY 2001 Statement of Net Cost are allocated to the five approved FCC
programs in the FY 2001 approved budget as defined above based on the four common cost
pools methodology described in the paragraph above. The methodology was then expanded to
convert resulting costs from a four program allocation to a five program allocation based on the
realignment of specific functions and FTEs from the other programs. Costs initially included in
the Policy and Rulemaking Program, related to Office of Engineering and Technology (OET)
and International Bureau (IB), that are attributed to Spectrum Management activities, were
removed and included in the Spectrum Management Program on the FY 2001 Statement of Net
Cost. The remaining costs from the Policy and Rulemaking Program were included in the
Competition Program. Additionally, an allocation was made to distribute costs based on actual
FY 2001 operations. This adjustment was based on actual FTEs and resulted in a reduction in
costs to the Enforcement Program that was redistributed to the other four programs. This
redistribution was done at the allocation level. This allocation is consistent with the allocation
performed by the FCC’s Budget Office, within the approved budget, to realign costs among the
five programs.

To substantiate the revised five program allocation method, the FCC performed certain cost
finding steps. These steps consisted of conducting interviews of key personnel in FCC’s bureaus
and Budget Center, analyzing supporting documents obtained during the interviews, and
   performing a variety of analytical procedures.
                                                75
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)

Note 17 – Gross Costs and Related Exchange Revenue: (continued)

Costs for Intragovernmental and With-The-Public were separately identified by the FCC. The
FCC then determined the percentage of Intragovernmental costs and costs with the public as a
ratio to total costs. These percentages were applied to program level costs in allocating program
costs between Intragovernmental and With-The-Public at the program level.

The exchange revenue recognized is allocated on a one to one basis with ending gross costs.
Non-Auctions revenue is composed of $24,056 related to Application Fees accrued and
collected, $215,691 in Regulatory Fees accrued and collected, and $1,060 in reimbursable
activity. Auction related revenue is composed of $67,525 in auction cost recoveries taken
directly from spectrum auction proceeds. Credit reform revenue consists of $940,996 in interest
earned on un-invested funds and interest revenue earned on credit reform loans and $4,662,674
related to interest on reestimates.

Gross costs presented for the USF Program represent the current year disbursements and related
payable accruals to service providers in five areas: schools and libraries, low income, high cost,
rural health care, and blind and physically handicapped as well as the administrative costs of
collecting and disbursing payments.

Note 18 – Appropriations Used:

The Appropriations Used of $3,469,300 in FY 2001 is net of adjustments related to the Federal
credit reform loans’ downward subsidy reestimate costs. The FCC receives an appropriation for
upward subsidy reestimate costs, and therefore, processes the downward subsidy reestimate costs
returned to Treasury as a contra to Appropriated Capital Used.

               Gross Appropriated Capital Used                              $ 11,604,837
               Less: Adjustment for Downward Subsidy                           8,135,537
               Appropriated Capital Used                                       3,469,300

Note 19 – Prior Period Adjustments:

During fiscal year 2001, prior period adjustments were made to the accounting records. These
adjustments were identified as part of a continuing effort to establish stronger review and control
procedures. The following schedules present the adjustments by category for September 30,
2001 and 2000:




                                                76
                      FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)

Note 19 – Prior Period Adjustments: (continued)

                                                              FY 2001           FY 2000
Entries to recognize property and related
depreciation for items purchased in prior
years but not identified until the current year           $(        69)    $(      1,745)

Entries to remove stale accruals                                 2,557

Entry to reduce overstated depreciation on Furniture                               7,298

Entry to reclassify credit reform funds
from Cumulative Results to appropriated capital.                             (1,826,241)

Entries to reclassify auctions and regulatory
Funds from appropriated capital to Cumulative Results                        (    11,160)

Removal of liability for moving and furniture costs                               74,132

Regulatory Fees                                                              (     2,534)

Other                                                             101        (        41)

Total Prior Period Adjustments                            $      2,589     $ (1,760,291)

Note 20 – Dedicated Collections:

U.S. telecommunication companies are obligated to pay assessments for Universal Service
support and for telecommunications relay service, which are established by the FCC. These
assessments are accounted for in the Budget of the U.S. Government as the “Universal Service
Fund.” As defined by the SFFAS No. 7, Accounting for Revenue and Other Financing Sources
and Concepts for Reconciling Budgetary and Financial Accounting, as issued by the FASAB,
such monies are not considered exchange revenues because neither the FCC nor the USF
Program sacrificed value or received value in return for the collection and disbursement of the
contributed funds (e.g., provided goods or services for a price).

The FCC currently recognizes the assessments collected under the USF Program as nonexchange
revenue on its Statement of Changes in Net Position and the related disbursements as program
expenses on the Statement of Net Cost. The current treatment represents a change to the FY
2000 recognition policy discussed in Note 28.




                                                  77
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)

Note 20 – Dedicated Collections: (continued)

The following summarizes the significant assets, liabilities, and related costs incurred with
managing the USF Program. See Required Supplementary Information for complete disclosure
of all activity related to the USF Program.

                                                FY 2001                   FY 2000
Assets

Cash and Other
Monetary Asset (Note 3)                     $ 1,594,667                   $       1,151
Investments (Note 4)                            652,571                       2,041,535
Accounts Receivable (Note 5)                    549,241                         405,350


Liabilities

Accounts Payable (Note 10)                  $    379,743                  $     395,226
Payable to Providers (Note 14)                         -                      2,052,849

Net Position                                    2,424,623                            -

Nonexchange Revenue
 Contributions                              $ 5,263,872
 Interest                                        88,868

Expenses
 Provider Related                           $ 4,940,907
 Administrative Costs                            40,060                         39,608

The administrative costs are expenses related to managing and overseeing the USF Program. The
USF Program is charged administrative expenses by the USAC and the NECA for expenses such
as salaries and benefits of the employees dedicated to managing the universal service support
mechanisms and the telecommunications relay services mechanism, rent and utilities for office
space used, providing accounting and other financial reporting related services, and other
miscellaneous activities.

Note 21 – Commitments and Contingencies:

A contingency is an existing condition, situation, or set of circumstances involving uncertainty
as to possible gain or loss to FCC. The uncertainty will ultimately be resolved when one or more
future events occur or fail to occur. With the exception of pending, threatened, or potential
litigation, a contingent liability is recognized when a past transaction or event has occurred, a

                                                78
                     FEDERAL COMMUNICATIONS COMMISSION
                        NOTES TO THE FINANCIAL STATEMENTS
                                  September 30, 2001 and 2000
                          (dollars in thousands unless otherwise stated)
future outflow or other sacrifice of resources is more likely than not, and the related future
Note 21 – Commitments and Contingencies: (continued)

outflow or sacrifice is measurable. For pending, threatened, or potential litigation, a liability is
recognized when a past transaction or event has occurred, a future outflow or other sacrifice of
resources is likely, and the related future outflow or sacrifice of resources is measurable.

The FCC is a party in various administrative proceedings, legal actions and claims brought by or
against the agency. In addition, several bankruptcy proceedings are ongoing related to the loan
portfolio. See Note 6 for more information related to the loans. In the opinion of FCC
management, the ultimate resolution of proceedings, actions and claims, outside of the loans,
will not materially affect the financial position or results of operations of FCC. Additionally,
there are certain matters under consideration at the Department of Justice which may result in
future proceedings or actions. A number of other matters are also under review at the FCC
involving disbursements from the USF to a limited number of service providers participating in
the schools and libraries program. In the opinion of FCC management, it is unlikely that all
matters under review will result in legal proceedings or other actions and as such an estimated
amount of recovery cannot be determined at this time. During FY 2001 the USF recovered $1.3
million as a result of the above mentioned reviews.

The FCC has examined its obligations related to cancelled FY 1996 authority and believes that it
has no outstanding commitments that will require future resources.

Note 22 - Statement of Budgetary Resources:

FCC receives borrowing authority consistent with the FCRA of 1990, as amended. The
borrowing is authorized through an indefinite permanent authority at interest rates set each year
by the Department of Treasury. In addition, the FCC has permanent indefinite authority for
subsidizing the Spectrum Auction direct loan program and mandatory authority to spend USF
Program receipts. All unobligated budgetary authority is in compliance with applicable
appropriation laws with regards to time limitations, restriction and purpose.

In accordance with applicable standards, all funds are borrowed from the Bureau of the Public
Debt at the beginning of the period. Therefore, the FCC does not carry over any unused
borrowing authority. Repayments of borrowings are made in accordance with the terms of the
FCRA of 1990, as amended. Financing sources for repayment are collections from borrowers or
subsidy.

Certain limitations have been placed on spending authority related to the USF. No more than
$2.25 billion per funding year may be spent on Federal universal service support for schools and
libraries. All schools and libraries funding authority for a given year that is unused in that
funding year shall be carried forward into subsequent funding years for use in accordance with
demand. 47 CFR §54.507(a). No more than $400 million per funding year may be spent on
Federal universal service support for health care providers 47 CFR §54.623(a). A funding year
   for the purposes of the USF is the period July 1 through June 30.
                                                 79
                    FEDERAL COMMUNICATIONS COMMISSION
                     NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
Note 22 - Statement of Budgetary Resources : (continued)

The net amount of budgetary resources obligated for undelivered orders at the end of FY 2001
was $51,857.

Adjustments shown on the FY 2001 Statement of Budgetary Resources are composed primarily
of two transactions related to the large upward and downward reestimates performed in FY 2001.
Related to the downward reestimates is a capital transfer to Treasury of $14,230,980 for funds
received as a result of the downward reestimate that was not going to be used for new loans.
Also included in the adjustments is the payment against borrowings from the Bureau of Public
Debt for $11,860,947.

Note 23 – Explanation of Differences Between the Statement of Budgetary Resources and
the Budget of the United States Government:

                                                       Financial    President’s
Budgetary Resources ($ in millions):                   Statements     Budget      Difference

   Budget Authority                                    $29,560      $29,561       $    1       A
   Unobligated Balances – Beginning of Period            3,811        2,029       (1,782)      B
   Spending Authority from Offsetting Collections       25,555       25,564            9       C
   Adjustments                                         (26,095)     (26,094)           1       D
   Total Budgetary Resources                            32,831       31,060       (1,771)

Status of Budgetary Resources ($ in millions):

   Obligations Incurred                                $30,495      $30,792       $ 297        E
   Unobligated Balances – Available                      2,296          237        (2,059)     F
   Unobligated Balances – Not Available                     40           31            (9)     G
   Total, Status of Budgetary Resources                 32,831       31,060       (1,771)

Outlays ($ in millions):

   Obligations Incurred                                $ 30,495     $ 30,792      $   297      E
   Less: Spending Authority from Offsetting
         Collections and Adjustments                   (25,559)     (25,564)           (5)     H
   Obligated Balance, net – Beginning of Period             45        1,816         1,771      I
   Less: Obligated Balance, net – End of Period            (64)      (2,123)       (2,059)     F
   Total Outlays                                         4,917        4,921             4

A – The President’s Budget includes a legislative proposal figure of $1 million to fund the full
cost of retirement benefits.



Note 23 – Explanation of Differences Between the Statement of Budgetary Resources and
                                                  80
                    FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)
the Budget of the United States Government: (continued)

B – The President’s Budget includes an adjustment to reflect the undelivered obligation portion
of USF Program year end funds while the Statement of Budgetary Resources (SBR) reflects all
USF Program year end funds as available. This results in a difference of $(1,771) million. The
remaining $(11) million is due to the inclusion of expired unobligated balances in the SBR and
not in the President’s Budget.

C – The President’s Budget includes a legislative proposal figure of $9 million to fund the full
cost of retirement benefits.

D - The SBR includes $(4) million in prior year recoveries and $5 in cancelled authority that is
not shown in the President’s Budget

E – The President’s Budget includes a legislative proposal figure of $11 million to fund the full
cost of retirement benefits. The President’s Budget also reflects $288 million in USF Program
obligations incurred but not paid that are not shown on the SBR because it is prepared on the
basis of USF Program receipts and outlays. The remaining $(1) million represents the upward
adjustments of prior year unexpended obligations $(2) that are included in the SBR and not the
President’s Budget and a rounding difference of $1 million.

F – The President’s Budget includes an adjustment to recognize the undelivered obligation
portion of USF Program year end funds while the SBR reflects all USF Program year end funds
as available. This results in the $(2,059) million difference.

G – The SBR includes the expired unobligated balance of $8 million that is not included in the
President’s Budget. The remaining $1 million is due to rounding.

H – The president’s Budget includes a legislative proposal figure of $(9) million to fund the full
cost of retirement benefits. The retirement benefits amount is offset by $4 million in prior year
recoveries included in the SBR and not the President’s Budget.

I - The President’s Budget includes an adjustment to reflect the undelivered obligation portion of
USF Program year end funds while the SBR reflects all USF Program year end funds as
available. This results in a difference of $1,771 million.

Note 24 – Statement of Custodial Activity:

Refunds and Other Payments consist of $1,771 in refunds to IVDS bidders as a result of the
restructure of the IVDS loan portfolio.

The FCC is allowed by law to retain a portion of the spectrum auction proceeds to cover the cost
of performing the auction process. In FY 2001, the FCC retained $67,525 of the amount
Note 24 – Statement of Custodial Activity: (continued)

                                               81
                       FEDERAL COMMUNICATIONS COMMISSION
                         NOTES TO THE FINANCIAL STATEMENTS
                                   September 30, 2001 and 2000
                            (dollars in thousands unless otherwise stated)
collected for spectrum auctions. These proceeds are made available to the FCC on a quarterly
basis. The transfers result in a reduction to FCC’s custodial liability to Treasury for auctions
proceeds. In addition, the FCC retained the $19,852 earned on upfront auction deposits to fund
the required transfer to the TDF.

The FCC has established allowance amounts for Spectrum Auction and Fines and Forfeitures
receivables of $5,031 and $16,155 respectively. These allowances reduce the custodial amount
that the FCC is liable to the U.S. Treasury. The Spectrum Auction allowance is based on one
receivable that has been submitted to Treasury for collection. The Fines and Forfeitures
allowance is an estimate of uncollectible amounts based on aging and collection history.

Note 25 – Statement of Financing:

Financing Sources Yet to be Provided of $130,023 includes the December subsidy reestimate of
$128,805, the increase in the Changes in Accrued Unfunded Leave balance of $809, the increase
in Other Accrued Liabilities of $540, and the decrease in the FECA Liability of $131 over the
prior year. The Other Liabilities Not Covered by Budgetary Resources shown in Note 13
Custodial Liability of $848,619, and Deposit/Unapplied Liability of $20,784, represent custodial
liabilities that have no impact on the Statement of Financing.

Note 26 – Cost and Revenue by Budget Function:

The tables below represent the costs and revenues of the FCC by budget functional classification
for FY 2001.

Gross Cost and Earned Revenue by Budget Functional Classification
Budget
Functional
Classification         Gross Cost           Earned Revenue                        Net Cost

2001
376                   $        14,463,326          $       (5,887,946)        $       8,575,380
959                                19,852                     (43,906)                 (24,054)
Total                  $       14,483,178          $       (5,931,852)        $       8,551,326




Note 26 – Cost and Revenue by Budget Function: (continued)


                                              82
                  FEDERAL COMMUNICATIONS COMMISSION
                   NOTES TO THE FINANCIAL STATEMENTS
                             September 30, 2001 and 2000
                      (dollars in thousands unless otherwise stated)
Intragovernmental Gross Cost and Earned Revenue by Budget Functional Classification
Budget
Functional
Classification          Gross Cost               Earned Revenue         Net Cost

2001
376                    $         1,292,464         $        (844,722)         $         447,742
959                                      -                  1,637,433                 1,637,433
Total                  $         1,292,464         $          792,711         $       2,085,175


The $1,637,433 included under classification code 959 represents amounts collected for others
by the FCC during FY 2001. For gross revenue purposes this amount is offset by a
corresponding revenue amount. However, per Treasury requirement, contra revenue amount is
shown on the intragovernmental schedule. For RSI purposes, this amount was excluded.

Note 27 – Comparability of the Statements:

FY 2001 is the first year for which comparative federal financial statements are required. To
meet this requirement certain changes have been made to the FY 2000 financial presentation to
effect comparability between the numbers. Changes made for comparability are disclosed
below.

Balance Sheet

Per OMB Form and Content, beginning in FY 2001 the Entity and Non-entity, and the Covered
by Budgetary Resources and Not Covered by Budgetary Resources categories are removed from
the asset section of the financial statements. Amounts split between these categories in FY 2000
have been combined for comparative purposes on the FY 2001 statements. The balances
affected include Fund Balance with Treasury, Cash and Other Monetary Assets, Accounts
Receivable, and Other Liabilities.

A Deferred Revenue line has been added to the statement to present separately the unusually
large deferred revenue created by Auction 35 in FY 2001. For consistency, the FY 2000
deferred revenue amount has been moved from Other Liabilities to Deferred Revenue.

In FY 2000, amounts representing collected contributions yet to be distributed and awaiting
approval for payment to USF Program providers were recorded on the Balance Sheet as Payable
to Providers. In FY 2001, these amounts were included in Cumulative Results of Operations.
See Note 28.



Note 27 – Comparability of the Statements: (continued)

                                              83
                     FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                               September 30, 2001 and 2000
                        (dollars in thousands unless otherwise stated)

Statement of Net Cost

The Consolidated Statement of Net Cost for the period ended September 30, 2000 was presented
in accordance with the following four FY 2000 budget activities: Authorization of Service,
Policy and Rulemaking, Enforcement, and Public Information Service. In the FY 2001 approved
budget, the number of budget activities was expanded to five: Licensing, Competition,
Enforcement, Consumer Information Service, and Spectrum Management. For FY 2001, the
FCC restructured its presentation of the consolidated Statement of Net Cost to align with the
budget activities in the approved budget.

In FY 2000, FCC included Federal credit reform revenue and expenses as part of its allocation to
each of the programs except the USF Program on the Statement of Net Cost. In FY 2001, these
amounts are shown separately. For comparability, FY 2000 data was reclassified to show the
credit expense and credit revenue in the FY 2000 Statement of Net Cost.

In FY 2000, the FCC recorded the portion of expenses related to managing and overseeing the
USF Program as operating expenses, and recorded as revenue the portion of contributions used
to fund those expenses. In FY 2001, the Statement of Net Cost reflects, for the USF Program, the
total amounts paid and due to providers.

Statement of Changes in Net Position

Amounts related to the USF Program were not recorded in the FY 2000 Statement of Changes in
Net Position. In FY 2001, FCC recorded total USF Program contributions as Universal Service
Nonexchange Revenue.

Statement of Budgetary Resources

In FY 2000, amounts related to the USF Program were not recorded on the Statement of
Budgetary Resources. In FY 2001, the Statement of Budgetary Resources includes the USF
Program Budget Authority, Unobligated Balances – Beginning of Period, Obligations Incurred,
and Unobligated Balances - Available.

Statement of Financing

For FY 2001 the names of two line items have changed to better reflect OMB guidance.
Downward Adjustments of Prior Year (PY) Unpaid Obligation is now Recoveries of PY
Obligations and Change in Receivables is now Receivable from Federal Sources.

In FY 2000, amounts related to the USF Program were not recorded on the Statement of
Financing. In FY 2001, these amounts are reflected as Obligations Incurred and Change in
Amount of Goods, Services, and Benefits Ordered But Not Yet Received or Provided.
Note 27 – Comparability of the Statements: (continued)

                                              84
                    FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)
Statement of Custodial Activity

The FCC revised its Statement of Custodial Activity presentation to be consistent with OMB
Form and Content. For comparative purposes, the beginning balances carried forward from prior
years have been removed from the FY 2000 presentation. The impact of the exclusion is that the
FY 2000 Total Revenue and (Increase)/Decrease in Amounts Yet to be Transferred balances are
reduced by the amount of the beginning custodial balances of $1,787,907. In addition, the
(Increase)/Decrease in Amounts Yet to be Transferred balance is increased by $64,437 to
recognize the portion of the FY 2000 balance that represented accounts receivable.

The composition of the Retained by the Reporting Entity balance has been changed to reflect
only the amounts kept by FCC for use in its operations. The impact of this change on FY 2000 is
as follows (1) auction cost transfers of $45,407 are moved from Refunds and Other Payments to
Retained by the Reporting Entity and (2) the Retained by the Reporting Entity balance of
$2,467,329 is moved to the (Increase)/Decrease in Amounts Yet to be Transferred line.

The FY 2000 Sources of Cash Collections has also been revised and $368,491 has been removed
from both collections and transfers for comparability with FY 2001. In FY 2000 $439,122 was
recognized as Upfront Deposits; $368,491 of this amount related to interest expense with
Treasury has been removed, $48,135 related to upfront deposits is grouped with Spectrum
collections, $2,531 is moved to Telecommunications Development Fund collections, and the
remaining 19,965 is now under Fines and Forfeitures collections.

In FY 2001, activities of the USF Program were excluded from the Statement of Custodial
Activity. The FY 2000 Statement of Custodial Activity was not restated for comparability
purposes. See Note 28 for a discussion on change in accounting principle. In addition, the FCC
revised its recognition policy with respect to Spectrum Auction custodial revenue. In FY 2000,
the FCC recognized custodial collections for both the revenue and deferred revenue portion of
Spectrum Auction cash collected. In FY 2001, only the revenue is being included in custodial
collections. The deferred revenue is shown only as a liability on the balance sheet of the FCC.
The application of this policy to the FY 2000 Statement of Custodial Activity reduces Total Cash
Collections and (Increase)/Decrease in Amounts Yet to be Transferred by $69,982.

Note 28 – Change in Accounting Principle:

The USF Program is listed as a program under the FCC in the Budget of the U.S. Government
and, therefore, the FCC determined that it meets the conclusive reporting entity criterion
specified in the FASAB SFFAC No. 2. The FCC is required to include the financial activity of
the USF Program in its annual financial statements.



Note 28 – Change in Accounting Principle: (continued)

  While the requirement to include information on the USF Program in the FCC’s financial
                                              85
                       FEDERAL COMMUNICATIONS COMMISSION
                        NOTES TO THE FINANCIAL STATEMENTS
                                  September 30, 2001 and 2000
                           (dollars in thousands unless otherwise stated)
statements is clear, the proper presentation of the USF Program activity is not due to the nature
of certain USF Program characteristics including:

   •   The USF Program funds are held in private sector hands and administered by private
       sector entities.
   •   With the exception of certain administrative costs, all of the funds are disbursed to third
       parties by the USF Program for the specified purpose.
   •   Budgetary based reporting to Treasury and OMB has been limited to the receipts and
       outlays of the USF Program, and these entities have not requested that the FCC, USAC,
       or NECA use obligation based accounting in their administration of the program.

Based on the characteristics discussed above and management’s review of the SFFAS No. 7,
specifically the definition of nonexchange revenue as inflows of resources to the Government
that the Government demands or receives without sacrificing value, management concluded that
the collections and disposition of funds related to the USF Program should be reported as
nonexchange revenue. In addition, given management’s view of the providers as recipient
entities, the FCC followed Paragraph 58 of the Implementation Guide to SFFAS No. 7 that states
“entities that collect nonexchange revenue for the General Fund and other recipient entities do
not recognize revenue as a result of collecting these resources. These entities are designated as
collecting entities by SFFAS No. 7, which requires collection and disposition of nonexchange
revenue be accounted for as a custodial activity.”

As a result, during FY 2000 the FCC recognized the collections and disbursements associated
with the USF Program as both custodial and dedicated collections by recording a liability on the
Balance Sheet, disclosing the funds as dedicated collections, and presenting the total collections,
total disbursements, and the untransferred (undistributed) balance on the Statement of Custodial
Activity instead of the Statement of Net Cost and the Statement of Changes in Net Position. The
only USF Program activities recognized by FCC on the Statement of Net Cost were revenue and
expenses for the portion of the funds related to managing and overseeing (administrative costs)
the USF Program. This presentation follows the FASAB guidance for reporting the collection
and disposition of custodial nonexchange revenues.

For fiscal year 2001 (as was the case for fiscal year 2000) the Budget of the U.S. Government
continued to show the USF Program revenues as Federal Funds and the FCC began to take a
more active role in the oversight, operations, and reporting of the USF Program. This
continuing ambiguity regarding the nature of the USF Program revenues and the resulting
concern of what alternative financial statement presentation would better serve the need of the
users of Federal Financial Statements (including the consolidated financial statements of the U.S.
Government) prompted management to re-evaluate the preferred method of presenting the USF
Program operating results.

Note 28 – Change in Accounting Principle: (continued)

Recognizing that the FCC financial statements are consolidated in the financial statements of the
                                                86
                   FEDERAL COMMUNICATIONS COMMISSION
                      NOTES TO THE FINANCIAL STATEMENTS
                                September 30, 2001 and 2000
                         (dollars in thousands unless otherwise stated)
U.S. Government, management requested a ruling on the preferred method of accounting from
FASAB. FASAB has requested additional background information, the transmittal of which is
pending. However, preliminary unofficial discussion with FASAB staff indicated that the USF
Program might be better reflected on the Statement of Net Cost and the Statement of Changes in
Net Position.

As a result of the continuing presentation of the USF Program funds as Federal Funds, unofficial
discussions with FASAB and further interpretation of SFFAS No. 7, FCC changed its method of
accounting treatment for the USF Program from custodial to programmatic in FY 2001. The
effects of this change on the FY 2001 presentation related to the USF Program are as follows: (1)
the Balance Sheet was revised to reflect reclassification of “Payable to Providers” to
“Cumulative Results of Operations”; (2) the Statement of Net Cost was revised to reflect total
amounts paid and due to providers; (3) the Statement of Changes in Net Position was revised to
record total contributions as Universal Service Fund Nonexchange Revenue; (4) the Statement of
Financing was revised to reflect the USF Program Obligations Incurred, and to record Special
Fund Receipts related to Nonexchange Revenue in the Entity’s Budget; (5) the Statement of
Budgetary Resources was revised to include the USF Program Appropriations, Unobligated
Balance Beginning of Period, Obligations Incurred, and Ending Unobligated Balance Available;
and (6) the USF Program receipts and disbursements are excluded from the Statement of
Custodial Activity. Management believes this is a preferred method of accounting for the USF
Program and the change has been treated as a change in accounting principle.

The change in accounting principle resulted in a cumulative adjustment of $2,052,850 in FY
2001. Had the new method of accounting been in effect during FY 2000, the FCC’s Net Cost of
Operations, Change in Net Position, and Unobligated Balances Available would have amounted
to $356,343, $(8,107,589), and $3,775,046, respectively.

In addition to the above change, the FCC also changed accounting policy with respect to the
recognition of Spectrum Auction revenue. See Note 1, Revenues and Other Financing Sources,
for discussion of the change and the effect on FY 2000.

Note 29 – Subsequent Events:

On March 4, 2002 the Supreme Court of the United States granted the Government’s petition to
review a ruling by the D.C. Circuit Court in a case involving the FCC and NextWave
Communications pursuant to which certain licenses for spectrum, which had been cancelled by
the Commission upon default of NextWave and subsequently re-auctioned, were instructed to be
reinstated by the D.C. Circuit Court. At issue, is the ownership of licenses for spectrum that
were sold to NextWave in FY 1994. At the time of the original sale, the value of the spectrum
licenses sold was approximately $4 billion. NextWave was unable to make required payments
due on its loan taken out in partial payment for the licenses and therefore defaulted on the loan.
Note 29 – Subsequent Events: (continued)

Subsequently, NextWave declared bankruptcy. Under the Commission’s rules, NextWave’s
  default resulted in automatic cancellation of its licenses. In FY 2001, the FCC auction
                                               87
                     FEDERAL COMMUNICATIONS COMMISSION
                       NOTES TO THE FINANCIAL STATEMENTS
                                 September 30, 2001 and 2000
                          (dollars in thousands unless otherwise stated)
(Auction 35) of licenses of spectrum associated with previously auctioned spectrum licenses
resulted in approximately $16 billion in winning bids. While the revenue from Auction 35 has
not yet been recognized as spectrum auction revenue due to its pending status, the winning bids
represent recovery on a significant portion of the previously auctioned spectrum licenses for the
purpose of subsidy cost estimation as required by the FCRA of 1990.

The recovery and timing of the recovery are key factors in the FCC’s calculation of its annual
credit reform subsidy. The accompanying financial statements have not been adjusted for any
potential effects of this subsequent event.

In response to a request from the winning bidders of spectrum re-auctioned as discussed above,
the Commission issued an order to return $2.8 billion, or 85% of approximately $3.1 billion in
down payments relating to Auction 35, retaining amounts equal to 3% of each winning bid, the
minimum bidder default payment under the Commission’s rules. This is in response to a
January, 2002 request by the Auction 35 winning bidders of spectrum associated with
NextWave's licenses for the FCC to refund the approximately $3.1 billion in down payments that
the agency has been holding since February 2001. The $3.1 billion in downpayments is reported
as deferred revenue on the balance sheet at September 30, 2001. The Commission will keep the
related Auction 35 licenses in a pending status until final resolution of the litigation and will
require the winning bidders to pay their full bids if the U.S. Supreme Court rules in the FCC's
favor.

As of this time, no additional requests have been received by the FCC to prepare any additional
subsidy calculation related to either the original D.C. Court decision, the Supreme Court's
agreement to review this decision, or the Commission's plan to return a portion of the down
payments received for the FY 2001 re-auction.




                                               88
               Federal Communications Commission
           Fiscal Year 2001 Annual Financial Report




   REQUIRED
SUPPLEMENTARY
 INFORMATION




      89
                                             Federal Communications Commission
                                             Required Supplementary Information
                                                   As of September 30, 2001
                                                      (dollars in thousands)


                                                      Intra-Governmental Assets


Partner                                          Fund                  Accounts             Loans
Code Trading Partner                             Balance               Receivable           Receivable        Investments   Other


20    Department of Treasury                      $      4,058,202     $                -   $             -   $         -   $       -


99    General Fund/Other                                       -                        -                 -         -               -


      Total                                       $      4,058,202     $                -   $             -   $         -   $       -




                                                 Intra-Governmental Liabilities


                                                                       Borrowings
Partner                                           Accounts             From                 Other
Code Trading Partner                              Payable              Treasury (BPD)       Liabilities

      Funded

20    Department of Treasury                      $                -   $    6,109,604       $             -

16    Department of Labor
          Workman's Compensation                               -                    -                313
      Total Department of Labor                                -                    -                313

24    Office of Personnel Management
             Health                                            -                    -                377
             Life                                              -                    -                 14
             Retirement                                        -                    -                850
      Total Office of Personnel Management                     -                    -              1,241

      Accrued Liabilities
4     Government Printing Office                               -                    -                 50
13    Department of Commerce                                   -                    -                 60
14    Department of Interior                                   -                    -                  7
19    Department of State & ICASS                              -                    -                  4
21    Department of Army                                       -                    -                  7
24    Office of Personal Management                            -                    -                 66
47    General Services Administration                          -                    -                282
      Total Accrued Liabilities                                    -                    -            476

20    Department of Treasury                                       -                    -             30
99    General Fund/Other                                           -                    -        849,532

      Total                                       $                -   $    6,109,604       $    851,592




                                                                            90
                                         Federal Communications Commission
                                         Required Supplementary Information
                                         For the year ended September 30, 2001
                                                  (dollars in thousands)

                                Intragovernmental Earned Revenues and Related Costs

Partner
Code Trading Partner                                    Earned Revenue                       Expenses


03     Library of Congress                              $              -                     $            23

04     Government Printing Office                                      -                                1,902

12     Department of Agriculture & NFC                                 -                                   1

13     Department of Commerce                                          -                                   61

14     Department of Interior                                          -                                1,484

15     Department Of Justice                                         72                                   38

16     Department of Labor
            Workman's Compensation                                                                       146
            Other                                                                                        747

18     United States Postal Service                                    -                                 704

19     U. S. State of Department                                    110                                    8

20     Department of Treasury
            Bureau of Public Debt                                     -                            1,214,175
            Financial Mang. Svc.                                843,627                                    -
            Imputed Costs                                             -                                9,551
            Other                                                   310                                   11

21     Department of Army                                              -                                    7

24     Office of Personnel Management
              Health                                                   -                               6,294
              Life                                                     -                                  236
              Retirement                                               -                              14,179
              Other                                                    -                                 622

47     General Services Administration                                 -                              35,163

58     Federal Emergency Management Agency                             -                                  37

69     U. S. Coast Guard Finance Ctr.                                153                                    -

75     Federal Occupational Health                                     -                                  53

97     National Security Agency                                      450                                    -

99     General Fund/Other                                              -                                7,022

                                                        $       844,722                      $     1,292,464

Intragovernmental Non-Exchange Revenue

The FCC does not have intragovernmental non-exchange revenue. All of the FCC's non-exchange revenues are public,
which includes collections attributable to civil monetary penalties and the Universal Service Fund.




                                                                                 91
                        Federal Communications Commission
                        Required Supplementary Information
                            September 30, 2001 and 2000



DEFERRED MAINTENANCE

To determine the estimated cost of deferred maintenance in fiscal year 2000, FCC
contracted with professional building inspectors to inspect its real property holdings
including buildings and structures. The inspection reports were, in most cases,
comprehensive reviews of the buildings and ground conditions and included all items that
required attention, whether critical to the functionality of the building or more of a
cosmetic nature. In assessing deferred maintenance in fiscal year 2001, FCC reviewed
the prior year report and updated it for items completed and newly identified projects.
The estimated deferred maintenance for FY 2001 and FY 2000 are $1.6 million and $1.7
million, respectively.

FCC intends to review the deferred maintenance items on a quarterly basis to determine
which items should be funded and whether funds are available to support the work.
Using the inspection reports and cost estimates as a baseline, FCC also intends to create a
spreadsheet showing a year-by-year schedule of maintenance and replacement items to
assist in budget planning.




                                          92
                                                  Federal Communications Commission
                                                      Consolidating Balance Sheet
                                                        As of September 30, 2001
                                                             (dollars in thousands)


                                                                            FCC                       USF                  TOTAL
ASSETS

Intragovernmental
Fund Balance with Treasury (Note 2)                                $         4,058,202          $                -     $     4,058,202
Accounts Receivable, net (Note 5)                                                  -                             -                 -
Investments (Note 4)                                                               -                             -                 -
Total Intragovernmental                                                      4,058,202                           -           4,058,202

Cash and Other Monetary Assets (Note 3)                                          7,587                     1,594,667         1,602,254
Investments (Note 4)                                                               -                         652,571           652,571
Accounts Receivable, net (Note 5)                                              223,837                       549,241           773,078
Interest Receivable                                                                  2                         7,887             7,889
Loans Receivable, net (Note 6)                                               5,972,496                           -           5,972,496
Forfeited Property (Note 7)                                                        -                             -                 -
Property, Plant, and Equipment, net (Note 8)                                    35,318                           -              35,318
Total Assets                                                                10,297,442                     2,804,366        13,101,808



LIABILITIES

Intragovernmental
Liability for Borrowings from Treasury (Note 9)                    $         6,109,604          $                -           6,109,604
Other Liabilities (Note 13)                                                    851,592                           -             851,592
Total Intragovernmental                                                      6,961,196                           -           6,961,196

Accounts Payable (Note 10)                                                      14,878                      379,743            394,621
Deferred Revenue (Note 12)                                                   3,304,671                          -            3,304,671
Payable to Providers (Note 14)                                                     -                            -                  -
Other Debt (Note 11)                                                           125,274                          -              125,274
Other Liabilities (Note 13)                                                     37,319                          -               37,319
Accrued Unfunded Leave                                                          13,357                          -               13,357
Total Liabilities                                                           10,456,695                      379,743         10,836,438

Commitments and Contingencies (Note 21)

NET POSITION

Unexpended Appropriations (Note 16)                                $            24,012          $                -              24,012
Cumulative Results of Operations                                              (183,265)                    2,424,623         2,241,358
Total Net Position                                                            (159,253)                    2,424,623         2,265,370


Total Liabilities and Net Position                                 $        10,297,442          $          2,804,366   $    13,101,808




                                         The accompanying notes are an integral part of these statements

                                                                       93
                                   Federal Communications Commission
                                   Consolidating Statement of Net Costs
                                 For the Periods Ended September 30, 2001
                                                (dollars in thousands)


                                                                     FCC                 USF               TOTAL
PROGRAM COSTS:
Licensing

Program Costs
Intragovernmental                                           $              19,209    $             -   $       19,209
With the Public                                                            59,158                  -           59,158

Less: Earned Revenues                                                    (86,901)                  -           (86,901)

Net Program Costs                                                          (8,534)                 -            (8,534)

Competition

Program Costs
Intragovernmental                                           $              21,146    $             -   $       21,146
With the Public                                                            65,149                  -           65,149

Less: Earned Revenues                                                    (94,876)                  -           (94,876)

Net Program Costs                                                          (8,581)                 -            (8,581)

Enforcement

Program Costs
Intragovernmental                                           $              18,100    $             -   $       18,100
With the Public                                                            55,734                  -           55,734

Less: Earned Revenues                                                    (80,553)                  -           (80,553)

Net Program Costs                                                          (6,719)                 -            (6,719)

Consumer Information

Program Costs
Intragovernmental                                           $               3,685    $             -   $        3,685
With the Public                                                            11,166                  -           11,166

Less: Earned Revenues                                                    (16,493)                  -           (16,493)

Net Program Costs                                                          (1,642)                 -            (1,642)

Spectrum Management

Program Costs
Intragovernmental                                           $               6,598    $             -   $        6,598
With the Public                                                            20,126                  -           20,126

Less: Earned Revenues                                                    (29,509)                  -           (29,509)

Net Program Costs                                                          (2,785)                 -            (2,785)

Universal Service

Program Costs
Intragovernmental                                                          -         $          -      $             -
With the Public                                                            -             4,980,967          4,980,967
                                                                                                -
Less: Earned Revenues                                                      -                    -                  -

Net Program Costs                                                              -         4,980,967          4,980,967

Credit Reform

Program Costs
Intragovernmental                                           $        1,214,175       $             -   $    1,214,175
With the Public                                                      7,965,866                     -        7,965,866

Less: Earned Revenues                                                (5,603,670)                   -        (5,603,670)

Net Program Costs                                                    3,576,371                     -        3,576,371


Total Net Program Costs                                     $        3,548,110       $   4,980,967     $    8,529,077

UNASSIGNED COSTS:
Imputed Costs                                                               9,551                  -            9,551
Depreciation                                                               11,662                  -           11,662
Telecommunications Development                                             19,852                  -           19,852
Other Expenses                                                              1,036                  -            1,036

Total Unassigned Costs                                      $              42,101    $             -   $       42,101

UNNASIGNED REVENUE

Telecommunications Development                                           (19,852) $                -           (19,852)



Net Cost of Operations                                      $        3,570,359       $   4,980,967     $    8,551,326




                                 The accompanying notes are an integral part of these statements

                                                                89
                                                   Federal Communications Commission
                                             Consolidating Statement of Changes in Net Position
                                                  For the Year Ended September 30, 2001
                                                                  (dollars in thousands)


                                                                                   FCC                         USF              TOTAL
Net Cost of Operations                                                      $       3,570,359           $       4,980,967   $     8,551,326

Financing Sources:
Appropriations Used (Note 18)                                                        3,469,300                        -           3,469,300
Universal Service Fund Nonexchange Revenue                                                 -                    5,352,740         5,352,740
Donations                                                                                   88                        -                  88
Imputed Financing                                                                        9,551                        -               9,551
Transfers In                                                                             5,964                        -               5,964
Transfers Out                                                                          (30,017)                       -             (30,017)
Downward Subsidy Re-estimate                                                               -                          -                 -
Loss                                                                                      (107)                       -                (107)
Total Financing Sources                                                              3,454,779                  5,352,740         8,807,519

Net Results of Operations before Change in Accounting Principle                       (115,580)                  371,773            256,193

Cumulative Effect of Change in Accounting Principal (Note 28)                                                   2,052,850         2,052,850

Net Results of Operations                                                             (115,580)                 2,424,623         2,309,043

Prior Period Adjustments (Note 19)                                                          2,589                                     2,589
Cancelled Appropriations                                                                   (2,323)                    -              (2,323)

Change in Cumulative Results of Operations                                            (115,314)                 2,424,623         2,309,309

Increase/(Decrease) in Unexpended Appropriations                                    (6,098,679)                       -          (6,098,679)

Change in Net Position                                                              (6,213,993)                 2,424,623        (3,789,370)

Net Position - Beginning of Period                                                   6,054,740                        -           6,054,740

Net Position - End of Period                                                $         (159,253)         $       2,424,623   $     2,265,370




                                             The accompanying notes are an integral part of these statements

                                                                            95
                                             Federal Communications Commission
                                          Combining Statement of Budgetary Resources
                                            For the Year Ended September 30, 2001
                                                            (dollars in thousands)


                                                                           FCC                       USF                  TOTAL
Budgetary Resources:

Budget Authority                                                  $         24,270,073        $           5,290,474   $    29,560,547
Unobligated Balances - Beginning of Period                                   1,858,746                    1,952,118         3,810,864
Spending Authority from Offsetting Collections                              25,554,843                            -        25,554,843
Adjustments                                                                (26,095,268)                           -       (26,095,268)

Total Budgetary Resources                                         $        25,588,394         $           7,242,592   $    32,830,986


Status of Budgetary Resources:

Obligations Incurred                                              $        25,548,168         $           4,946,717   $    30,494,885
Unobligated Balances - Available                                                   75                     2,295,875         2,295,950
Unobligated Balances - Not Available                                           40,151                             -            40,151

Total Status of Budgetary Resources                               $        25,588,394         $           7,242,592   $    32,830,986


Outlays:

Obligations Incurred                                              $        25,548,168         $           4,946,717   $    30,494,885
Less: Spending Authority from Offsetting Collections
     and Adjustments                                                       (25,558,950)                           -       (25,558,950)
Obligated Balance, net - Beginning of Period                                    45,148                            -            45,148
Less: Obligated Balance, net - End of Period                                   (63,770)                           -           (63,770)

Total Outlays                                                     $            (29,404)       $           4,946,717   $     4,917,313




                                        The accompanying notes are an integral part of these statements

                                                                      96
                                                    Federal Communications Commission
                                                     Consolidating Statement of Financing
                                                    For the Year Ended September 30, 2001
                                                                  (dollars in thousands)


                                                                         FCC                          USF                 TOTAL
Obligations and Nonbudgetary Resources

 Obligations Incurred                                              $      25,548,168           $       4,946,717      $    30,494,885
 Less: Spending Authority for Offsetting
       Collections and Adjustments                                       (25,554,810)                          -          (25,554,810)
 Receivables from Federal Sources                                                   3                          -                     3
 Change in Unfilled Customer Orders                                                (1)                         -                    (1)
 Recoveries of Prior Year Obligations                                         (4,108)                          -               (4,108)
 Financing Imputed for Cost Subsidies                                          9,551                           -                9,551
 Transfers in/out without reimbursement                                          -                             -                  -
 Exchange Revenue Not in the Budget                                         (130,376)                          -             (130,376)
 Other                                                                          (893)                                            (893)
 Total Obligations as Adjusted, and Nonbudgetary Resources        $         (132,466)          $       4,946,717      $     4,814,251


Resources That Do Not Fund Net Cost Of Operations

 Change in Amount of Goods, Services, and Benefits
 Ordered But Not Yet Received or Provided                                    (20,437)                       (6,011)           (26,448)
 Costs Capitalized on the Balance Sheet                                       (6,516)                          -               (6,516)
 Collections that decrease/increase credit program
 receivables/liabilties                                                    9,243,238                           -            9,243,238
 Financing Sources that Fund Costs of Prior Periods                          (10,664)                          -              (10,664)
 Other                                                                           876                           -                  876
 Total Resources That Do Not Fund Net Cost of Operations                   9,206,497                        (6,011)         9,200,486


Costs That Do Not Require Resources

 Depreciation and Amortization Expense                                        11,662                                           11,662
 Subsidy Amortization                                                        591,430                                          591,430
 Bad Debts                                                                       (64)                       40,261             40,197
 Changes in Other Accrued Liabilities                                             70                           -                   70
 Loss on Future Revenues                                                        (177)                          -                 (177)
 Downward Subsidy Re-estimate                                             (6,236,616)                          -           (6,236,616)
 Total Costs That Do Not Require Resources                                (5,633,695)                       40,261         (5,593,434)


Financing Sources Yet to be Provided (Note 25)                               130,023                           -             130,023


Net Cost of Operations                                            $        3,570,359           $       4,980,967      $     8,551,326




                                             The accompanying notes are an integral part of these statements

                                                                            97
                                                Federal Communications Commission
                                                Required Supplementary Information
                                          For the Years ended September 30, 2001 and 2000
                                                         (dollars in thousands)


STATEMENT OF BUDGETARY RESOURCES

The Office of Management and Budget (OMB) Bulletin No. 97-01, Form and Content of Federal Agency Financial Statements , as
amended, requires additional disclosure of an entity's budgetary information by major budgetary account if the information was
aggregated for presentation purposes on the Statement of Budgetary Resources. The major budget accounts include the FCC and the
Universal Service Fund. Reflected in the chart below are the major accounts of the FCC that are aggregated and presented in the FY 2000
and FY 2001 Combined Statement of Budgetary Resources.




FY 2001                                                     S&E          Credit Reform    Auctions         USF             Total
Budgetary Resources:

 Budget authority (line 1)                                    29,788        24,240,285             -      5,290,474        29,560,547
 Unobligated balances - beginning of period (line 2A)         18,389         1,830,868         9,489      1,952,118         3,810,864
 Spending authority from offsetting collections (line 3)     207,896        25,279,421        67,526                       25,554,843
 Adjustments (lines 4-6)                                      (2,662)      (26,091,927)         (679)                     (26,095,268)
 Total budgetary resources (line 7)                          253,411        25,258,647        76,336      7,242,592        32,830,986


Status of Budgetary Resources:

 Obligations incurred (line 8)                               240,960        25,240,233        66,975      4,946,717        30,494,885
 Unobligated balances - available (line 9)                      (164)              239             -      2,295,875         2,295,950
 Unobligated balances - not available (line 10)               12,615            18,175         9,361                           40,151
 Total, status of budgetary resources (line 11)              253,411        25,258,647        76,336      7,242,592        32,830,986


Outlays:

 Obligations incurred (line 8)                               240,960        25,240,233        66,975      4,946,717        30,494,885
 Less: spending authority from offsetting collections
       and adjustments (lines 3A, B, D, & 4A)                (212,683)     (25,279,420)      (66,847)                     (25,558,950)
 Obligated balance, net - beginning of period (line 12)        28,625            1,857        14,666                           45,148
 Obligated balance, transferred - net (line 13)                     -                -             -                                -
 Less: obligated balance, net - end of period (line 14)       (41,719)          (2,700)      (19,351)                         (63,770)
 Total outlays (line 15)                                       15,183          (40,030)       (4,557)     4,946,717         4,917,313




                                                                   98
FY 2000                                                    S&E         Credit Reform    Auctions     Total
Budgetary Resources:

 Budget authority (line 1)                                  336,683        1,788,542           -     2,125,225
 Unobligated balances - beginning of period (line 2A)        17,450           40,535      12,832        70,817
 Spending authority from offsetting collections (line 3)    186,747        2,680,113      45,407     2,912,267
 Adjustments (lines 4-6)                                   (167,358)        (419,781)      3,519      (583,620)
 Total budgetary resources (line 7)                         373,522        4,089,409      61,758     4,524,689


Status of Budgetary Resources:

 Obligations incurred (line 8)                             355,132         2,258,540      52,271     2,665,943
 Unobligated balances - available (line 9)                   2,023         1,820,733         172     1,822,928
 Unobligated balances - not available (line 10)             16,367            10,135       9,316        35,818
 Total, status of budgetary resources (line 11)            373,522         4,089,408      61,759     4,524,689


Outlays:

 Obligations incurred (line 8)                             355,132         2,258,540      52,271     2,665,943
 Less: spending authority from offsetting collections
       and adjustments (lines 3A, B, D, & 4A)              (211,846)      (2,680,113)     (48,927)   (2,940,886)
 Obligated balance, net - beginning of period (line 12)      37,528                -       19,137        56,665
 Obligated balance, transferred - net (line 13)                   -                -            -             -
 Less: obligated balance, net - end of period (line 14)     (28,625)          (1,856)     (14,666)      (45,147)
 Total outlays (line 15)                                    152,189         (423,429)       7,815      (263,425)




                                                                 99
                                                             Federal Communications Commission
                                                         Fiscal Year 2001 Annual Financial Report


Other Accompanying Information
  A complete list of the FCC’s performance measures and the results of the FCC’s FY 2001
  performance can be found in the FY 2001 Annual Program Performance Report, which was
  issued on March 29, 2002. This report can be located on the FCC webpage at
  http://www.fcc.gov/annual_reports.html.


  The following additional financial measures are included to highlight the FCC’s performance
  in the areas of travel voucher processing, prompt payment interest, remittance over secure
  Internet (e-commerce/ROSIE), electronic fund transfers (EFT), application and licensing
  fees, spectrum auctions, and budget figures. The Associate Managing Director of Financial
  Operations monitors these financial measures.




                                             100
                                                                                          Federal Communications Commission
                                                                                      Fiscal Year 2001 Annual Financial Report



                                                       Travel Voucher Processing
                                                               FY 2001
                                           2,200                                      1,954
                                           2,000              1,746
     Number of travel vouchers processed




                                           1,800
                                           1,600
                                           1,400
                                           1,200
                                           1,000
                                            800
                                            600
                                            400
                                            200
                                               0
                                                          FY 2000                FY 2001
                                                           6.5                    7.95
                                                   Average number of processing days per voucher



The FCC’s travel voucher processing goal of ten working days begins with the receipt of a
correct voucher with all proper supporting documentation. The Federal Travel Regulations
require Federal agencies to reimburse employees within 30 days of receipt of a proper
voucher. During FY 2001, a total of 1,954 travel vouchers were processed with an average
processing time of 7.95 working days. In FY 2000, fewer travel vouchers were processed,
a total of 1,746, with an average processing time of 6.5 working days.




                                                                          101
                                                                   Federal Communications Commission
                                                               Fiscal Year 2001 Annual Financial Report



                               Prompt Payment Interest
 $14 ,000
 $13 ,000
 $12 ,000
 $11 ,000
 $10 ,000
  $9 ,000
  $8 ,000
  $7 ,000
  $6 ,000
  $5 ,000
  $4 ,000
  $3 ,000
  $2 ,000
  $1 ,000
      $0
        Oct.   Nov .   De c.     Ja n   Feb   Ma r   April     May    June    July   Aug    Sept

                                        FY1999               FY2000           FY2001



The total prompt payment interest incurred during FY 2001 was $9,603. The FCC
processed 4,802 invoices totaling $64,565,269 during FY 2001 of which 912 invoices,
totaling $6,333,546, were subject to the late payment provisions of the Prompt Payment
Act. During FY 2001, there was an increase in purchases being processed by credit cards,
therefore resulting in fewer invoices.
In FY 2000, total prompt payment interest incurred was $20,123. Included in this total was
$12,051 paid on travel from the central billing account in May due to a contract dispute
between the General Services Administrator (GSA) and the card processor. The total
number of invoices processed in FY 2000 was 6,421, totaling $59,420,521, of which 1,453
invoices, totaling $5,285,128, were subject to the late payment provisions of the Prompt
Payment Act.




                                               102
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2001 Annual Financial Report



                        Remittance Over Secure Internet (ROSIE)
                                (ROSIE Monthly Totals by Fiscal Year)

      $1,000,000.00

          $900,000.00
                                                                                                33,777 payments
          $800,000.00                                                                           for $5,448,725
          $700,000.00
          $600,000.00
Dollars




          $500,000.00

          $400,000.00
          $300,000.00                                                                             12,738 payments
                                                                                                  for $1,393,398
          $200,000.00

          $100,000.00                                                                                     207 payments
                                                                                                          for $19,709
               $0.00
                        Oct   Nov      Dec     Jan      Feb    Mar    Apr        May      Jun       Jul    Aug      Sep
                                                          2001     2000          1999


          ROSIE, Remittance Over Secure Internet (E-commerce), is a payment system, which allows
          license applicants to pay their application fees electronically via credit card. The system,
          built to Department of the Treasury security specifications, employs the latest encryption
          technology and architecture to safeguard data. ROSIE is accessed via links in the licensing
          systems, which offer the electronic credit card payment option.
          ROSIE was implemented in August 1999, and in that month it processed 108 payments for
          $6,648. In September 1999, ROSIE processed an additional 99 payments for $13,061. In
          FY 2000, 12,738 payments for $1,393,398 were processed.27
          ROSIE usage has continued to steadily increase. By the end of FY 2001, ROSIE was
          processing 3,500 payments of about $500,000 in an average month. In FY 2001, 33,777
          payments for a total of $5,448,725 were processed, with an especially high volume of
          licenses in January and September. The spike in January was attributable to a high number
          of microwave licenses, which expired at the end of January and required renewal by
          February 1. The upsurge in September was attributable to payments of regulatory fees.
          The FCC has made enhancements to strengthen security and make ROSIE more customer-
          friendly. The FCC regards this venture into electronic commerce as a great success and is
          planning to expand the on-line payment option to include all payments made to the agency.




27
  The FY 2000 figures differ from those included in the FY 2000 Annual Financial Report due to a different computer retrieval
process to extract the supporting data for the months of June and July, 2000.


                                                             103
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2001 Annual Financial Report


                                      Electronic Funds Transfer
                              (Percent of Payments via EFT for FY 2001)
     120

                  97.5 99.9
     100
                                                                                                   87.2
                                                  79.7                                      76.3
       80

                                           59.2                                                                    All Agencies
       60
                                                                    43.7                                           FCC
       40
                                                                           21.9
       20

        0
                    Salary                  Vendor               Miscellaneous                 Total


                                  Percent of Payments via EFT
                                 (Comparison of FY 2000 and FY 2001)
                     120

                     100

                      80
                                                                                                    FY 2000
                      60
                                                                                                    FY 2001
                      40

                      20

                        0
                                Salary            Vendor      Miscellaneous        Total


       The FCC has worked to increase the number of payments via Electronic Funds Transfer
       (EFT). Through various outreach programs, such as including letters to vendors with
       contract and purchase order mailings, offering e-mail notifications of EFT payments, and
       telephoning vendors, the percentage of vendor payments via EFT has increased from
       64.9% in FY 200028 to 79.7% in FY 2001. There is also an initiative in progress to
       increase the percentage of fee refunds made via EFT. Currently, all refunds are paid by
       check and comprise 96% of FCC’s miscellaneous payments. The Commission is
       endeavoring to convert these check payments to EFT by capturing bank information from
       the applicant’s remittance. The FCC hopes to implement this capability during FY 2002.

28
  This figure differs from the FY 2000 Annual Financial Report because it represents the average over the year, rather than the
September 2000 figure.


                                                              104
                                                            Federal Communications Commission
                                                        Fiscal Year 2001 Annual Financial Report



                               Regulatory Fees
                       (FY 1994 to Present in $ Millions)


            250

            200

            150

            100

              50

               0
                   1994 1995 1996 1997 1998 1999 2000 2001
    Expected 60.4 116.4 126.4 152.5 162.5 172.5 185.7 200.1
    Collected 58.7 119.3 126.5 155.9 155.1 174.3 187.2 206.7


The Fee Collection Program authorizes the Commission to prescribe charges for certain
regulatory services it provides to many of the communications entities within its jurisdiction.
The chart above shows the Regulatory Fees collected since implementation in 1994.




                                           105
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2001 Annual Financial Report



                                Authorization of Services
                               (FY 1987 to Present in $ Millions)

    60                   56.5

                                               50.6                   51.0
    50                                  46.3
                                                               42.7           42.8
                 41.2
                                                       39.1
    40                                                                                38.0

                                                                                              32.0

    30                           27.5
                                                                                                      26.7   27.5
                                                                                                                    25.2


    20
          10.3
    10

     0
         1987
                 1988
                        1989
                                1990
                                        1991
                                               1992
                                                      1993
                                                              1994
                                                                      1995
                                                                             1996
                                                                                     1997
                                                                                             1998
                                                                                                     1999
                                                                                                             2000
                                                                                                                    2001
The Congressionally-mandated Fee Collection Program was implemented on April 1, 1987.
The chart above shows filing fees collected since the inception of the Fee Collection Program
to date.




                                                         106
                                                          Federal Communications Commission
                                                      Fiscal Year 2001 Annual Financial Report



                           Fines and Forfeitures
                      (FY 1999 to Present in $ Millions)


       60

       50

       40

       30

       20

       10

         0
                    1999                    2000                    2001
Collected            4.2                    13.7                     51.7


In FY 2001, collections for fines and forfeitures totaled $51,687,758. In FY 2000, the total
amount collected was $13,749,209, and in FY 1999, $4,160,504.
In 1999, the Commission approved a corporate merger. In its order, the Commission
adopted a "Performance Assurance Plan" designed to promote the quality of service
provided by one company to competitive carriers. The Performance Assurance Plan
requires the company to make voluntary payments to the U.S. Treasury if its wholesale
service quality falls below certain set standards. Because the performance fell below the
standards specified in the Commission's order, the company made substantial payments to
the U.S. Treasury in FY 2001.
Similar requirements were applicable to a second company. In calendar year 2001, their
performance also fell below the standards established in the Commission's order and were
required to submit payments to the U.S. Treasury.




                                          107
                                                           Federal Communications Commission
                                                       Fiscal Year 2001 Annual Financial Report



                     FY 2001 Collected & Anticipated
                    Cash Flows Generated By Auctions
                              $17.8 Billion


                                                                        Interest Earned from
                                                                            Treasury on
                                                                          Uninvested Funds
Net Winning Bids for                                                        $844 Million
Non-Installment Loans
    $16.9 Billion
                                                                           Miscellaneous Revenue
                                                                               $13.5 Million




  Net winning bids represent the total amount expected to be collected from FY 2001
  Spectrum Auctions. Auction 35 accounts for $16.8 billion of the total. Interest earned is
  the actual amount of interest collected from Treasury in FY 2001 related to Spectrum
  Auction Loans. Miscellaneous revenue includes assessed penalties, late fees, and unjust
  enrichments collected in FY 2001.




                                           108
                                                             Federal Communications Commission
                                                         Fiscal Year 2001 Annual Financial Report



             FY 2001 BA Distribution by Object Class
                                      Travel &     .5%
                                      Transportation
                                                              Rent/Communications/
                                                                     Utilities

                                                         13%                  Printing &
                                                                       .5%    Reproduction




Compensation &   59%
Benefits

                                                                 20%         Contract Services
                                                                             (Federal & Non-Federal)




                                                         6%
                                                                  1%
                                                                       Supplies & Materials

                                                         Equipment



   This chart illustrates the distribution of obligations by budget category in FY 2001
   (excluding the Universal Service Funds and the Auctions Loan Program administrative
   funds). These obligations are funded from multiple funding sources including annual
   appropriations, offsetting collections (regulatory fees, interagency and travel
   reimbursements), Auctions Loan Program reimbursements, and gifts and bequests.




                                         109
                                                           Federal Communications Commission
                                                       Fiscal Year 2001 Annual Financial Report



           FY 2001 BA Distribution by Object Class
               Credit Program Account (0300)




                                                                   ADP
                                                                   Equipment
                                                                      1%

Contract Services/            87%                        12%           Compensation &
Federal & Non-Federal                                                  Benefits




This chart illustrates the distribution of administrative cost by budgetary category required
to provide for Auctions Loan Program activities in FY 2001.




                                           110
                                                        Federal Communications Commission
                                                    Fiscal Year 2001 Annual Financial Report


                GLOSSARY OF ACRONYMS

3G       Third generation (wireless systems)
AMD-FO   Associate Managing Director – Financial Operations
BA       Budget Authority
CCB      Common Carrier Bureau
CFO      Chief Financial Officer
CIB      Consumer Information Bureau
CIMS     Consumer Information Management System
CLEC     Competitive local exchange carrier
CMP      Civil monetary penalties
CORES    Commission Registration System
COTS     Commercial off-the-shelf
CPNI     Customer Proprietary Network Information
CSB      Cable Services Bureau
CSRS     Civil Service Retirement System
DOI      Department of the Interior
DoL      Department of Labor
DOJ      Department of Justice
EB       Enforcement Bureau
EFT      Electronic Funds Transfer
EPA      Environmental Protection Agency
FAA      Federal Aviation Administration
FASAB    Federal Accounting Standards Advisory Board
FCC      Federal Communications Commission
FCRA     Federal Credit Reform Act
FERS     Federal Employee Retirement System
FFS      Federal Financial System
FTC      Federal Trade Commission
FTE      Full-time equivalents
FY       Fiscal year
GAAP     Generally accepted accounting principles
GPRA     Government Performance and Results Act of 1993
GSA      General Services Administration


                                      111
                                                       Federal Communications Commission
                                                   Fiscal Year 2001 Annual Financial Report

IB      International Bureau
ICASS   International Cooperative Administrative Support Services
ICB     Information Collection Budget
ILEC    Incumbent local exchange carrier
IP      Internet Protocol
IT      Information technology
IVDS    Interactive Video and Data Service
JFMIP   Joint Financial Management Improvement Program
LEC     Local exchange carrier
LNPA    Local Number Portability Administrator
MCAS    Managerial Cost Accounting System
MD&A    Management’s Discussion & Analysis
MDS     Multipoint Distribution Service
MMB     Mass Media Bureau
MVPD    Multichannel video program distribution
NAL     Notice of Apparent Liability
NANPA   North American Numbering Plan Administrator
NBC     National Business Center
NCES    National Center for Education Statistics
NECA    National Exchange Carriers Association
NFC     National Finance Center of the Department of Agriculture
NLS     Nortridge Loan System
NPRM    Notice of Proposed Rulemaking
NTIA    National Telecommunications and Information Administration
OALJ    Office of Administrative Law Judges
OCBO    Office of Communications and Business Opportunities
OET     Office of Engineering and Technology
OGC     Office of the General Counsel
OIG     Office of Inspector General
OLIA    Office of Legislative and Intergovernmental Affairs
OMB     Office of Management and Budget
OMD     Office of the Managing Director
OMR     Office of Media Relations
OPM     Office of Personnel Management


                                       112
                                                             Federal Communications Commission
                                                         Fiscal Year 2001 Annual Financial Report

OPP           Office of Plans and Policy
OWD           Office of Workplace Diversity
PCS           Personal Communications Service
PERM          Performance Evaluations and Records Management
PP&E          Property, Plant and Equipment
PY            Prior Year
QPRR          Quarterly Performance and Results Review
RAMIS         Revenue & Accounting Management Information System
ROSIE         Remittance Over Secure Internet
RSI           Required Supplementary Information
SBR           Statement of Budgetary Resources
SFFAC         Statement of Federal Financial Accounting Concepts
SFFAS         Statement of Federal Financial Accounting Standards
SMR           Specialized Mobile Radio
SOD           Speed of Disposal
TDA           Telecommunications Development Account
TDF           Telecommunications Development Fund
Treasury      United States Department of the Treasury
TRS           Telecommunications Relay Service (Fund)
U.S.          United States
USAC          Universal Service Administrative Company
USCS          United States Customs Service
USDA          United States Department of Agriculture
USF           Universal Service Fund
USF Program   The four support mechanisms of the USF and the TRS
WTB           Wireless Telecommunications Bureau
WTO           World Trade Organization
Y2K           Year 2000




                                           113
             SECTION V

  STATUS OF RECOMMENDATIONS FROM
PRIOR YEAR FINANCIAL STATEMENT AUDIT
SECTION V                  STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT


  Starting with fiscal year 1999, the FCC’s financial statements have been subjected to audit pursuant to the
  Chief Financial Officers Act of 1990, as amended. This matrix consists of prior year financial statement audit
  recommendations to correct identified internal control weaknesses and their resolution status at the
  completion of the FY 2001 audit. A determination as to the status of each recommendation was based on the
  audit fieldwork at FCC and discussion with FCC officials.

                                                                                             Resolution Classification (X)




                                                                                                        Planning or


                                                                                                        No Specific
                                                                                             Complete




                                                                                                         Complete
                                                                                                         Action in
                                                                                                         Action in



                                                                                                         Planning
                                                                                                         Progress




                                                                                                          Planned
                                                                                              Action




                                                                                                           Action
           CONDITIONS                              RECOMMENDATIONS




 MATERIAL
 WEAKNESSES:
 I. Financial Reporting                1.   Conduct an overall assessment of the
    (Repeat Condition)                      financial management systems in use and the
                                            degree of integration needed. Prepare a plan
 A. Develop an Integrated Financial         outlining what the steps are (i.e., processes,
    Management System                       data stewardship, management information,                   X
                                            systems architecture, internal control), the
                                            timelines for completion, and the estimated
                                            cost to implement and maintain and
                                            integrated system.
                                       2.   Train FFS users to use the application
                                            software currently employed to ensure users
                                            can generate common widely-used reports
                                            (except for special reports) that are needed
                                            for account analysis without having to                      X
                                            request the report to be generated by another
                                            user (i.e., obtain the information needed
                                            efficiently and effectively through electronic
                                            means).
 B. Establish and Maintain an          3.   Establish and maintain an adequate audit
    Adequate Audit Trail Used in            trail used in preparing the financial
    Preparing the Financial                 statements. Modify as deemed appropriate
                                                                                                        X
    Statements                              and apply commonly used SGL crosswalks
                                            in preparing the principal financial
                                            statements.
                                       4.   Identify and document in the accounting
                                            policies and procedures the transactions
                                            requiring elimination at the consolidated                   X
                                            level and provide pro-forma eliminating
                                            entries.
 C. Correct and Update Federal         5.   For      intergovernmental      transactions,
    Financial System Setup and              accumulate the detail and summary
    Posting Model Definitions               information for each activity by trading
    (Modified Repeat Condition)             partner by employing the following:                         X

                                            a) Incorporate the trading partner code as
                                               part of the account coding classification.
                                            b) Incorporate the trading partner code in         X

01-AUD-07-28           REPORT ON THE FEDERAL COMMUNICATIONS
                       COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                       Page 1
SECTION V                   STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                               Resolution Classification (X)




                                                                                                          Planning or


                                                                                                          No Specific
                                                                                               Complete




                                                                                                           Complete
                                                                                                           Action in
                                                                                                           Action in



                                                                                                           Planning
                                                                                                           Progress




                                                                                                            Planned
                                                                                                Action




                                                                                                             Action
            CONDITIONS                             RECOMMENDATIONS




                                               the customer/vendor identification code
                                               in accounts receivable/accounts payable
                                               systems.
                                           c) Incorporate the trading partner code into
                                               data captured when transactions are               X
                                               entered into accounting systems.
                                        6. Update and correct FFS to comply with the
                                           transaction posting models consistent with
                                           SGL guidance and policies when recording
                                                                                                          X
                                           and classifying transactions. Ensure that
                                           changes made to FFS are tested and accepted
                                           before they go into live production.
 D. Improve Analysis of Budgetary       7. Review all frequently used transaction types
    Accounts                               and transaction codes to ensure that the
                                                                                                          X
                                           accounting      entries    (budgetary    and
                                           proprietary) are correct.
 E. Record Activities Timely and        8. Record transactions on a timely basis.
    Prepare and Analyze Financial          Proper cut-off should be implemented when
                                                                                                          X
    Activity                               preparing interim financial statements.
    (Modified Repeat Condition)
 F. Formalize Financial Reporting       9.   Update and circulate to appropriate
    Processes and Responsibilities in        employees the Financial Coding Handbook.
    the Preparation of Financial             Ensure that appropriate employees receive           X
    Statements                               adequate training.
    (Modified Repeat Condition)
 G. Inadequate Discussion in            10. Ensure compliance with the standards
    Management’s Discussion and             required in preparing MD&A as outlined in
    Analysis                                SFFAS 15. Specifically, discussions related
                                            to the future effects on the entity of existing,     X
                                            currently know demands, risks, uncertainties,
                                            events, conditions and trends should be
                                            included or expanded.
 H. Combination of Reportable           11. Finalize written policies and procedures on
    Conditions May Materially               the financial reporting processes.          The
    Impact Financial Statements             written policies should provide sufficient
    (Repeat Condition)                      guidance for the year-end closing of the                      X
                                            general ledger as well as interim and annual
                                            financial statements’ preparation and
                                            analysis. The procedures should at least
                                            address the following issues:

                                             a) Prepare and review a complete set of
                                                financial statements in accordance with                   X
                                                generally accepted accounting principles
                                                at least quarterly.
                                             b) Establish milestones by setting dates for
                                                critical phases such as general ledger           X
                                                closing, preparation of statements, notes,

01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                        Page 2
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                      Resolution Classification (X)




                                                                                                 Planning or


                                                                                                 No Specific
                                                                                      Complete




                                                                                                  Complete
                                                                                                  Action in
                                                                                                  Action in



                                                                                                  Planning
                                                                                                  Progress




                                                                                                   Planned
                                                                                       Action




                                                                                                    Action
          CONDITIONS                     RECOMMENDATIONS




                                       and accountability report, quality control
                                       review, etc.
                                  c)   Collect common closing and adjusting
                                       entries in a formal listing, which is used
                                                                                        X
                                       when the general ledger is closed and
                                       financial statements are prepared.
                                  d)   Identify the individual who will be
                                       involved in the financial reporting
                                       process and establishing clearly defined
                                                                                        X
                                       roles and responsibilities for the staff
                                       involved in the preparation of interim
                                       and year-end financial statements.
                                  e)   Prepare and retain all journal entries in
                                       sufficient detail with supporting
                                                                                        X
                                       documentation, and post all journal
                                       vouchers in the general ledger.
                                 f)    Retain all documentation supporting the
                                       request, purpose and approval of all
                                       object class designations. Also, a listing
                                       of all current object codes including a
                                       statement of the purpose of each code
                                                                                        X
                                       should be maintained and provided to all
                                       personnel with the responsibility to
                                       initiate, prepare, and approve accounting
                                       transactions to ensure that object codes
                                       are used appropriately.
                                 g)    Require supervisory review for all
                                       entries posted to the general ledger and
                                       consolidating financial statements. A
                                       supervisor should review revisions to                     X
                                       previously approved entries and revised
                                       financial statements. All entries should
                                       be evidenced in writing.
                                 h)    Prepare and analyze formal monthly
                                       reconciliation     of    subsidiary    and
                                       summary account balances. FCC should
                                       also consider a “formal closing” of all
                                       accounts at an interim date(s), which
                                       will reduce the level of accounting
                                       activity and analysis required at year-
                                                                                                 X
                                       end.      This “formal closing” entails
                                       ensuring that all transactions are
                                       recorded in the proper period through
                                       the month-end. With complete and
                                       timely transaction recording, analysis of
                                       all major accounts can be performed
                                       effectively.
                                 i)    Utilize established tools (i.e., checklists,     X

01-AUD-07-28      REPORT ON THE FEDERAL COMMUNICATIONS
                  COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                     Page 3
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                      Resolution Classification (X)




                                                                                                 Planning or


                                                                                                 No Specific
                                                                                      Complete




                                                                                                  Complete
                                                                                                  Action in
                                                                                                  Action in



                                                                                                  Planning
                                                                                                  Progress




                                                                                                   Planned
                                                                                       Action




                                                                                                    Action
          CONDITIONS                        RECOMMENDATIONS




                                          implementation guides, etc) available for
                                          assistance in financial statement
                                          compilation and review.
                                     j)   Prepare and retain a comprehensive set
                                          of files, working papers and other
                                          documentation in support of all
                                          information included in the financial
                                          statements. This documentation should
                                          be more self-explanatory than what has
                                          been retained in the past.           The      X
                                          documentation should be at a supporting
                                          detail level where an accountant/auditor
                                          can utilize provided documentation for
                                          substantiation of reported data without
                                          extensive explanation or recreation by
                                          the original preparer.
 II.    Cost Accounting System   12. Review the propriety of the costing
        (Repeat Condition)           methodology and the matching of earned
                                     revenue     against  costs     (costing                            X
                                     methodologies).
                                 13. Determine outputs for all responsibility
                                                                                                        X
                                     segments as required.
                                 14. Document the costing methodologies and
                                     process in a formal policy and procedures
                                     manual or handbook. Management should
                                     determine which cost objects to define, the
                                                                                                        X
                                     costing methodology to use, the type of costs
                                     to include for each reporting or decision
                                     making purpose (i.e., full cost), and other
                                     items of a similar nature.
                                 15. Evaluate the adequacy of the cost accounting
                                     system or other cost-finding techniques (cost
                                     systems) in accumulating and allocating
                                     costs, matching revenue, accounting, and
                                     generating financial information. The cost
                                                                                                 X
                                     systems should meet the minimum
                                     requirements outlined in the Joint Financial
                                     Management         Improvement      Program
                                     (JFMIP)      Systems      Requirements    for
                                     Managerial Cost Accounting.
                                 16. Ensure that appropriate employees of
                                     bureaus and offices fully understand the
                                     importance of properly classifying costs and
                                     are trained on the proper application of the                X
                                     activity codes.



01-AUD-07-28       REPORT ON THE FEDERAL COMMUNICATIONS
                   COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                    Page 4
SECTION V               STATUS OF RECOMMENDATIONS FROM
                        PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                        Resolution Classification (X)




                                                                                                   Planning or


                                                                                                   No Specific
                                                                                        Complete




                                                                                                    Complete
                                                                                                    Action in
                                                                                                    Action in



                                                                                                    Planning
                                                                                                    Progress




                                                                                                     Planned
                                                                                         Action




                                                                                                      Action
           CONDITIONS                        RECOMMENDATIONS




 III.   Universal Service Fund    17. Document clearly the legal, financial, and
        and Telecommunication         operational boundaries of FCC, USF, TRS,
                                      USAC, and NECA. With assistance of
        Relay Service Fund            OGC, USAC, and NECA, FCC management                          X
        Financial Reporting           needs to formally define in writing each
        (Modified Repeat              financial management role and responsibility
        Condition)                    to avoid confusion and misunderstanding.
                                  18. Obtain from the OGC a list of laws and
                                      regulations applicable to the financial
                                      activities of USF and TRS Fund and
                                      communicate this information to officials of
                                                                                                   X
                                      USAC and NECA. Ensure that USF and
                                      TRS Fund financial activities are in
                                      compliance with these laws and regulations
                                      by reviewing these activities periodically.
                                  19. Assign one or more staff from FO to obtain
                                      an in-depth understanding of USF and TRS
                                      Fund operations, including financial
                                      operations, and who will work in
                                                                                                   X
                                      coordination with Common Carrier Bureau
                                      (CCB) to comprehensively review financial
                                      operational information provided by USAC
                                      and NECA.
                                  20. Review monthly financial reports provided
                                      by USAC and NECA. Request additional
                                      information from USAC and NECA as                            X
                                      necessary to obtain reasonable assurance that
                                      the financial data is reliable.
                                  21. Develop a formal financial reporting
                                      compilation      process      that adequately
                                                                                                   X
                                      addresses     issues      arising  from     its
                                      consolidating reporting components.
IV.     Loans Receivable and      22. While RAMIS is not operational and FCC
        Related Accounts              uses the loan models, it should:
        (Modified Repeat              a)   Ensure that access to the loan modules is
        Condition)                         limited to authorized staff.                   X

 A. FCC Current Loan Subsidiary
    Ledger System is Inadequate
    (Modified Repeat Condition)
                                      b) Train FCC employees to have adequate
                                         knowledge in using and reviewing the
                                         loan models.        If consultants are
                                         responsible for updating and analyzing                    X
                                         the loan models, FCC employees should
                                         review,    at   least   monthly,   the
                                         configuration settings and formulas of

01-AUD-07-28         REPORT ON THE FEDERAL COMMUNICATIONS
                     COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                    Page 5
SECTION V                 STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                             Resolution Classification (X)




                                                                                                        Planning or


                                                                                                        No Specific
                                                                                             Complete




                                                                                                         Complete
                                                                                                         Action in
                                                                                                         Action in



                                                                                                         Planning
                                                                                                         Progress




                                                                                                          Planned
                                                                                              Action




                                                                                                           Action
           CONDITIONS                             RECOMMENDATIONS




                                               the loan models to ensure they were not
                                               changed. In addition, FCC employees
                                               should review the outputs of the
                                               spreadsheets.
                                           c) Develop written policies and procedures
                                               for the use and review of the loan models                X
                                               and related output.
                                           d) Hardcode or lock cells with formulas in
                                               the loan models to prevent inadvertent or       X
                                               unintentional changes.
                                           e) Physically obtain and keep an official
                                                copy of the loan models updated at least
                                                monthly since these are FCC’s
                                                subsidiary records and are maintained          X
                                                by consultants outside of FCC financial
                                                management systems. A back-up copy
                                                should also be maintained.
                                       23. Ensure that the loan subsidiary system being
                                           developed and tested (RAMIS) is capable of
                                                                                                        X
                                           interfacing with other financial management
                                           systems.
                                       24. Ensure that RAMIS meets all the applicable
                                           requirements for a direct loan system in the
                                           Federal Financial Management System
                                           Requirements (FFMSR) issued by JFMIP.
                                           One of these requirements is to ensure that
                                           the direct loan system can support the
                                           following functions:
                                                                                                        X
                                            Loan extension
                                            Account servicing
                                            Department of Treasury cross-servicing
                                            Portfolio management
                                            Delinquent debt collection
                                            Other reporting requirements
 B. Reconcile General Ledger to the    25. Record loan activities promptly to maintain
    Subsidiary Ledger Balances              their relevance and value to management in                  X
    (Modified Repeat Condition)             controlling operations and making decisions.
                                       26. Reconcile general ledger balances to the
                                                                                                        X
                                            subsidiary records on a monthly basis.
 C. Implement Direct Loan System to        (See recommendations number 23 and 24.)
    Account for All Events in a Loan
                                                                                                        X
    Cycle
    (Repeat Condition)
 D. Loan Documentation Needs           27. Ensure all loan files are kept up-to-date, have
    Improvement                            consistent information, and contain relevant
                                                                                                        X
    (Repeat Condition)                     loan and other documents necessary to
                                           conform to private sector standards.

01-AUD-07-28           REPORT ON THE FEDERAL COMMUNICATIONS
                       COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                       Page 6
SECTION V                 STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                           Resolution Classification (X)




                                                                                                      Planning or


                                                                                                      No Specific
                                                                                           Complete




                                                                                                       Complete
                                                                                                       Action in
                                                                                                       Action in



                                                                                                       Planning
                                                                                                       Progress




                                                                                                        Planned
                                                                                            Action




                                                                                                         Action
           CONDITIONS                            RECOMMENDATIONS




                                      28. Establish effective controls for transfer of
                                          loan data files to the new loan system, and                 X
                                          ultimately, to a loan servicer, if employed.
 V.     Information Technology        29. Establish a comprehensive and integrated
                                          security management structure to ensure that
 A. FCC Is Not In Compliance With         FCC’s security policy is consistently applied.
    OMB Circular No. A-130                                                                                   X
    requirement for a Comprehensive
    Security Plan
    (Modified Repeat Condition)
                                      30. Conduct risk assessments for the FCC
                                          general support systems and major                           X
                                          applications.
                                      31. Develop and implement security plans for
                                          FCC’s major application systems and                         X
                                          mission-critical general support systems.
                                      32. Certify and accredit FCC’s major
                                          applications and general support systems,
                                                                                                      X
                                          based on the security plans developed and
                                          implemented.
                                      33. Establish a system to periodically review
                                          security controls over FCC’s computer
                                          systems in accordance with OMB Circular                     X
                                          No. A-130, Management of Federal
                                          Information Resources, Appendix III.
 B. FCC Needs Improved Controls to    34. Strengthen controls over access to protect all
    Protect Its Information               mainframe and client server-based resources.                X
    (Modified Repeat Condition)
                                      35. Address inadequacies and inconsistencies in
                                          the mainframe and network access request                    X
                                          process.
                                      36. Require periodic review of user privileges to
                                          ensure that capabilities are in line with job                      X
                                          responsibilities.
                                      37. Enhance audit trail facility utilization and
                                                                                                             X
                                          review.
 C. FCC Needs to Accelerate Efforts   38. Develop and implement a FCC-wide security
    to Develop and Test its               plan as prescribed by OMB Circular No.
    Contingency Plans                     A-130, Management of Federal Information                    X
    (Repeat Condition)                    Resources.
                                      39. Develop and test contingency plans for
                                          FCC’s major applications, networks, and
                                          telecommunications facilities.                                     X


                                      40. Obtain written documentation from FCC’s
                                                                                                      X
                                          data centers of developed and tested


01-AUD-07-28           REPORT ON THE FEDERAL COMMUNICATIONS
                       COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                     Page 7
SECTION V                 STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                            Resolution Classification (X)




                                                                                                       Planning or


                                                                                                       No Specific
                                                                                            Complete




                                                                                                        Complete
                                                                                                        Action in
                                                                                                        Action in



                                                                                                        Planning
                                                                                                        Progress




                                                                                                         Planned
                                                                                             Action




                                                                                                          Action
           CONDITIONS                            RECOMMENDATIONS




                                          contingency plans and participate in the
                                          scheduled tests of the plans.
                                      41. Immediately develop a comprehensive
                                          contingency plan that integrates the
                                                                                                              X
                                          individual plans of its data centers, networks,
                                          and telecommunications facilities.
 REPORTABLE
 CONDITIONS:
 VI. Review and Finalize      42. Perform a global assessment of the financial
     Written Internal Control     and administrative operations that will
                                  require a written internal control policies and
     Documentation for            procedures manual. Consolidate all financial
     Financial and                policies and procedures in a manual that is                          X
     Administrative               updated through controlled memoranda
     Operations                   during the year. Update the manual for the
     (Modified Repeat             memoranda changes annually or as
                                  necessary.
     Condition)
                                      43. Perform an in-depth review of the draft and
                                          final written internal control policies and
                                          procedures manual to ensure that
                                                                                                       X
                                          information is accurate, current as to the
                                          Federal internal control environment, and
                                          consistent with related documentation.
                                      44. Ensure that FCC employees responsible for
                                          internal controls are provided with a copy of
                                          the internal control policies and procedures                 X
                                          manual and are knowledgeable of the
                                          contents.
                                      45. Upon finalization of internal control policies
                                          and procedures manuals, conduct sufficient                   X
                                          training of Commission personnel.
 VII.   Improve Internal              46. Ensure that RAMIS and CORES, when fully
        Controls over Certain             operational, address and provide solutions to
                                          weaknesses noted in our findings.
        Accounts Receivable
        (Modified Repeat                                                                               X
        Condition)

 A. Regulatory Fees
                                      47. Continue with the alternative procedures
                                          used to ensure that all fees are collected
                                          while the new systems are not fully
                                          operational. Improve on the procedures by
                                                                                                       X
                                          evaluating the results of this year’s manual
                                          processes used in identifying unpaid
                                          regulatory fees and maintain a historical
                                          record of the percentage of collections. Use

01-AUD-07-28          REPORT ON THE FEDERAL COMMUNICATIONS
                      COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                       Page 8
SECTION V                   STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                            Resolution Classification (X)




                                                                                                       Planning or


                                                                                                       No Specific
                                                                                            Complete




                                                                                                        Complete
                                                                                                        Action in
                                                                                                        Action in



                                                                                                        Planning
                                                                                                        Progress




                                                                                                         Planned
                                                                                             Action




                                                                                                          Action
           CONDITIONS                           RECOMMENDATIONS




                                         this statistical information to determine how
                                         close actual payments are to FCC’s estimate
                                         and adjust future estimates, if necessary.
 B. Application-Processing Fees    48.   Document         and    implement      standard
                                         procedures for bureaus to review payment of
                                         fees prior to processing an application.                      X
                                         Verify compliance with the internal controls
                                         documented in the procedure manual.
                                   49.   Increase communication and coordination
                                         between FO and the bureaus. Ensure that
                                         authorized bureau staff have at least read-
                                         only access to financial information relevant                 X
                                         to their operations. The bureaus and FO
                                         should be proactive to the process instead of
                                         reactive.
                                   50.   Consider using CORES as a mandatory
                                         customer registration mechanism to ensure
                                         completeness of the database and consistent          X
                                         implementation        of    the     registration
                                         procedures.
 VIII. Improve Supporting          51.   Include in AO’s procedures requirements
       Documentation and                 that:
       Controls on Property              a)   The receiving unit prepares a receiving
       and Equipment                                                                          X
                                              report when a packing slip is not
                                              included in the shipment.
 A. Inadequate Supporting
    Documentation
                                         b) The receiving unit records all relevant
                                            asset information such as asset number,
                                            serial numbers and purchase order on the
                                            supporting     documentation       (order,
                                                                                              X
                                            receipt, and payment) to facilitate
                                            tracking and reconciliation of an asset in
                                            the property management system, in
                                            FFS, and the supporting documentation.
                                         c) Request assistance from the ordering
                                            office before assigning an asset number
                                            if there is any question as to how to             X
                                            assign asset and serial numbers to items
                                            received.
                                         d) For complex orders with multiple parts
                                            and lines in the purchase order, such as
                                            purchases of computer equipment or
                                            software, require the ordering office to          X
                                            provide instructions on the purchase
                                            order or other document sent to the
                                            warehouse or receiving unit as to how

01-AUD-07-28           REPORT ON THE FEDERAL COMMUNICATIONS
                       COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                      Page 9
SECTION V                  STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                          Resolution Classification (X)




                                                                                                     Planning or


                                                                                                     No Specific
                                                                                          Complete




                                                                                                      Complete
                                                                                                      Action in
                                                                                                      Action in



                                                                                                      Planning
                                                                                                      Progress




                                                                                                       Planned
                                                                                           Action




                                                                                                        Action
            CONDITIONS                          RECOMMENDATIONS




                                             costs and assets are to be recorded in the
                                             master property record.
                                     52. Determine which office, FO or AO, is
                                         responsible for maintaining the completeness
                                         of supporting documentation.         Consider
                                         including     a    checklist    of    relevant     X
                                         documentation that should be in an asset file
                                         to ensure completeness of supporting
                                         documentation.
 B. Incorrect Dollar Values in the   53. To improve the accuracy of cost data in the
    Property Records                     management property record and FFS, we
                                         recommend that FO:

                                         a)   Reconcile on a monthly basis the                       X
                                              management property record and the
                                              FFS for capitalized assets and at least
                                              annually for non-capitalized assets.
                                          b) Review FFS entries to ensure use of
                                                                                                     X
                                              proper accounting BOC.
                                          c) Restrict the use of budgetary BOC in
                                              FFS and train employees on the proper                  X
                                              accounting entries.
 C. Some Capitalized Costs Not           (See recommendation 53.b and c.)
    Distinguished from Non-                                                                          X
    Capitalized Costs
 D. Property Reconciliation’s Not        (See recommendation 53.a.)
                                                                                                     X
    Performed for Most of FY 2000
 E. Documentation Was Not Readily        (See recommendation 51.)
                                                                                            X
    Available for Examination
 F. Documentation Did Not            54. To provide assurance that software
    Demonstrate that Software            maintenance      costs     are classified
    Maintenance is Accurately            appropriately, we recommend that FO,
    Identified and Expensed              working closely with ITC, to:
                                                                                                     X
                                         a) Review capitalized software and
                                            software maintenance costs on a
                                            periodic basis.
                                         b) Establish a formal mechanism to ensure
                                            that personnel responsible for knowing
                                            which costs are maintenance and which
                                            costs are developmental provide correct                  X
                                            BOC guidance to personnel entering the
                                            information in FFS.

                                         c)   Provide    training   to    appropriate
                                              personnel on proper allocation of costs       X
                                              to BOCs.

01-AUD-07-28            REPORT ON THE FEDERAL COMMUNICATIONS
                        COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                   Page 10
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                      Resolution Classification (X)




                                                                                                 Planning or


                                                                                                 No Specific
                                                                                      Complete




                                                                                                  Complete
                                                                                                  Action in
                                                                                                  Action in



                                                                                                  Planning
                                                                                                  Progress




                                                                                                   Planned
                                                                                       Action




                                                                                                    Action
          CONDITIONS                       RECOMMENDATIONS




                                55. Ensure that software and systems’ owners
                                    certify the transfer of a software system from
                                    development to operations (in-service) in                    X
                                    order for the proper classification and proper
                                    depreciation of asset.
 IX.    Improve Controls Over   56. Review vendor account balances within the
        Accounts Payable            accounts payable subsidiary ledger.
                                                                                                 X
        (Modified Repeat
        Condition)
                                57. Perform periodic reconciliation of the
                                    general ledger and the subsidiary ledger
                                                                                                 X
                                    balances. Analyze the balances in the
                                    accounts periodically (monthly).
                                58. Activate user access controls and data entry
                                    field requirements to ensure that only
                                    appropriate activity is recorded in the                      X
                                    accounts payable subsidiary ledger.
                                59. Minimize the use of journal vouchers. If a
                                    journal voucher has to be prepared, ensure
                                                                                                 X
                                    that the appropriate subsidiary ledger is
                                    adjusted for the effect of the journal voucher.
                                60. Consider using a sub-SGL account (i.e.,
                                    SGL 2110.1) to account for auction-related
                                    payables. This will allow management to
                                    perform an effective and efficient review of                        X
                                    the accounts payable and the auction-related
                                    transactions.
 X.     Performance Goals and   61. Enhance communication and information
        Results                     sharing to achieve better results. Ensure that
                                    staff throughout FCC is aware of and
        (Repeat Condition)          managers      are   involved      in    setting     X
                                    organizational    goals     and     objectives,
                                    regularly assessing progress, and making
                                    needed changes to help ensure success.
                                62. Use goals and performance measures in day-
                                    to-day management and build them into
                                    performance appraisal system to develop an
                                                                                                 X
                                    understanding of the relationships between
                                    strategic goals and individual work
                                    assignments.
                                63. Increase coordination and communication
                                    among the PERM, budget office, program
                                    offices, and the CFO office. The CFO office
                                                                                                 X
                                    should provide costs input in achieving the
                                    outputs and/or outcomes of performance
                                    goals.

01-AUD-07-28       REPORT ON THE FEDERAL COMMUNICATIONS
                   COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                    Page 11
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                                                    Resolution Classification (X)




                                                                                               Planning or


                                                                                               No Specific
                                                                                    Complete




                                                                                                Complete
                                                                                                Action in
                                                                                                Action in



                                                                                                Planning
                                                                                                Progress




                                                                                                 Planned
                                                                                     Action




                                                                                                  Action
          CONDITIONS                      RECOMMENDATIONS




                               64. Link objectives and performance measures
                                   to the strategic plan and the annual financial              X
                                   statements.
 XI.    OMB Circulars No.      65. Institute a program for conducting periodic
        A-127 and A-130            reviews in accordance with OMB Circulars
                                   No. A-127 and A-130.                                               X
        Reviews
        (Repeat Condition)
                               66. Include the results of OMB Circulars No. A-
                                   127 and A-130 reviews as part of Section 4                         X
                                   reporting in FCC’s annual FMFIA report.
 COMPLIANCE
 REPORT:
 Government Performance and    We recommend that FCC comply with the
 Results Act of 1993 (GPRA)    provisions of GPRA and provide copies of these
                                                                                                      X
                               documents for our review as part of future
                               financial statement audit.




01-AUD-07-28       REPORT ON THE FEDERAL COMMUNICATIONS
                   COMMISSION’S FY 2001 FINANCIAL STATEMENTS                                                  Page 12
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT
                                                              Resolution Classification (X)




                                                                         Planning or


                                                                         No Specific
                                                              Complete




                                                                          Complete
                                                                          Action in
                                                                          Action in



                                                                          Planning
                                                                          Progress




                                                                           Planned
                                                               Action




                                                                            Action
          CONDITIONS                  RECOMMENDATIONS




01-AUD-07-28      REPORT ON THE FEDERAL COMMUNICATIONS
                  COMMISSION’S FY 2001 FINANCIAL STATEMENTS                             Page 13
SECTION VI

ACRONYMS
SECTION VI     ACRONYMS



   ADP         Automated data processing
   AGW         Account Grouping Worksheet
   APP         Annual performance plan
   APPR        Annual program performance report
   BOC         Budget object codes
   BS          Balance Sheet
   CCB         Common Carrier Bureau
   CFO Act     Chief Financial Officers Act of 1990
   CFO         Chief Financial Officer
   CORES       Commission Registration System
   DCIA        Debt Collection Improvement Act of 1996
   FACTS       Federal Agencies’ Centralized Trial-Balance System
   FCC         Federal Communications Commission
   FFMIA       Federal Financial Management Improvement Act of 1996
   FFS         Federal Financial System
   FMFIA       Federal Managers’ Financial Integrity Act
   FMS         Financial Management Service
   FO          Financial Operation Center
   FRN         FCC Registration Number
   FSPG        Financial Statements and Policy Group
   FY          Fiscal year
   GAAP        Generally accepted accounting principles
   GAO         General Accounting Office
   GMRA        Government Management Reform Act of 1994
   GPRA        Government Performance and Results Act of 1993
   IC Report   Report on Internal Control
   IT          Information technology
   ITC         Information Technology Center
   JFMIP       Joint Financial Management Improvement Program
   JV          Journal voucher
   LNPA        Local Number Portability Administration
   MD          Managing Director
   MD&A        Management discussion and analysis
   NECA        National Exchange Carrier Association
   NANPA       North American Numbering Plan Administrator
   OAPR        Open Accounts Payable Report
   OBDR        Open Billings Detailed Report
   OGC         Office of the General Counsel
   OIG         Office of Inspector General
   OMB         Office of Management and Budget
   OMD         Office of Managing Director
   PERM        Performance Evaluation Records Management




01-AUD-07-28   REPORT ON THE FEDERAL COMMUNICATIONS                   Page 1
               COMMISSION’S FY 2001 FINANCIAL STATEMENTS
SECTION VI     ACRONYMS



   PSG         Planning and Support Group
   QPRR        Quarterly Performance and Results Review
   RAMIS       Revenue Accounting and Management Information System
   SBR         Statement of Budgetary Resources
   SCA         Statement of Custodial Activity
   SDLC        system development life cycle
   SFFAC       Statement of Federal Financial Accounting Concepts
   SFFAS       Statement of Federal Financial Accounting Standards
   SGL         Standard general ledger
   SNC         Statement of Net Cost
   SP          Strategic plan
   TFM         Treasury Financial Manual
   TROR        Treasury Report on Receivables
   TRS         Telecommunications Relay Service Fund
   USAC        Universal Service Administrative Company
   USF         Universal Service Fund
   USSGL       United States Standards General Ledger




01-AUD-07-28   REPORT ON THE FEDERAL COMMUNICATIONS                   Page 2
               COMMISSION’S FY 2001 FINANCIAL STATEMENTS
